<html>
<title> - THE OBAMA ADMINISTRATION'S EDUCATION AGENDA</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
              THE OBAMA ADMINISTRATION'S EDUCATION AGENDA

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 20, 2009

                               __________

                           Serial No. 111-23

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html


                  U.S. GOVERNMENT PRINTING OFFICE
49-598                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Joe Wilson, South Carolina
Rush D. Holt, New Jersey             John Kline, Minnesota
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
[Vacant]

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 20, 2009.....................................     1

Statement of Members:
    Ehlers, Hon. Vernon J., a Representative in Congress from the 
      State of Michigan, prepared statement of...................    47
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     4
        Prepared statement of....................................     6
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     2
        Prepared statement of....................................     3
        Questions submitted to Secretary Duncan for the record...    48

Statement of Witnesses:
    Duncan, Hon. Arne, Secretary, U.S. Department of Education...     8
        Prepared statement of....................................    13
        Responses to questions submitted for the record..........    61


                       THE OBAMA ADMINISTRATION'S
                            EDUCATION AGENDA

                              ----------                              


                        Wednesday, May 20, 2009

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:05 a.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Payne, Andrews, 
Scott, Woolsey, Hinojosa, McCarthy, Tierney, Wu, Holt, Davis, 
Grijalva, Bishop of New York, Loebsack, Hirono, Altmire, Hare, 
Clarke, Courtney, Shea-Porter, Fudge, Polis, Tonko, Pierluisi, 
Sablan, Titus, McKeon, Petri, Castle, Ehlers, Biggert, Platts, 
Kline, McMorris Rodgers, Price, Guthrie, Cassidy, Hunter, Roe, 
and Thompson.
    Staff present: Tylease Alli, Hearing Clerk; Jeff Appel, 
Senior Education Policy Advisor/Investigator; Catherine Brown, 
Education Policy Advisor; Alice Cain, Senior Education Policy 
Advisor (K-12); Fran-Victoria Cox, Staff Attorney; Adrienne 
Dunbar, Education Policy Advisor; Curtis Ellis, Legislative 
Fellow, Education; Denise Forte, Director of Education Policy; 
Ruth Friedman, Senior Education Policy Advisor (Early 
Childhood); David Hartzler, Systems Administrator; Fred Jones, 
Staff Assistant, Education; Sharon Lewis, Senior Disability 
Policy Advisor; Ricardo Martinez, Policy Advisor, Subcommittee 
on Higher Education, Lifelong Learning and Competitiveness; 
Stephanie Moore, General Counsel; Alex Nock, Deputy Staff 
Director; Joe Novotny, Chief Clerk; Rachel Racusen, 
Communications Director; Julie Radocchia, Senior Education 
Policy Advisor; Melissa Salmanowitz, Press Secretary; Margaret 
Young, Staff Assistant, Education; Mark Zuckerman, Staff 
Director; Stephanie Arras, Minority Legislative Assistant; 
James Bergeron, Minority Deputy Director of Education and Human 
Services Policy; Andrew Blasko, Minority Speech Writer and 
Communications Advisor; Robert Borden, Minority General 
Counsel; Cameron Coursen, Minority Assistant Communications 
Director; Kirsten Duncan, Minority Professional Staff Member; 
Amy Raaf Jones, Minority Professional Staff Member; Alexa 
Marrero, Minority Communications Director; Chad Miller, 
Minority Professional Staff; Susan Ross, Minority Director of 
Education and Human Services Policy; Mandy Schaumberg, Minority 
Education Counsel; Linda Stevens, Minority Chief Clerk/
Assistant to the General Counsel; and Sally Stroup, Minority 
Staff Director.
    Chairman Miller [presiding]. We will come to order.
    As I came around the hall, I thought maybe we were giving 
away Springsteen tickets or something. I wasn't sure what was 
going on, here. But we have our own star, with Secretary 
Duncan.
    Secretary, thank you for joining us today, to discuss 
President Obama's agenda for transforming education in America.
    We think that we are in a unique moment in the history of 
this country. With all of the challenges that America is 
facing, I think that the president made a wise choice when he 
said that he wanted, after the stimulus, to rebuild the 
American economy through a new energy policy, education policy 
and health-care policy.
    This committee is involved in two out of three of those. I 
was encouraged this morning when I heard the chairman of the 
board of General Electric saying that if he was going to make 
one big bet for the future of innovation and technology in this 
country, and jobs here at home, it would be in energy.
    And he also made it very clear that if you are going to 
have that innovation and those contributions to the 
technological changes, we needed a well-educated workforce. We 
can no longer suffer the achievement gaps that we have in this 
country. We have worked hard to try to close them, but much 
more needs to be done.
    We can no longer afford to have only 70 percent of our 
high-school students graduate. These are nagging problems; and 
clearly, we have got to do all that we can. And Mr. McKeon has 
been a champion of this, to make college more affordable, and 
to deal with the cost of college.
    It is very difficult to talk about it at a time of 
recession, when state resources are crashing all over the 
country, but we have got to have more support from the states 
for our public institutions.
    I think both you and President Obama have clearly 
articulated that you see education as a basic civil right. And 
this is the civil-rights issue of our generation. And I think 
that members will have many questions of you.
    But I think, clearly, your budget reflects these priorities 
by providing the resources to improve the early learning 
opportunities for our youngest students, so that they are 
school-ready, and to provide better coordination among those 
opportunities within the states--the articulation that you have 
given to the need for world-class standards, common standards, 
in this country, to take us to a new place, both in curriculum 
and assessments--is very, very important. As is the idea that 
every child should have access to effective, qualified 
teachers, and that those teachers should enjoy and deserve a 
modern, professional workplace, where their talents, their 
time, their skills will be--and their success will be rewarded.
    And I think that these are very, very important ideas for 
this administration, and for our country, as we struggle to 
come out of this economic downturn, following the financial 
scandals, but we will. And we have got to emerge stronger in 
what will even be a more competitive and globalized economy and 
world.
    I think, with the commitment that you made for the $100 
billion as part of the American Recovery and Reinvestment Act 
sent a huge signal to the educators of this country, to 
families in this country, that you were, again, placing a bet 
on the ability of our education system to achieve the kind of 
success that parents want, that students want, that teachers 
want and, certainly, we want as a society, and as an economy.
    I think you have captured the imagination and, maybe, the 
anticipation of many people in this country, and in the 
Congress, with your unprecedented Fund for the Race to the Top. 
I hope that you will set the bar very high for those who get to 
participate. I think you have something very valuable in terms 
of the incentives that you can provide, the leadership that you 
can provide, to truly take us to a different place, with 
respect to our expectations and the realization of what can be 
done in the American education system, led by states who are 
willing to take their education systems to the future, and stop 
standing pat on the status quo.
    So it is a great honor for me, but it is also with a great 
deal of excitement to welcome you to our committee, and to the 
members who will be playing an important role on both sides of 
the aisle. This is one of the more bipartisan committees in the 
House. We start out each and every time trying to be there.
    We don't always agree. We don't always end up that 
bipartisan--but we have tried, with Mr. McKeon, myself--when he 
was chair, when I am chair--to try to work it out and see how 
long we could go down that road. And we will continue to 
address the initiatives of this administration in that same 
fashion.
    Thank you for being here.
    And, now, I would like to recognize the senior Republican 
on our committee, Congressman McKeon, my colleague from 
California.
    [The statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Secretary Duncan, thank you for joining us here today to discuss 
President Obama's agenda for transforming education in America.
    We are at a unique moment in history.
    Americans are facing unprecedented challenges. Workers are losing 
jobs, schools are facing devastating budget cuts, and families are 
losing ground.
    Fortunately, we have a President who believes that education is a 
critical component to a lasting economic recovery.
    With our economy in flux, he knows we must empower our nation's 
schools, colleges and universities to prepare our next generation of 
leaders, entrepreneurs and innovators.
    He is committed to building the world-class education system our 
economy needs and our children deserve.
    He put us on the right track by putting Arne Duncan at the helm of 
our nation's schools.
    Secretary Duncan is the right person, in the right position, at the 
right time. And he has his work is cut out for him.
    President Obama and Secretary Duncan have inherited an education 
system that is failing the needs of our students and our economy.
    We face the continuing challenge of closing the achievement gap 
that begins with our earliest learners.
    We used to be a world leader in graduation rates. Now we've fallen 
to 18th out of 24 industrialized nations.
    Only 70 percent of our students graduate on time with a regular 
diploma from high school.
    Not enough of our students are getting the support they need to go 
to college--many can't afford it once they get there.
    The status quo isn't working and it isn't sustainable--not if we 
want to reclaim our leadership in this global economy.
    Both President Obama and Secretary Duncan have called education the 
civil rights issue of our generation.
    A good education is a basic civil right.
    Education has always held the potential to be the great equalizer 
in this country.
    But it will require bold action to get us there.
    Part of what I think is unique about President Obama is he takes a 
comprehensive approach to education, from cradle to career.
    The President believes we have to improve early learning 
opportunities so our youngest learners can build a good foundation for 
success.
    He believes we can finally achieve the 21st century education 
system we've been striving for by significantly improving No Child Left 
Behind, while maintaining the law's core goals and focus on 
accountability.
    He believes we must insist on world-class standards for all 
students, and ensure that every student has access to an effective, 
qualified teacher and that those teachers deserve a professional 
workplace where hard work and success are rewarded.
    He wants to improve our accountability system so it is fairer, and 
better reflects students' learning.
    And he wants to regain our competitive footing.
    He has called on every American to commit to a year or more of 
higher education. To help get them there, he wants to expand access to 
college by increasing the Pell Grant scholarship and other forms of 
student aid by almost $100 billion over the next ten years.
    This will go a long way toward making sure that all qualified 
Americans who work hard and want to go to college can achieve this 
goal.
    This investment not only shows the President is serious about 
making education a part of our recovery, it also shows that this 
Administration is serious about driving reforms.
    They recognize that this investment gives us an opportunity to lay 
the groundwork for reforms that will be essential to any larger effort 
to improve our schools.
    In return for these dollars, they asked schools and districts to 
move the ball down the court in areas that are vital to the success of 
our children: getting excellent teachers into the neediest classrooms; 
improving the quality of assessments; and developing data systems that 
give us timely information on what's happening in our schools.
    The plan also gives Secretary Duncan the tools to fuel innovative 
reforms in schools through his unprecedented Race to the Top Fund. I 
hope he will set the bar very high in order for states to access these 
funds.
    I am confident Secretary Duncan and President Obama know that to 
make the change our students need, you have to be willing to break some 
china.
    Today we'll hear more from Secretary Duncan about the Obama 
administration's education roadmap.
    The last time Secretary Duncan appeared before this committee, he 
was the CEO of Chicago's Public Schools.
    His leadership there was impressive.
    What set him apart was his ability to work together, with any 
stakeholder, from any team, to do what's best for students.
    That's the most important barometer for success in the tasks before 
him.
    This will require real leadership and political will on all our 
parts.
    Secretary Duncan, I look forward to hearing your testimony, and 
learning more about how our committee can support your efforts to make 
college more affordable, expand access to quality early education, 
improve No Child Left Behind and build a stronger economy that gives 
all Americans the opportunity to get an excellent--and equal--
education.
                                 ______
                                 
    Mr. McKeon. Thank you, Chairman Miller, and good morning.
    Good morning to you, Mr. Secretary. Thank you for appearing 
before this committee. I hope your testimony will be the start 
of a good, meaningful conversation today, about the future of 
education in America. I also hope this conversation can lead to 
common ground, one where both Democrats and Republicans can 
work together to improve our nation's schools.
    But a good conversation usually involves two points of 
view. That is why I would like to take a moment to briefly 
outline the Republican education agenda. By putting everything 
on the table this way, perhaps we can reach that common ground 
together, and sooner.
    So, here is where Republicans stand. Our basic philosophy 
is this: Education decisions should be left to those who make 
them best--parents, local school districts and the states. The 
federal government should play a limited, but helpful role in 
making those decisions. To that end, we stand for constant 
improvement and innovation in education.
    I know we have had several conversations already, and I 
am--I know that is right where you are.
    We also believe in the right of parents to choose the 
school or other educational options that best fits the needs of 
their children. And we demand results from our reform so the 
taxpayer dollars are not wasted.
    Mr. Secretary, judging by what I have heard from you and 
President Obama in recent months, there are some areas where we 
can work together. Charter schools are a good example. Both you 
and the president have expressed support for them as a tool to 
improve student achievement. We Republicans also support good 
charter schools.
    We hope to hear ideas from you today about how we can 
ensure that states are not limiting this option by placing 
arbitrary caps on how many charter schools can operate.
    I also believe we can work together on expanding pay-for-
performance systems. We believe that teachers and principals 
should be rewarded for their success in improving academic 
achievement. But there are other areas where we are not in 
agreement at this time; areas where this administration has 
acted to protect the status quo at the expense of low-income 
students.
    The D.C. Opportunity Scholarship Program is a good example. 
This groundbreaking program has helped thousands of low-income 
students here in Washington attend the school of their choice, 
including Sidwell Friends, where the president's children 
attend.
    However, instead of helping to save the program, the 
president recently signed a law that effectively phased it out.
    Your agency, Mr. Secretary, evoked--revoked scholarships 
that had been awarded to new students for the upcoming school 
year. I know you want to improve public schools for all 
children; so do I. But until that happens, we shouldn't take 
away this critical lifeline.
    More than 7,000 D.C. residents have signed a petition 
imploring us to keep the program alive. Student loans are 
another area where we respectfully disagree with President 
Obama's agenda.
    Members on both sides of the aisle are troubled by the 
president's proposal to end the Federal Family Education, or 
FFEL, Program. So there are 1,646 financial-aid officials, and 
students, who have signed another petition, urging Congress to 
keep FFEL, and oppose the administration's proposal.
    This program has been around for more than four decades. It 
has made the dream of a college education, and the quality of 
life that often comes with that degree, possible for millions. 
One of the reasons for this success is because the program can 
be tailored best to fit students' needs, thanks to the private 
lenders, not-for-profits and state agencies that have all 
partnered with the federal government, colleges and 
universities, to serve students.
    If we follow the president's plan and use only a direct-
loan program, this would end the significant public-private 
partnership, and replace it with the federal government and its 
contractors. There would be a one-size-fits-all Washington 
program for the more than 6,500 colleges and universities in 
America, whose diversity is the cornerstone of higher education 
in this country.
    Ending this public-private partnership also will cost more 
than 30,000 jobs right off the bat, and could affect thousands 
more. That said, we are not against reforming our nation's 
complex financial-aid system. Some reforms can be made, but we 
think it is best to have a thoughtful and deliberate 
conversation with all the parties.
    Just this week, I heard from several small colleges that 
are very opposed to being forced to convert to direct loans. 
These colleges are concerned that their voices are not being 
heard in the rush to promote the Direct Loan Program.
    They have real concerns. And we should listen to the impact 
such a conversion will have on their students and institutions. 
That way, we can make some good reforms, while keeping what 
works in the program, for all our colleges and the students 
they serve.
    With that, I look forward to your remarks, and continuing 
this conversation.
    Here are the petitions I mentioned. We will be glad to get 
them over to your office.
    Thank you, Mr. Secretary.
    And I yield back.

Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Senior Republican 
                Member, Committee on Education and Labor

    Thank you, Chairman Miller and good morning.
    And good morning to you, Mr. Secretary. Thank you for appearing 
before this committee. I hope your testimony will be the start of a 
good, meaningful conversation today about the future of education in 
America.
    I also hope this conversation can lead to common ground, one where 
both Democrats and Republicans can work together to improve our 
nation's schools.
    But a good conversation usually involves two points of view.
    That's why I would like to take a moment to briefly outline the 
Republican education agenda.
    By putting everything ``on the table'' this way, perhaps we can 
reach that common ground together sooner. So here's where Republicans 
stand...
    Our basic philosophy is this: Education decisions should be left to 
those who make them best--parents, local school districts, and the 
states.
    The federal government should play a limited, but helpful, role in 
making those decisions.
    To that end, we stand for constant improvement and innovation in 
education.
    We also believe in the right of parents to choose the school, or 
other educational options, that best fits the needs of their children.
    And we demand results from our reforms, so that taxpayer dollars 
are not wasted.
    Mr. Secretary, judging by what I've heard from you and President 
Obama in recent months, there are some areas where we can work 
together.
    Charter schools are a good example. Both you and the President have 
expressed support for them as a tool to improve student achievement.
    We Republicans also support charter schools. We hope to hear ideas 
from you today about how we can ensure that states are not limiting 
this option by placing arbitrary caps on how many charter schools can 
operate.
    I also believe we can work together on expanding pay-for-
performance systems. We believe that teachers and principals should be 
rewarded for their success in improving academic achievement.
    But there are other areas where we are not in agreement at this 
time--areas where the Administration has acted to protect the status 
quo at the expense of low-income students.
    The D.C. Opportunity Scholarship program is a good example. This 
groundbreaking program has helped thousands of low-income students here 
in Washington attend the school of their choice--including Sidwell 
Friends, where the President's children attend.
    However, instead of helping to save the program, the President 
recently signed a law that effectively phased it out.
    Your agency, Mr. Secretary, revoked scholarships that had been 
awarded to new students for the upcoming school year.
    I know you want to improve public schools for all children. So do 
I. But until that happens, we shouldn't take away this critical 
lifeline. More than 7,000 D.C. residents have signed this petition 
[hold up petition] imploring us to keep the program alive.
    Student loans are another area where we respectfully disagree with 
President Obama's agenda.
    Members on both sides of the aisle are troubled by the President's 
proposal to end the Federal Family Education Loan--or FFEL--program.
    So are 1,646 financial aid officials and students who have signed 
another petition urging Congress to keep FFEL and oppose the 
Administration's proposal.
    This program has been around for more than four decades. It has 
made the dream of a college education--and the quality of life that 
often comes with that degree--possible for millions.
    One of the reasons for this success is because the program can be 
tailored to best fit students' needs, thanks to the private lenders, 
not-for-profits and state agencies that have all partnered with the 
federal government, colleges and universities to serve students.
    If we follow the President's plan and use only a direct loan 
program, this would end the significant public-private partnership and 
replace it with the federal government and its contractors.
    There would be a one-size-fits-all Washington program for the more 
than 6,500 colleges and universities in America whose diversity is the 
cornerstone of higher education in this country.
    Ending this public-private partnership also will cost more than 
30,000 jobs right off the bat--and could affect thousands more.
    That said, we are not against reforming our nation's complex 
financial aid system. Some reforms can be made. But we think it's best 
to have a thoughtful and deliberate conversation with all the parties.
    Just this week I heard from several small colleges that are very 
opposed to being forced to convert to direct loans. These colleges are 
concerned that their voices are not being heard in the rush to promote 
the direct loan program.
    They have real concerns and we should listen to the impact such a 
conversion will have on their students and institutions.
    That way, we can make some good reforms while keeping what works in 
the program for all our colleges and the students they serve.
    With that, I look forward to your remarks and continuing this 
conversation.
    Thank you, Chairman Miller. I yield back.
                                 ______
                                 
    Chairman Miller. Thank you.
    Now, I would like to officially introduce Arne Duncan, who 
was nominated to be Secretary of Education by President Obama, 
and was confirmed by the Senate on January 20, 2009.
    Prior to his appointment as secretary of education, Mr. 
Duncan served as the chief executive officer of the Chicago 
Public Schools, a position which he was appointed to by Mayor 
Richard Daley from June 2001 to December 2008.
    In his position, he became the longest-serving big-city 
education superintendent in the country. In his role as CEO, 
Mr. Duncan was able to raise the educational standards and 
performance to improve teacher and principal quality, and 
increase learning options.
    He helped unite education reformers and bring together 
education stakeholders from across the spectrum to raise the 
bar in Chicago's public schools. He is a dynamic leader, who 
has an appreciation for real reform, ending the status quo. He 
is a true disrupter.
    Mr. Secretary, welcome to the committee.
    Under the rules of the committee, we generally allow 
witnesses 5 minutes. You are the only witness. You are the 
Secretary of Education. And we want you to proceed in the 
manner in which you are most comfortable to get across to the 
committee, the points you want to make.
    And, then, we will have questions from the members of the 
committee, as long as the time lasts.

           STATEMENT OF HON. ARNE DUNCAN, SECRETARY,
                  U.S. DEPARTMENT OF EDUCATION

    Secretary Duncan. Thank you so much, Chairman Miller, for 
your extraordinary leadership, to Representative McKeon, and 
than you so much for your hard work. I feel very, very lucky to 
have leadership on both sides of the aisle who is passionate, 
who is absolutely committed to helping us improve. And I look 
forward to working with all of you to help take education in 
our country to an entirely different level.
    And, Chairman Miller, just as you said----
    Chairman Miller. I think if we can get you to pull the 
microphone closer, I see some heads nodding in the back of the 
room a little bit.
    Secretary Duncan. I will pull it a little closer in.
    Chairman Miller, just on a personal level, this transition 
to Washington--you have been just an absolute champion--someone 
I have learned a tremendous amount from. And I want to thank 
you for your leadership and your thoughtfulness, and your heart 
and passion for kids around the country.
    I want to begin by just expressing my great concern for the 
very disturbing and troubling information that came out of your 
hearing yesterday, on restraints and seclusion, and where you 
see children being hurt--children's safety has to be our 
number-one concern, before we begin to think about educating 
them and doing other things.
    And so this is one where I am going to ask state school 
chiefs from around the country to report to me what their plans 
are to make sure that student safety is taken care of. And as 
we go into the summer and prepare for next school year, I want 
to make sure as we go into the next school year, that every 
state has a real, clear plan as to how to do this in a way that 
makes sense and doesn't jeopardize--doesn't endanger children.
    As you know, I come from Chicago. And in Illinois--in, I 
think, your testimony yesterday, Illinois has what I think is a 
very effective plan that prohibits the use of seclusion and 
restraint for punishment. It places time limits on this and 
requires monitoring and communication. It requires specific 
documentation of each incident--the significant training. And, 
because of all that, you have seen a dramatic reduction in the 
number of these incidents.
    There is also, on our Web site, information on positive 
behavioral interventions and support to www.pbis.org, which I 
think is an invaluable resource. And so I am going to be 
working with the state school chiefs, as we go into next school 
year, to make sure that, across the country, we are thoughtful, 
and we are not doing anything that endangers children or hurts 
or put them in any kind of jeopardy. So we are going to work 
very hard. And I appreciate----
    Chairman Miller. Well, thank you for that.
    I know Mr. McKeon and I discussed this yesterday. And we 
would love to see the leadership come from the states. And if 
you could help coordinate that, that would really be helpful. 
Thank you.
    Secretary Duncan. So we will do whatever we can, there. 
That is a very, very important issue.
    And, again, I was deeply disturbed by some of the testimony 
coming out of yesterday's hearing.
    It is my pleasure to share with you President Obama's plan 
for American education. It is a comprehensive plan that meets 
the educational needs of our youngest citizens, from cradle to 
career.
    If we are going to be successful in rebuilding our economy, 
our early childhood programs need to prepare our youngest 
children for kindergarten, so they are ready to start reading 
and learning.
    Our K-to-12 schools need to make sure our students have all 
of the academic knowledge and skills they need to enter college 
or the workforce. And our higher-education system needs to 
offer whatever advanced learning students need to be successful 
in a career, whether they will become a plumber, a teacher or a 
business executive.
    As federal policymakers, we need to improve preparation for 
college, and expand college access and completion by increasing 
financial aid so that students of all income levels can pay for 
college without taking on a mountain of debt.
    I am proud to work for a president who has created a 
comprehensive agenda that addresses the needs at every level of 
our educational system, from expanding access to high-quality 
early childhood programs, to improving the rigor of the 
academic programs in our K-to-12 schools, to making college 
more affordable and accessible.
    We have tried to get off to a fast start, here.
    Through the American Recovery and Reinvestment Act, we have 
laid the groundwork for reform on the K-to-12 level, and made 
an early down payment on expanding access to early childhood 
education, and increasing student aid for college students.
    The law made available almost $100 billion for education. 
And I want to thank all of you for your generosity and support. 
That money will help prevent hundreds of thousands of layoffs, 
fill holes in state and local budgets, and provide financial 
aid to college students.
    The money is needed to help our economy in the short term, 
but very important reform efforts, driven by these school--
these funds--will be the key to our long-term economic success.
    Under the state fiscal Stabilization Fund, states will 
receive $48.6 billion to supplement their own budgets during 
these difficult economic times. The Recovery Act says that 
states must spend most of that funding on education; $39.8 
billion of that should go to schools.
    And I want to assure everyone here that I will be 
scrutinizing how states spend the stabilization money to make 
sure they are focused on education.
    I have heard that some states are thinking about using the 
stabilization money to maintain their rainy-day funds, and that 
others may rely on the stabilization grants to pay for tax 
cuts, instead of investing in reforms.
    Let me be clear: I will do everything in my power to reject 
any schemes that would subvert the intended purpose of the 
Recovery Act, which is to help schools through the economic 
downturn, and push reform, thereby ensuring our economic 
prosperity in the future.
    When reviewing applications for the Race to the Top Fund, 
we plan to consider whether a state use their stabilization 
money to aggressively push reforms. In addition to helping 
states solve their budget problems, the Stabilization Fund lays 
out a path to reform.
    To receive their money, states must make four commitments 
that are absolutely essential to reforming our K-to-12 schools. 
First, they will improve the effectiveness of teachers, and 
will work to make sure that the best teachers are in the 
schools that need them the most.
    Secondly, they promise to improve the quality of their 
academic standards so that they lead students down a path that 
prepares them for college and the workforce, and global 
competitiveness. These standards need to be aligned with strong 
assessments. In addition, states must work to ensure that these 
assessments accurately measure the achievement of English-
language learners and students with disabilities.
    Third, states must commit to fixing their lowest-performing 
schools.
    And, finally, states must build data systems that can track 
student performance from one year to the next, from one school 
to another, so that those students and their parents will know 
when they are making progress, and when they need extra 
attention.
    This information also must be put in the hands of educators 
so they can use it on a real-time basis, to improve 
instruction. Right now, according to the Data Quality Campaign, 
DQC, Alabama, Arkansas, Delaware, Florida, Louisiana and Utah 
are the only states that reported to have comprehensive data 
systems meeting the basic elements of a good system.
    With $250 million in the stimulus, and another $65 million 
in our annual budget for fiscal year 2009, and again in fiscal 
year 2010, we expect these numbers to continue to grow, which 
is absolutely vital to reform. In addition, the stabilization 
money, the Recovery Act, as you talked about, gave us $5 
billion to spur innovation in states and in districts.
    Thorough the Race to the Top Fund, we will be awarding 
$4.35 billion in competitive grants to states built around the 
four pillars of reform, outlined in the Stabilization Fund. 
Through the What Works and Innovations Fund, we will also be 
awarding $650 million in competitive grants to districts and 
non-profit organizations to scale-up successful programs and 
evaluate promising practices.
    And I promise you, Mr. Chairman, we will have a very high 
bar. We want to invest in what works--take that to scale. The 
goal here is not to perpetuate the status quo. It is really to 
take education to an entirely different level; to both raise 
the bar and to close the achievement gap.
    Our fiscal year 2010 budget will expand our commitment to 
reforms in several important ways, addressing the needs from 
early childhood through K-to-12 education.
    Under the Title I Program, we will provide $1.5 billion for 
the School Improvement Program. This money is vital for helping 
states and districts address problems in schools that are in 
the most trouble.
    We already have $3 billion for this program from the 
Recovery Act, and another $545 million from fiscal year 2009. 
By adding $1.5 billion in fiscal year 2010, we have more than 
$5 billion to address the problems of our lowest-performing 
schools.
    I would like to set a goal to turnaround, over time, $1,000 
low-performing schools each year. I do not want to invest in 
the status quo. For children, families and communities that 
have been poorly served for too long, we must act with a sense 
of urgency. We cannot wait because they cannot wait.
    When we think about only 2,000 schools in this country 
producing 50 percent of our nation's dropouts and 75 percent of 
our minority-children dropouts, we have a real challenge there. 
And we have a real opportunity, with resources on the table, 
and with courage and political will, to challenge that to work 
with those dropout factories--to work with their feeder middle 
schools and elementary schools--to fundamentally stop those 
dropout factories, those dropout pipelines, and do something 
dramatically better for those children in communities, that I 
would argue, in many places, have been underserved not for a 
couple years, but for decades.
    And everyone in this room knows that when children drop out 
today, they are basically condemned to poverty and to social 
failure. There are no good jobs out there for a high-school 
dropout. And we have to act now to make sure we do something 
better for those children in those communities.
    I want states and districts to take bold action that will 
lead directly to the improvement in student learning. I want 
local leaders to find those change agents who can fix these 
schools. I want them to provide incentives for the best 
teachers and the best principals to take on the challenge of 
teaching in these schools. And, where appropriate, I want them 
to create partnerships with charter-school operators with a 
track record for success.
    I want superintendents to be aggressive in taking the 
difficult step of shutting down a failing school, and replacing 
it with one they know will work.
    We have proposed a $52 million increase in funding to 
develop and expand successful charter schools. Many of you have 
heard me say that I believe education is the civil-rights issue 
of our time. I absolutely believe every child is entitled to a 
high-quality education. And I will work closely with the Office 
of Civil Rights to make sure that we properly review compliance 
in all programs and policymaking.
    The fiscal year 2010 budget starts new programs and expands 
existing ones to address our priorities in early childhood 
education and literacy.
    We will create the $300 million Early Learning Challenge 
Fund that will award grants to help states set up the support 
and services necessary to build quality early childhood 
education.
    We will provide $500 million in grants through Title I to 
help districts use their Title I money to establish and expand 
the preschool programs. We will expand the Striving Readers 
Program from a small $35 million program focused on middle 
school and high schools, to a $370 million program that 
addresses the reading needs of children in elementary schools 
as well.
    The program will take a comprehensive approach to reading 
instruction, ensuring that students develop the basic skills, 
as well as the reading comprehensive that is so vital to their 
success in high school and beyond.
    We will also continue our focus on promoting the teaching 
profession. Great teachers and great teaching matters 
tremendously.
    With $517 million in our fiscal year 2010 budget, we will 
continue and expand our support for local efforts, under the 
Teacher Incentive Fund to develop comprehensive strategies for 
recruiting, preparing, rewarding and retaining great teachers.
    We also request $10 million to start to plan new Promise 
Neighborhoods, modeled on the highly successful Harlem 
Children's Zone.
    We are committed to acting on evidence. And we request $72 
million more for the Institute for Education Sciences, so we 
can identify what works based on rigorous research, invest more 
in what works, and stop spending money on ineffective programs.
    Our agenda from early childhood through 12th grade is 
focused on helping states do the right thing. And that is 
appropriate because states are responsible for establishing 
systems of education through the 12th grade. It is our role to 
make it a national priority to reform schools and to help 
states and districts do just that.
    For more than 40 years, the federal government has played a 
leading role in helping students pay for college. Continuing 
this vital role, the total amount of aid for students has 
increased by $32 billion since President Obama has taken 
office.
    By subsidizing loans, and by providing work study programs 
and, most importantly, giving Pell Grants to low-income 
students, the federal government is fulfilling the dreams of 
students who want to be able to go to college, but might not 
have the resources to pay for it.
    President Obama has set an ambitious goal that, by 2020, 
the United States, once again, will have the highest proportion 
of college graduates in the world. He fully understands that we 
have to educate our way to a better economy.
    That is an achievable goal. But to hit it, we have to make 
college affordable.
    The Recovery Act made an important down payment on our 
plans to expand student aid. The ARRA Act provided $17.1 
billion so we could raise the maximum Pell award from $4,731 to 
$5,350. We also added $200 million to the Work Study Program, 
providing colleges and universities some additional money to 
provide jobs to students to help with their college and their 
living expenses.
    In our fiscal year 2010 budget, we want to make three 
important and permanent changes to ensure students have access 
to student aid and loans. The first thing it would do is to 
move the Pell Grant Program from a discretionary program into a 
mandatory appropriated entitlement.
    This approach will provide more certainty to students and 
families applying for student aid, about the aid that is 
available to them. In addition, the Pell amounts will grow 
annually, at rate higher than inflation, so it keeps up with 
rising college costs.
    The second thing this budget does is address the problems 
with the FFEL Program. I think we all agree that the FFEL 
structure is broken and on life-support now, and that federal 
student-loan programs are in need of a dependable, cost-
effective way of providing college-bound students and their 
families with the resources they need to meet the growing costs 
of post-secondary education.
    The Direct Lending Program is the best way to do that. 
Through it, we will be able to leverage the government's lower 
costs to fund, to finance and originate student loans, and 
provide private-sector expertise to service those loans.
    The president's proposal provides a comprehensive and 
reliable solution for today's students, while saving taxpayers 
over $4 billion a year. It will be more stable and efficient, 
reducing risks for students and lowering costs for taxpayers.
    The third thing we are doing is boosting the Perkins Loan 
Program from $1 billion to $6 billion per year. The number of 
students served will rise from $500,000 to $2.7 million. And 
the number of schools that can participate in the program will 
increase from 1,800 to 4,400, which also means that we can 
serve more students.
    Also, to keep college affordable for our Perkins proposal--
allocates funds to schools based on their role in keeping 
tuitions down, and providing grant aid to needy students. This 
further builds upon Congress' recent mandate to create watch 
lists of colleges with high or excessive increases in tuition.
    In closing, I would like to remind you of one thing the 
president said when he addressed Congress in February. He said, 
``In a global economy, where the most valuable skill you can 
sell is your knowledge, a good education is no longer just a 
pathway to opportunity; it is the prerequisite.''
    Thank you so much for your support so far in assuring that 
our children and our young adults have the education they need 
to ensure they enter the workforce with the knowledge and 
skills they need to be successful, and to help rebuild our 
economy.
    Thank you so much.
    [The statement of Secretary Duncan follows:]

           Prepared Statement of Hon. Arne Duncan, Secretary,
                      U.S. Department of Education

    Thank you Chairman Miller, Representative McKeon, and all the 
members of the committee for the invitation to be here today. It is my 
pleasure to share with you President Obama's plan for American 
education. It is a comprehensive plan that meets the educational needs 
of our youngest citizens from cradle to career. If we are going to be 
successful in rebuilding our economy, our early childhood programs need 
to prepare our youngest children for kindergarten so they're ready to 
start reading and learning, our K-12 schools need to make sure our 
students have all of the academic knowledge and skills that they need 
to enter college or the workforce, and our higher education system 
needs to offer whatever advanced learning students need to be 
successful in a career, whether they will become a plumber, a teacher, 
or a business executive. As federal policymakers, we need to improve 
preparation for college and expand college access and completion by 
increasing financial aid so that students of all income levels can pay 
for college without taking on a mountain of debt.
    I'm proud to work for a President who has created a comprehensive 
agenda that addresses the needs at every level of our educational 
system, from expanding access to high-quality early childhood programs 
to improving the rigor of the academic programs in our K-12 schools to 
making college more affordable and accessible.
    We have gotten off to a fast start. Through the American Recovery 
and Reinvestment Act, we have laid the groundwork for reform on the K-
12 level and made an early down payment on expanding access to early 
childhood education and increasing student aid for college students. 
The law made available almost $100 billion for education. That money 
will help prevent layoffs, fill holes in state and local budgets, and 
provide financial aid to college students. The money is needed to help 
our economy in the short term, but reforms efforts driven by these 
funds will be the key to our long-term economic success.
    Under the State Fiscal Stabilization Fund, states will receive 
$48.6 billion to supplement their own budgets during these difficult 
economic times. The Recovery Act says that states must spend most of 
that funding on education. $39.8 billion of that should go to schools.
    I want to assure you that I will be scrutinizing how states spend 
their stabilization money to make sure they are focused on education. I 
have heard that some states plan to use their stabilization money so as 
to maintain their rainy day fund and that others may rely on their 
stabilization grants to pay for tax cuts instead of investing in 
reforms. I will do everything in my power to reject any schemes that 
would subvert the intended purpose of the Recovery Act, which is to 
help schools through the economic downturn and push reform, thereby 
ensuring our economic prosperity in the future. When reviewing 
applications for the Race to the Top Fund, we plan to consider whether 
a state used their stabilization money to aggressively push reforms.
    In addition to helping states solve their budget problems, the 
stabilization fund lays out a path to reform. To receive their money, 
states must make four commitments that are essential to reforming our 
K-12 schools. They will improve the effectiveness of teachers and make 
sure the best teachers are in the schools that need them the most. They 
will promise to improve the quality of their academic standards so that 
they lead students down a path that prepares them for college and the 
workforce and global competitiveness. These standards need to be 
aligned with strong assessments. In addition, states must work to 
ensure that these assessments accurately measure the achievement of 
English language learners and students with disabilities.
    Under the third assurance, states must commit to fixing their 
lowest-performing schools. Finally, states must build data systems that 
can track student performance from one year to the next, from one 
school to another, so that those students and their parents know when 
they are making progress and when they need extra attention. This 
information must also be put in the hands of educators so they can use 
it to improve instruction. Right now, according to the Data Quality 
Campaign (DQC), Alabama, Arkansas, Delaware, Florida, Louisiana, and 
Utah are the only states that are reporting to have comprehensive data 
systems meeting the basic elements of a good system. With $250 million 
in the stimulus and another $65 million in our annual budget for fiscal 
year 2009 and again in fiscal year 2010, we expect these numbers to 
continue to grow, which is vital for reform.
    In addition to the stabilization money, the Recovery Act gave us $5 
billion to spur innovation in states and districts. Through the Race to 
the Top Fund, we will be awarding $4.35 billion in competitive grants 
to states built around the four pillars of reform outlined in the 
stabilization fund. Through the What Works and Innovation Fund, we also 
will be awarding $650 million in competitive grants to districts and 
non-profit organizations to scale up successful programs and evaluate 
promising practices.
    Our fiscal year 2010 budget will expand our commitment to reforms 
in several important ways, addressing the needs from early childhood 
through K-12 education.
    Under the Title I program, we will provide $1.5 billion for the 
School Improvement program. This money is vital for helping states and 
districts address problems in schools in the most trouble. We already 
have $3 billion for this program from the Recovery Act and another $545 
million from fiscal year 2009. By adding $1.5 billion in fiscal year 
2010, we'll have more than $5 billion to address the problems of our 
lowest-performing schools. I'd like to set a goal to turn around 1,000 
low-performing schools a year for each of the next five years. I don't 
want to invest in the status quo. I want states and districts to take 
bold actions that will lead directly to the improvement in student 
learning. I want local leaders to find change agents who can fix these 
schools. I want them to provide incentives for their best teachers to 
take on the challenge of teaching in these schools. And where 
appropriate, I want them to create partnerships with charter school 
operators with a track record of success. I want superintendents to be 
aggressive in taking the difficult step of shutting down a failing 
school and replacing it with one they know will work. We've proposed a 
$52 million increase in funding to develop and expand successful 
charter schools.
    Many of you have heard me say that I believe education is the civil 
rights issue of our time. I truly believe every child is entitled to a 
high-quality education. I will work closely with the Office of Civil 
Rights to make sure that we properly review compliance in all programs 
and policymaking.
    The fiscal year 2010 budget starts new programs and expands 
existing ones to address our priorities in early childhood education 
and literacy. We will create the $300 million Early Learning Challenge 
Fund that will award grants to help states set up the support and 
services necessary to build quality early childhood education. We will 
provide $500 million in grants through Title I to help districts use 
their Title I money to establish and expand preschool programs. We will 
expand the Striving Readers program from a small $35 million program 
focused on middle school and high schools to a $370 million program 
that addresses the reading needs of children in elementary schools as 
well. The program will take a comprehensive approach to reading 
instruction, ensuring that students develop the basic skills as well as 
the reading comprehension that is so vital to their success in high 
school and beyond.
    We also continue our focus on promoting the teaching profession. 
With $517 million in our fiscal year 2010 budget, we will continue and 
expand our support for local efforts under the Teacher Incentive Fund 
to develop comprehensive strategies for recruiting, preparing, 
rewarding, and retaining effective teachers. We also request $10 
million to plan new Promise Neighborhoods, modeled on the successful 
Harlem Children's Zone. We are committed to acting on the evidence. And 
we request $72 million more for the Institute for Education Sciences, 
so we can identify what works based on rigorous research.
    Our agenda from early childhood through 12th grade is focused on 
helping states do the right thing. And that's appropriate because 
States are responsible for establishing systems of education through 
the 12th grade. It's our role to make it a national priority to reform 
schools and help states and districts do that.
    For more than 40 years, the federal government has played a leading 
role in helping students pay for college. Continuing this vital role, 
the total amount of aid for students has increased by $32 billion since 
President Obama has taken office. By subsidizing loans and by providing 
work-study programs and, most importantly, giving Pell Grants to low-
income students, the federal government is fulfilling the dreams of 
students who want to go to college but might not be able to pay for it. 
President Obama has set a goal that, by 2020, the United States once 
again will have the highest proportion of college graduates in the 
world. That's an achievable goal but, to do that, we have to make 
college affordable.
    The Recovery Act made an important down-payment on our plans to 
expand student aid. The American Recovery and Reinvestment Act provided 
$17.1 billion so we could raise the maximum Pell award from $4,731 to 
$5,350. It also added $200 million to the Work-Study program, providing 
colleges and universities with additional money to provide jobs to 
students to help with their college and living expenses.
    In our fiscal year 2010 budget, we make three important and 
permanent changes to ensure students have access to student aid and 
loans. The first thing it will do is move the Pell Grant program from a 
discretionary program into a mandatory, appropriated entitlement. This 
approach will provide more certainty to students and families applying 
for student aid about the aid that's available to them. In addition, 
the Pell Grant amounts will grow annually at a rate higher than 
inflation so that it keeps up with rising college costs.
    The second thing this budget does is address the problems with the 
Federal Family Education Loan (FFEL) program. I think we can all agree 
that the FFEL structure is broken and the federal student loan programs 
are in need of a dependable, cost-effective way of providing college-
bound students and their families with the resources they need to meet 
the growing cost of postsecondary education. The direct lending program 
is the best way to do that. Through it, we are able to leverage the 
government's lower cost of funds to finance and originate student loans 
and private-sector expertise to service the loans. The President's 
proposal provides a comprehensive and reliable solution for today's 
students while saving taxpayers over $4 billion a year. It will be more 
stable and efficient--reducing risk for students and lowering costs for 
taxpayers.
    The third thing we are doing is boosting the Perkins loan program 
from $1 billion to $6 billion per year. The number of students served 
will rise from 500,000 to 2.7 million--and the number of schools that 
can participate in the program will increase from 1,800 to 4,400, which 
also means that we will serve more students. Also, to help keep college 
affordable our Perkins proposal allocates funds to schools based on 
their role in keeping tuition down and providing grant aid to needy 
students. This further builds upon Congress' recent mandate to create 
watch lists of colleges with high or excessive increases in tuition.
    In closing, I'd like to remind you of one thing the President said 
when he addressed Congress in February. ``In a global economy where the 
most valuable skill you can sell is your knowledge, a good education is 
no longer just a pathway to opportunity--it is a prerequisite.''
    Thank you for your support so far in ensuring that our children and 
young adults have the education they need to ensure they enter the 
workforce with the knowledge and skills they need to be successful and 
to help rebuild our economy.
                                 ______
                                 
    Chairman Miller. Thank you very much, Mr. Secretary, for 
that review of your priorities, and of the budget. Thank you 
for, again, reiterating your goals and standards for the Fund 
for the Race to the Top. The action of the Congress to give a 
single secretary $5 billion in discretionary money is an 
amazing act for the Congress. But I think it is also a vote of 
confidence in you.
    I think that many of the members of this committee 
supported that effort, because they were here when you and 
Michelle Rhee and Joel Klein and Beverly Hall, from Atlanta, 
came and testified about the results that many of you had 
achieved--the possibilities that you saw for the improved 
outcomes, the achievement of our students in the various 
efforts that all of you had made, within large, complicated 
districts, but to provide various alternatives for students and 
for teachers.
    I would, again, just say that when you put $5 billion on 
the table in Washington, D.C., there is no shortage of people 
who, all of a sudden, have a renewed interest in that agenda, 
whatever it is.
    And I would just hope that you would be selective. I think 
that we have got to have a clear understanding. And it is very 
clear that there are governors and large districts that do want 
to go to the future. They do want to change the manner in which 
education has been delivered. They do want a different set of 
outcomes. And many of them have demonstrated that, in fact, 
they can do that.
    So I would just say that I think it would be better to have 
fewer entities doing more because, in fact, they can be the 
pathway and the beacon to other districts who still think this 
is too difficult to do, or too politically complicated to do; 
but the fact is, the students of this country are entitled to 
that.
    So I am not sure that everybody should be able to 
participate just because there is so much money. I think they 
should be able to participate because they have demonstrated 
that they are prepared to make the difficult, tough choices 
that are starting to show results all over this country in 
charter schools and regular public schools, in large districts 
and small districts, and rural areas, with the exact population 
that we are so terribly concerned about, in terms of the 
achievement gap, and whether or not they will have a full 
opportunity to participate in American society.
    Those results that you achieved in a number of settings in 
Chicago cannot be ignored any longer. They are possible. They 
are here for those who want to seek them out. So I think having 
the willingness and the evidence of the capacity for those who 
participate in the Race to the Top Fund--that they have got to 
be able to demonstrate that, before they are allowed. That is 
my thinking on that.
    I also want to commend you for the urgency that you are 
putting behind the effort to change our high schools, 
specifically those described as dropout factories. We now know 
which schools provide the dramatic number of dropouts. We now 
know many of the middle schools that contribute to that 
population, and the ability and the research that is available 
to tell us that we can change many of those outcomes by being 
engaged with those students earlier on.
    We cannot make the decisions about fighting dropouts in the 
10th grade. There is just no evidence that that works. The 
effort around the high-school initiatives that have been 
proposed has been bipartisan in this committee. I think we are 
ready to move to make the changes that are necessary so that we 
can effectively change the outcomes for these students, and the 
performance of these schools. So we look forward to working 
with you on that.
    I am also very encouraged by the budget submission on 
behalf of the Teacher Incentive Fund. This was started by the 
past administration. I am not quite sure how they got it 
started, but they got it started. It is not without 
controversy, but I think it is yielding results for willing 
school districts, with their teachers, with their unions, with 
other organizations--community organizations, non-profit--who 
really want to change the workplace, to change the 
opportunities for teachers, and to change the outcomes.
    It was threatened to be zeroed-out quite often. 
Fortunately, it wasn't. And I think that the increase that you 
are providing there will serve teachers and school districts 
and students in a very positive way.
    Others will have more to say on this. But, again, I am also 
encouraged by the increase in support for charter schools. I 
think that is very important. Again, much of the evidence--many 
of the outcomes that we see that are improving, are coming from 
that community. And they should be encouraged. And we should do 
what we can--the best we can--to not have states throw up 
artificial barriers to their creation or to their expansion, to 
the success, as long as they are able to provide the results 
that we expect from them.
    So thank you very, very much for your testimony. I am not 
going to ask you questions. I am going to try to move this 
along.
    And I am going to recognize Mr. McKeon for questions.
    But thank you for the submissions. And thank you for the 
priorities you chose in the president's budget.
    Mr. McKeon. Thank you, Mr. Chairman.
    I have several questions.
    Mr. Secretary, you said you would like to set a goal to 
turn around 1,000 low-performing schools a year, for each of 
the next 5 years. And I commend you for that. I understand you 
had some success with this in Chicago. How did you work with 
the teachers' unions in this effort? How can a district that 
wants to close low-performing schools and reopen them with a 
new instructional team do that in light of collective 
bargaining agreements, and other regulations?
    Secretary Duncan. Let me start with sort of a broader 
statement of how I view schools.
    And I see schools, generally, in three different buckets. 
You have a set of very high-performing schools, district 
schools, neighborhood schools, magnet schools, charter schools, 
where we have great results. We have long waiting lists. And I 
think all of us need to be in the business of replicating those 
schools, creating more of those kinds of options.
    We have a set of schools in the middle that are maybe not 
performing where you would like them to be, that are improving 
each year. And we need to continue to invest in those, and 
continue to help them grow and provide more resources and more 
professional development, and help them on their path towards 
excellence.
    However, as a country--and I think we have about 95,000 
schools in the country. Let us round it off to 100,000. If we 
just took the bottom 1 percent--and I don't think we could do 
this in the first year. We would have to work up to this. But 
if we took the bottom 1 percent of those schools each year, and 
fundamentally change them, fundamentally challenge the status 
quo--and, again, in the vast majority of these cases, what most 
troubles me is these schools have not been at the bottom for a 
year or 2 years. It has often been for 10, 20, 30 years--
literally, decades.
    And when we, as educators, aren't helping students to be 
successful, we become part of the problem. So what you do--and 
this is tough work. This is hard. This is controversial. This 
is the ultimate in challenging the status quo. But when you 
have schools where the vast majority of students are dropping 
out--and even districts--and just to take a moment--the 
previous week, I was in Detroit.
    Detroit, for the city, has approximately a 75 percent 
dropout rate. It is an absolutely staggering number. You know, 
two out of three, three out of four--however you want to define 
it--of every, you know, third grader, fifth grader, ninth 
grader--will never graduate from those schools.
    Mr. McKeon. Mr. Secretary, my time is limited.
    Secretary Duncan. Oh, I am sorry.
    Mr. McKeon. So how did you work with unions, and how do you 
deal with the collective bargaining agreements----
    Secretary Duncan. Yes.
    Mr. McKeon [continuing]. And regulations, to accomplish 
this?
    Secretary Duncan. It was tough work, with the unions. The 
unions weren't always supportive of this. But this is not just 
about coming back with charter schools. And we came back with 
better staff.
    Actually, in every single case, that was union staff. Those 
are union teachers. And so it is not about what the talent pool 
is. It is about saying, ``Let us stop investing--more money is 
not always the answer.'' Investing in something that is 
broken--sometimes you have to start fresh, and you have to come 
in there--and there are great, great teachers and principals 
who want a chance to make a difference, who want to go to the 
toughest of communities. They just have to feel--they have to 
have a chance to be successful.
    So what do you need? You need a great principal. You need a 
team of teachers--if you send two teachers into a dysfunctional 
situation, they will get overwhelmed. If you send a whole team 
of folks in there together, and a chance to build a culture 
from scratch--you have extraordinarily committed, dynamic 
teachers and principals who want to take on this work. So the 
talent pool, I am absolutely convinced, is there. And we have 
to create those kinds of opportunities.
    Mr. McKeon. I hope we are able to help you to accomplish 
that.
    Mr. Secretary, your budget creates a new program, targeted 
toward helping students in elementary schools learn to read. I 
heard that your staff said that the rationale for creating a 
new reading program was that there was no longer a consensus on 
how to teach children to read.
    That is a surprise to me. I would think it is a surprise to 
the folks at the National Institute for Child Health and Human 
Development, and on the National Reading Panel.
    Do you believe that teaching students the essential tenets 
of reading as laid out in the Elementary and Secondary 
Education Act, and by the National Reading Panel, are no longer 
valid?
    Secretary Duncan. No.
    I think we need a balanced, comprehensive approach. And 
this funding and this commitment is to absolutely make sure 
that every child gets off to a great start.
    Mr. McKeon. We talked a little bit about this yesterday: 
After teaching reading for as many years as we have been 
teaching, we should have a knowledge of how to do it.
    President Obama has called charter schools one of the 
places where innovation occurs. And he has called on the states 
to lift caps on the number of charter schools. Since it is 
clear that the presidency's charter school is playing an 
important role in turning around poor-performing schools, how 
do you plan on convincing states to lift caps on these schools?
    Secretary Duncan. Well, there are a number of different 
opportunities we have, both in terms of carrots and sticks. But 
one of the things that Chairman Miller talked about is we, in 
this--we haven't issued it yet. The RFP doesn't exist, but we 
created a request for proposals around the rates of top funds--
one of the questions we are going to be asking--we are going to 
ask a series of questions around charter schools.
    And one of the questions we are going to ask is, ``Does 
your state have charter caps?''
    Mr. McKeon. And my final question: Your budget proposes 
major changes to the Perkins Loan Program, transforming it into 
a tool to encourage colleges to control costs. It reminds me of 
a proposal I offered several years ago, to use campus-based aid 
programs, including Perkins, to achieve that same goal of 
holding down costs.
    Unfortunately, my plan was rejected by the higher-education 
community. I hope you have better luck than I did. And, to that 
end, I have two specific questions.
    First, will all sectors, including proprietary, be eligible 
for this program? And, second, can you share some specifics 
about how this will work, how you think it will bring costs 
down, and what other plans you may have to get colleges to 
control their costs?
    Secretary Duncan. Yes.
    Proprietary, I think, will be eligible. Let me check that. 
We want to make sure that we are doing everything we can to 
push folks in the right direction. And I think we have an 
opportunity to do that.
    I will add what--I think things have really changed now. 
Students and parents have more options than they have ever had. 
And where you see costs escalating, you know, exponentially way 
higher than the rate of inflation, parents and students are 
going to vote with their feet. And I think there is going to be 
a real market correction here.
    And you are seeing other universities go the opposite way--
go to 3-year programs, rather than 4--go to no-frills, low-cost 
options. And so we are going to put whatever pressure we can on 
it.
    But our parents and our student are very smart. They have 
thousands of options. And where costs are just escalating, you 
are going to see, particularly in this economic climate--I am 
convinced you are going to see those universities lose market 
share.
    And I am going to--we are going to do everything we can to 
make sure that those kinds of things happen.
    Mr. McKeon. Thank you very much.
    Secretary Duncan. Thank you.
    Mr. Miller [presiding.] Mr. Kildee?
    Mr. Kildee. Thank you, Mr. Chairman, Secretary Duncan. It 
is good to have you before our committee. They mentioned to you 
yesterday, I have served, now--it was nine secretaries of 
Education. I was a co-sponsor of the bill that established the 
department, and I have enormous confidence in you.
    And you have an enormous responsibility. The future of 
education in this country really--weigh heavily on your 
shoulders. But I have that enormous confidence in your 
integrity and your ability, and look forward to working with 
you.
    Secretary Duncan. Thank you.
    Mr. Kildee. Secretary Duncan, currently the Elementary and 
Secondary Education Act, which is the official name--we change 
the name each time we reauthorize. But, currently, ESEA 
provides for the same interventions for schools that do not 
make AYP--adequate yearly progress--regardless of why or how 
much a school did not meet the AYP.
    Do you believe that it makes sense to provide for some 
differentiated interventions to encourage and help schools to 
target their responses on the reasons they did not meet AYP, 
and also to recognize that schools that miss AYP by an inch do 
not need as much extensive intervention as those who miss by a 
mile?
    Secretary Duncan. It is a really thoughtful question. And 
one of the challenges with the current law is exactly what you 
say. It is what I call--what I label it as is a blunt 
instrument--that it puts every school in the same--too many 
schools in the same category. And the complexity in those 
stories amongst those schools is actually very different.
    Part of what I used to be frustrated with is you had 
schools that were actually showing pretty significant progress 
each year, that were really improving, that were labeled as 
failures. And that is demoralizing. That is very tough on staff 
and, you know, faculty and teachers that are working really 
hard every day. It is confusing to parents.
    And where schools are improving each year, rather than 
slapping them and labeling them as failures, we need to 
actually encourage that and reward that, and help them continue 
to grow.
    So I think you have to be much more differentiated in how 
you approach school. And when you think about those schools 
that are labeled as failures--some are actually getting better. 
Some are, you know, pretty mediocre. And then I have talked 
about those schools that are truly at the bottom where, 
frankly, I don't think we went far enough historically--where I 
think we need to be much tougher in our intervention--not just 
invest more resources in a dysfunctional culture, but 
fundamentally challenge that status quo.
    So the idea of greater differentiation and more 
thoughtfulness, and really understanding which schools are 
improving, which schools are flat-lining, and which schools are 
really a huge problem--and being very, very specific in what 
our remedy--what our answer is in each--those situations--I 
think is absolutely the right thing to do for children.
    Mr. Kildee. Thank you very much.
    Mr. Secretary, President Obama has talked about the 
importance of every American having at least 1 year of post-
secondary education. I have introduced legislation, H.R. 1578, 
the Fast Track to College Act, that would support early 
college, high school, and other dual-enrollment programs, to 
expose low-income students to college.
    We have that in Flint, Michigan. You can go to Central High 
School, where I taught, and also enroll at the University of 
Michigan. You can get up to 60 college credits while you are in 
high school.
    When that was inaugurated with the community college 
several years ago, we thought that would take care of those who 
were, you know, the very talented, who needed that higher 
challenge. But we found out, very often, those who were not 
doing well at all, were just kind of dropped-out mentally, 
really sparkled when they got into a program like that.
    Would you support a program of early college----
    Secretary Duncan. Yes. I am a huge fan of dual enrollment. 
And we talked about investing in what works, and scaling up 
what works. That is an example of a program, not just in Flint, 
Michigan, but, I think, generally, around the country, that has 
been extraordinarily effective, and for a couple reasons.
    First of all, obviously, at a time when going to college is 
so expensive, getting those college credits in your back 
pocket, before you graduate from high school is a huge boost to 
families and to students.
    But your second point is actually the more important one to 
me--that we have so many students today that are first-
generation, that may not have a parent who graduated from high 
school, let alone went to college, who might be new to the 
country, where they are smart, they are committed, they are 
working hard.
    But they might think college isn't for them. They don't 
know that world. Social isolation is so profound, they might 
think they might not belong on a college campus.
    And for those students, as a junior and senior year, who 
might be struggling, who might not really envision that in 
their future--for them to understand, ``I can really do this. I 
can do this work. I belong in that world,'' the psychological 
impact on that is extraordinarily important. And the more of 
that real exposure can happen for children who don't have a 
family background of college-going, and college experience, I 
think it can really change their aspirations in very important 
ways.
    Mr. Kildee. Thank you very much, Mr. Secretary.
    Mr. Petri?
    Mr. Petri. Well, thank you, Mr. Chairman. I have several 
questions I would like to submit in writing, if I could, to the 
secretary. We have limited time in this format, and I would 
look forward to your response to those.
    I also wanted to touch on a couple points. And if you would 
care to respond to any of them, that would be fine--first, to 
thank you and the administration for the work you are doing in 
the direct-loan area. This program has been a great success, 
and it will be of great benefit to higher education, and to the 
taxpayer, and to students, to expand it as you have been 
suggesting. And I am looking forward to working with you to 
that end.
    I understand you are going to be working on a number of 
reform suggestions in the vocational-education area, and, in 
that connection, would urge that you look at the experience of 
my own state of Wisconsin, where we have had a comprehensive 
vocational-education program for many years, that involves 
partnership of business, labor, local governments and the local 
school systems. And I think there may be some ideas that can be 
built on there.
    I was excited about your opening-statement talk in favor of 
a better assessment and accountability electronic system. In 
that connection, Congressman Wu and I have introduced a bill, 
H.R. 665, which really shouldn't be necessary, which would just 
reverse the Education Department's denial of the ability of 
school systems around the country--states--to use adaptive 
testing, under No Child Left Behind.
    My own state uses that at its own expense in nearly a third 
of the school districts. It is highly useful to teachers and 
others. And I would urge you to look at that policy, and see if 
we can't move into the electronic age.
    It is the same program for everyone, but the questions 
aren't given in the same order, the questions vary. If a 
student is not able to answer the questions, they ask easier 
and easier questions, until they achieve a certain level of 
success. And, contrary, if they are acing it, they ask harder 
questions. So you get a really good assessment.
    And I am hoping No Child Left Behind means every child gets 
assessed, and that assessment follows the child, and they make 
reasonable improvement from wherever they are, rather than an 
impossible goal of uniform success for every child, which is--
we are not uniform human beings.
    Third, there is a program called Troops to Teachers. It has 
been very successful. Over 10,000 people have participated. 
They have been outstanding--selected as outstanding teachers in 
their states, quite often. That has been pared way back by the 
Department of Education so that, now, only one of the 420 
school districts in my state qualifies for Troops to Teachers.
    Congresswoman Matsui, from California introduced 
legislation to attempt to correct what we feel is an improper 
ruling by the lawyers at your department to restrict this. It 
was not intended by the drafters of the legislation--creating 
no Troops for Teachers. And this is an--you need good teachers 
to get good outcomes. And it is part of the process--and 
reaching out and getting people to experience--they are--these 
Troops to Teacher people disproportionately minority, male and 
going into math and science. It is just a wonderful program I 
think should be built upon, rather than being cut back.
    Finally, there is a new inspector general's report on the 
Federal Student Aid office in your department, arguing that 
there are a lot of abuses in that. And I just want to ask if 
you were familiar with that report, if you plan to take any 
corrective action.
    A provision in last year's Higher Education Act required 
the secretary to refer settlements over $1 million to the 
attorney general. And a number of settlements were entered into 
prior to that, and it has been very costly for the taxpayer.
    I wonder if you could look into whether any cases have, in 
fact, been referred to the attorney general, or are likely to 
be reviewed, or whether some of the settlements could be 
reopened before the statute of limitation expires. And so I 
think I have left enough on your plate, and I will stop there.
    But, anyway, welcome aboard. I look forward to working with 
you.
    Secretary Duncan. Thank you. Just very quickly--I am a huge 
fan of Troops to Teachers. I think it is a phenomenal pool of 
talent. You said many men from the minority community--great 
leaders, by definition, who are just phenomenal role models.
    On a broader basis, I am just a big fan of alternative 
certification. And I think we have to think about these pools 
of talent from many walks of life and, historically, people who 
didn't major in education as an 18-year-old undergrad have been 
locked out of teaching.
    And we have as many as 1 million teachers--are going to 
retire in the next 4 to 6 years--baby boomer generation coming 
out--presents some challenges. I think it presents a huge 
opportunity.
    And our ability to recruit and retain the best and 
brightest, whether they are a 21-year-old right out of school 
or 35 or 55, coming out of the military--we have a chance to 
transform public education in our country for the next 25 or 30 
years. So it is a huge opportunity. Troops to Teachers and, 
more broadly, alternative certification, is something we are 
going to push very, very hard.
    Chairman Miller [presiding]. Thank you.
    Mr. Payne?
    Mr. Payne. Thank you very much. And let me commend the 
Obama administration, and your department, for really starting 
to put the type of funding we need into public education. As a 
former public-school teacher in North New Jersey--and my three 
children are all either teachers or involved in education--I 
think this is very, very important.
    Let me quickly ask several questions. First of all, with 
the growing demand for a global economy and strengthening 
standards in education as a result of No Child Left Behind, it 
seems that today's students have more to learn, but the same 
amount of time that they did when they were doing the farming 
in June. That is why we left school--is the same amount of time 
we have in our public-school system.
    Massachusetts expanded the school day, and at the end of 
the year, by 25 percent or 30 percent, for selected students, 
primarily in failing school districts. And it did show positive 
results.
    What is your stance on having a longer school day? Have you 
given that any consideration?
    Secretary Duncan. Yes. I really appreciate you bringing it 
up.
    And when I speak to students, this is not my applause line. 
I usually get booed.
    Mr. Payne. Yes.
    Secretary Duncan. But I fundamentally think our day is way 
too short. I think our week is way too short. And I think our 
year is way too short. And our students today are competing 
against children in India and China. And those students are 
going to school 25 percent, 30 percent longer than we are. And 
our students, I think, are at a competitive disadvantage. I 
think we are doing them a disservice.
    So let me explain, because this is a really important one. 
I think we need a longer school day, absolutely. I think, 
beyond a longer school day, our schools themselves need to be 
open much longer hours. I would argue 12, 13, 14 hours a day, 
with a wide variety of after-school programming, both for 
children and their parents and their older brothers and 
sisters, their family members.
    I want schools to truly become community centers, community 
anchors, with a whole host of after-school activities. Those 
schools need to be open 12, 13 hours a day, 6, 7 days a week, 
11, 12 months out of the year. And I worry tremendously about 
summer. As everyone here knows, our academic calendar is based 
upon the agrarian calendar.
    Mr. Payne. Right.
    Secretary Duncan. And not too many children are working the 
fields anymore. And I worry, particularly, about children who, 
you know, come from families, and don't have a lot of books in 
the house--and middle-class children, in the summer, go to 
summer camps, and they visit colleges, and they do enrichment--
and children from more disadvantaged backgrounds really 
struggle over the summer. And it is well documented. This is 
one we don't need anymore studies.
    We saw it all the time in Chicago--what we called ``summer 
reading loss''--is you get children to a certain point by June, 
and they come back to you in September, they are further behind 
than when they left in June. It is absolutely crazy.
    And so one of the things that we are pushing hard, 
particularly of all this influx of Title I dollars for poor 
families--is let us get more time--weekends, after school, 
Saturdays.
    One thing we did this last year, in Chicago--I wish we had 
been smart enough to come up with it earlier--we brought back, 
on a voluntary basis, our freshmen, a month early. We had 
15,000 freshmen--incoming freshmen--show up a month early. 
Think about that.
    Children want to do something positive. They want to do 
something productive. We have got to open up our schools and 
think very, very differently. So time is a huge equalizer, 
particularly for children coming from disadvantaged families 
and communities. And we have to be much more creative in how we 
lengthen the day, the week and the year.
    Mr. Payne. Thank you very much.
    In your opinion, are there any innovations that charter 
schools have adopted that you think public schools should 
consider, that has been successful?
    Secretary Duncan. Yes, one big one--time.
    You know, many charters are doing some interesting things 
around curriculum. But if you look at high-performing charter 
schools--almost every single one--they are working with those 
kids longer hours--longer days, longer weeks, shorter summers.
    So when good teaching is happening, time matters. And we 
simply need more time, again, for those children who may not be 
getting what we want them to get at home.
    So there are other things that are happening that is 
creative. But one of the, you know, most important common 
denominators is they are simply spending more time working at. 
It is not rocket science.
    Mr. Payne. Okay.
    Then I have a couple of other questions--but let me just 
get one, last quick one in. There is a budget item--although I 
really applaud all the great things that you have done--there 
is a budget item that eliminated, in your budget, the funding 
for a program called Ready to Read. It is a program that is 
funding PBS. And it is a teacher--online program, which has had 
a lot of success.
    And I wonder if you could take a look at that and evaluate. 
It might have been something that, you know, you look--and said 
you are increasing--you are looking to cut--but it has been a 
pretty successful program. And I would appreciate it if you 
could get back to me on that particular program.
    Secretary Duncan. Thank you. I will do that.
    Chairman Miller. Thank you.
    Mr. Castle?
    Mr. Castle. Mr. Chairman, we had--thank you.
    Let me thank you, Secretary Duncan, for your engagement and 
involvement in what I consider to be as important as anything 
we are doing in this country. And let me just start with this 
question, which is a college question.
    You and I discussed this a little bit. And I am all for the 
things you are trying to do; that is to shift money around, 
save more money, put it into Pell Grants or whatever it may be. 
But my concern is the cost of higher education.
    As you undoubtedly know, higher education has had the 
highest per capita rise in costs of any measurable index in 
this country, including even health care. And that concerns me. 
And it is--I think it is beyond just the salaries of college 
presidents and a few coaches or whatever. It is the entire 
methodology of running colleges.
    Is there anything that we, as a Congress, or you, in the 
department, or the president, could be doing to try to keep the 
pressure on, and reducing those costs? Because we just are not 
going to be able to afford to continue to underwrite it with 
the Pell Grants or whatever. And even the Harvards of the 
worlds are going to have trouble with some of their losses in--
of taking care of kids who couldn't--not otherwise afford 
college.
    Secretary Duncan. Well, yes. As I said in my testimony--
that, through the Perkins Proposal, we are really going to try 
and reward those schools that are doing the right thing.
    But while I worry about it, I really do believe what I said 
early--that due to families being under so much financial 
pressure now, and the fact that we have so many universities 
out there--I think the marketplace is going to play here. And I 
think families are going to stop going to schools where costs 
are skyrocketing and running away. They have too many other 
good options, too many quality, low-cost options.
    So we are going to continue to put pressure on and create 
some incentives. But the public is going to see this stuff. We 
are asking for transparency. We are asking to see, you know, 
what these increases are looking like each year.
    And, again, I think our parents and our students are going 
to be very, very smart consumers. And you are actually seeing--
it is interesting. If you are looking recently, you are seeing 
universities start to go to 3-year programs. You are seeing 
some universities start to go to sort of no-frills campuses--
really back to basics, to reduce costs.
    And there is a growing marketplace. There is a demand 
there. And so I think this is one we will--I give you my word. 
We will put the pressure on and we will really push 
transparency.
    But the more universities do this--this is the wrong time, 
the wrong market for them to be going in that direction. And I 
think they will pay a price for it.
    Mr. Castle. Good. And I hope you are right about all those 
things. We need to keep an eye on it, and keep working together 
on it.
    In No Child Left Behind, we adopted having standards and 
assessments. And we had a hearing recently, in which a series 
of people, mostly state-involved, talked about common standards 
and a state-led approach to common standards. You have also 
used that expression. I want to make sure I understand what we 
are talking about.
    Are we talking about common standards in a regional sense? 
Or are we talking about national standards in--and, obviously, 
assessments would have to follow all this. So when we talking 
about national standards and assessments--what do we mean by 
``common standards''?
    And just another part to all this--I think our standards 
are low right now. I think they were set low and they stayed 
that way. What can we do to increase standards, apart from 
going to whatever the common standards may be?
    Secretary Duncan. And this is a really interesting one. 
This goes, actually, back to the framework of NCLB.
    And it is interesting--from a management's perspective, for 
those running the, you know, department or a business or school 
system--you always think thorough what you have managed loose 
and what you managed tight.
    And what I think NCLB got fundamentally wrong is they were 
very, very loose on the goals. So you have 50 states, 50 
different goal posts, all over the map. And you are exactly 
right. Due to political pressure, the vast majority of those 
standards got dummied down.
    Mr. Castle. Right.
    Secretary Duncan. And what I have been pushing very hard 
is--I think in far too many states, including the state I am 
from, in Illinois--those standards have been dummied down so 
far that we are actually lying to children. And let me explain 
what I mean.
    When a child and a parent hears that they are ``meeting a 
state standard,'' the logical conclusion is, ``If I am meeting 
a standard, I am doing okay.''
    But in far too many places, those standards have been 
dummied down so much that if you are meeting the standard, you 
are barely qualified to graduate from high school, and you are 
absolutely inadequately prepared to get into a competitive 
university, let along graduate.
    And so, I think, as a country, we are doing, in many 
places, a real disservice to children. And the one level 
playing field we have is the NAPE results. And it is 
interesting. You have some states where, in their state, 85 
percent, 90 percent of kids are meeting state standards--on the 
NAPE, 15 percent.
    Mr. Castle. I see.
    Secretary Duncan. So these huge, huge disparities--who is 
lying? Who is telling the truth?
    And so what I think we need is common college-ready, 
career-ready and, I would argue, internationally benchmarked 
standards. Again, I want our children to compete on a level 
playing field with children in India and China.
    I don't think this should come from the federal government. 
There shouldn't be federal standards. There shouldn't be 
Department of Education standards.
    But what you see happening is a really interesting 
movement. You have a set of state school chiefs that are 
working very, very hard on this. You have a set of governors 
that are coming together to work on this. The business 
community has been crying out for this for a long time. The 
not-for-profit sector, Achieve, College Board, Gates--are all 
on board.
    And very interestingly, in the past 2 months, you have seen 
the presidents of both national unions, the NEA and the AFT, 
come on board and say, ``We need to do something different 
here.''
    This is an idea that I think, historically, people call it 
a ``third rail,'' or people are scared to talk about it. To me, 
it is really common sense, and we are going to really try and 
help--you know, help incent this and put some money on the 
table to encourage it.
    But everyone--business, non-profits, you know, political 
leaders, state school chiefs, the unions, us--we are all saying 
that thinking about this in a very different way is the right 
way to go.
    So I think, as a country, as we think about NCLB 
reauthorization, I think we should be tight on the goals--very 
clear on the goals--give people flexibility toward how to 
achieve that goal.
    And, really, I think the great ideas for education--the 
innovation--will always come from the local level. It will 
never come from Washington. And the more we hold folks 
accountable for results--but allow them to be creative and to 
innovate and to entrepreneurial--to hit that higher bar--so 
tight on the bar, looser on how you get there--less descriptive 
on how you get there.
    Mr. Castle. Thank you, Mr. Secretary.
    Chairman Miller. Mr. Scott?
    Mr. Scott. Thank you, Mr. Secretary.
    You had mentioned in your prepared remarks, the problem of 
drop-out. We, obviously, have dropout factories. We also have a 
situation that some dropout factories are actually getting 
credit for adequate yearly progress.
    Would you support making the dropout rate an essential 
element in maintaining adequate yearly progress?
    Secretary Duncan. Well, I think it is even broader than 
that is--again, as we think about NCLB reauthorization--now, I 
am just listening and learning, too, around the country. And I 
am learning so much talking to students and to teachers and the 
parents and to principals.
    But I think one thing we can all agree on--if you have the 
best third-grade test scores in the world, but 50 percent of 
your students are dropping out, you are really not helping 
kids. You are not changing lives.
    And so, at the end of the day, really thinking about 
graduation rates as a benchmark that we have to hold ourselves 
accountable for, collectively--at the district level, at the 
state level and at the national level--that is hugely important 
to me.
    Mr. Scott. One part of the response to lack of adequate 
yearly progress of certain sanctions or responses, some of 
which have nothing to do with the subgroup that caused the 
failure. If one subgroup fails, then the response is a response 
that covers everybody.
    Would you support a change in this to make sure that the 
response to a failure in adequate yearly progress would address 
the problem?
    Secretary Duncan. Yes.
    Let me answer this a little bit more broadly. And I think 
this is really important--that, as we think about NCLB 
reauthorization, we have a huge opportunity here. And this is 
something we are not going to do every year. You know, we are 
going to do this once every 5, 6 years--whatever the right 
rhythm is. We need to get this right.
    And so let me be really clear. I think we have a chance to 
think ``blue skies.'' I want to continue to travel the country 
and really get the pulse of the country. But where things are 
working, we absolutely need to continue them and support them. 
And when things aren't working, let us just not tweak around 
the edges. Let us fix it.
    And so, without getting into all the specifics of what 
those are, we have a real chance here to build upon the 
successes, and build upon what made a lot of sense, and to 
think fundamentally different where things didn't make sense.
    And so I just want to, you know, ask all of you to work 
with me to think about how we take this to the next level and 
really do a much, much better job of creating the right set of 
incentives and consequences and rewards to help schools and 
school districts do the right thing by children.
    Mr. Scott. Thank you.
    And can you tell us, in a teacher's career, when the 
teacher is at his or her best?
    Secretary Duncan. I wish I had an exact number on that.
    Mr. Scott. Would it be the first year or the second year or 
they----
    Secretary Duncan. I think----
    Mr. Scott. As they become more experienced, they become 
better?
    Secretary Duncan. Yes.
    Teaching is like being a congressman. And it takes some 
years to learn the ropes and to be an----
    Mr. Scott. Well, if that is the case, then some of the 
programs to get teachers into teaching only keep them in for 2 
or 3 years, which seems to me--before they have gotten to 
their--what could be their best.
    Should there be incentives in some of these programs that 
encourage teachers to get in--be incentives for them to stay in 
much longer, so that we can get the full benefit of those 
incentives?
    Secretary Duncan. Let me answer that in two parts.
    I think we have to do everything we can to keep our good 
teachers teaching. And we actually lose far too many of our 
good teachers because we don't adequately support them, we 
don't give them the classroom-management skills, we don't give 
them good mentoring induction, and we lose far too many of our 
good teachers.
    The flip side of it is I think we have teachers who aren't 
good, who stay too long. And so it is really thinking about how 
we find out--how do we identify the best and the brightest, do 
a much better job of supporting them. Where it is just not the 
right profession--not keeping them in there for the next 25 or 
30 years, I think, is equally as important.
    And I think we have to improve on both sides--really making 
sure we keep the best and brightest, and how we have honest 
conversations with those that need to find something else to do 
with their lives.
    Mr. Scott. Thank you.
    And, finally, I have introduced legislation on youth-
violence prevention, that takes a holistic approach, requiring 
the community to come together--the Youth Promise Act.
    Secretary Duncan. I am sorry. I didn't quite hear you.
    Mr. Scott. The Youth Promise Act----
    Secretary Duncan. Okay.
    Mr. Scott [continuing]. Which requires the community to 
come together in a holistic strategy, to deal with young 
people.
    Can you say a bit about what we need to do, and how we need 
to address youth violence?
    Secretary Duncan. That is a huge, huge, huge issue.
    Mr. Scott. Well, rather than let you do it off the top of 
your head----
    Secretary Duncan. Okay.
    Mr. Scott [continuing]. If you could respond in writing, 
then----
    Secretary Duncan. I will.
    I would just say, quickly, that we have to dramatically 
reduce it not just in schools, but in communities. And what we 
want to do--I am a big fan of what has gone on in the Harlem 
Children's Zone--what Geoffrey Canada has done there. And we 
have real money to try and create other Harlem Children's Zones 
to replicate that.
    I think creating the environment not just in the school, 
but in the surrounding community, where life is valued and 
where education is valued--we want to play in that in a big 
way.
    Chairman Miller. Mr. Kline?
    Mr. Kline. Thank you, Mr. Chairman.
    Mr. Secretary, good to see you.
    We just jump around to keep the witnesses on their toes as 
to where we might be sitting.
    As you know, Mr. Secretary, for, now, over 30 years, the 
federal government has demanded through IDEA that all schools 
fund special education--provide special education. And the 
federal government was supposed to provide 40 percent of that 
funding. It has never come close.
    We had a few years, from 1995 to about 2005, where we 
steadily brought that percentage up. It never got to 20 
percent. And, frankly, Mr. Secretary, I was surprised when this 
budget came out, that you haven't done anything about 
increasing that funding for special--why didn't you fully fund 
IDEA in this budget?
    Secretary Duncan. Well, I think you probably know, in the 
Recovery Act, we have put north of $10 billion----
    Mr. Kline. Which still leaves us far short, by the way--
that gets you, at the most--if you spent all $11.5 billion in 1 
year, you would still be well short of the 40 percent, and does 
nothing going forward.
    So the question is still the same. You put in, oh, at least 
five new K-12 programs in the president's budget, $500 million 
for a new Title I early childhood grant program, $300 million 
for a new Early Learning Challenge Fund, $100 million for a new 
What Works and Innovation Fund.
    The point is we are putting new programs in that are not 
fully funded. And, yet, we haven't come close to meeting this 
obligation. And I just wondered why it wasn't put in the 
budget.
    Secretary Duncan. Well, again, I think there is an 
unprecedented investment in this; a dramatic increase the likes 
of which we have never seen before, that I am aware of. It is a 
very, very significant step in the right direction. And we, 
obviously, have to balance lots of different needs.
    So we took a very significant step, I think, in the right 
direction there. But we have to look across the board, as well.
    Mr. Kline. So you just didn't have the money? But we have 
money for new programs that will be chronically under-funded?
    This House just passed legislation putting you in the 
school-construction business, which--and I am afraid, once 
again, we have got a new very, very expensive program, a 
federal-government program, which will be chronically under-
funded, and will be competing again for this special-education 
money, for IDEA funding.
    If we would fund IDA to the extent that we are supposed to 
the extent that we are obligated to--we would help every school 
district in America. These other programs are going to help 
some, not help some, advantage some, disadvantage others.
    I would just really like to see the administration's--one 
of the great disappointments I had with the Bush 
administration--they brought in No Child Left Behind. There was 
a lot of discussion, some excitement, some disappointment. And 
we have been talking about that here.
    But they didn't fund it either. And it just seems to me it 
is a shortfall hat we ought to be able to agree, across party 
lines, and from across branches of government, that it is an 
obligation that we ought to meet.
    And I appreciate that more money was put in when we were 
throwing hundreds of billions of dollars that we were 
borrowing, out to stimulate the economy--some money went in 
there--but that is a along way from actually budgeting for 
IDEA, and making a commitment to meet that 40 percent funding, 
and helping every school district in America.
    So I understand the answer. You are where you are. But I 
would just ask you, as the head of the Department of Education, 
and working with this administration: Let us try to move that 
forward and help every school in America.
    Secretary Duncan. Thank you, sir.
    Mr. Kline. I yield back, Mr. Chairman.
    Chairman Miller. Thank you.
    Ms. Woolsey?
    Ms. Woolsey. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary.
    I just have to think out loud that it is quite strange that 
Mr. Kline didn't vote for the stimulus package, which would 
have--which did double IDEA----
    Mr. Kline. Would the gentlelady yield?
    Ms. Woolsey. I am sorry. I really shouldn't have even said 
that.
    Mr. Kline. Exactly. Thank you.
    Ms. Woolsey. Reclaiming my time.
    Mr. Secretary, I was glad to see the president's budget 
request included $10 million for Promise neighborhoods, as this 
is an issue I have always been interested in, about 
coordinating full services at or near the school site so that 
kids can come to school ready to learn. I just don't think we 
provide a complete product to the teachers when these children 
are hungry or scared or sick.
    So could you provide us with any more information about how 
president envisions these grants to work?
    Secretary Duncan. Yes. And this is, obviously--I think a 
huge step in the right direction. But this is money simply to 
plan. In the subsequent budget years, we want to put real 
resources on the table to basically try and replicate what has 
worked around the Harlem Children's Zone. And where we can make 
improvements, we want to do that, too.
    But as everyone here understands, schools are not islands. 
They exist in larger communities. And the more we can create 
environments--to Mr. Scott's question--that are safe for 
children--the more we create environments where everyone from 
babies to adults are involve in their own education, and really 
supporting families--the more we are taking a comprehensive 
approach for communities that have been disadvantaged and 
underserved for far too long--we create the climate and the 
culture and the environment in which students can thrive and be 
successful.
    So there has been some very rigorous analysis of the 
results coming out of the Harlem Children's Zone. We are very, 
very encouraged by that. There is tremendous interest in this 
around the country. And we are going to put significant 
resources on the table. The philanthropic community is also 
very interested in this, so I think we can leverage some 
private-sector dollars here, as well.
    And so our goal is to issue a request for proposals, an 
RFP, and to start working with a set of locations--and these 
aren't school districts--a set of neighborhoods, basically, 
that are really willing to think differently, think about the 
intersection of education and non-profits and the business 
community and religious institutions--to come together to 
create the environment in which every single child can thrive.
    So it is a very, very exciting opportunity.
    Ms. Woolsey. Well, I look forward to working with you on 
that. I think it is very important.
    I am going to change the subject immediately to nutrition 
standards. For the foods that are sold outside of school meal 
programs--they haven't been updated since my children were in 
school in the 1970s.
    And I have introduced legislation--H.R. 1324, the Child 
Nutrition Promotion and School Lunch Protection Bill--to update 
these standards.
    And my question to you is: Do you support updating the 
nutrition standards for foods in vending machines and ``a la 
carte'' lines and other foods sold outside of the school meal 
programs? And are you going to help us with this?
    Secretary Duncan. There is a lot of work we need to do. And 
I am going to work very closely with Secretary Vilsack, who has 
done a--I think he is going to do a phenomenal job there at the 
Department of Ag--that does the lunches.
    But we need to think about what we are doing, not just 
around the food we offer--what we are doing around nutrition 
and obesity--what we are doing to promote healthy lifestyles 
and exercise. So there is a whole package of activities that, I 
think, we need to be much more creative on.
    And so we need to think about those standards. We need to 
think about our lunches. We need to think about what is in the 
vending machines----
    Ms. Woolsey. Yes.
    Secretary Duncan [continuing]. What is available to kids.
    And when you see children going to school in the morning 
with a pop and a pack of chips, I really worry about what kind 
of day they are going to have. And we see that all too often.
    Ms. Woolsey. And what their teachers are going to have to 
put up with.
    Well, speaking of creativity, music and--is part of 
education, as far as I am concerned. And I fear that, with No 
Child Left Behind, we squeezed too many of our music and arts 
programs.
    And so how does the department plan to ensure that we have 
more art and music and creativity----
    Secretary Duncan. Yes. These are great questions.
    Ms. Woolsey [continuing]. In our curriculums.
    Secretary Duncan. Again, whether it is art or music or 
dance or drama--and I would go--you know, chess, debate----
    Ms. Woolsey. Yes.
    Secretary Duncan [continuing]. Sports, academic decathlon--
we need to do so much more if we are--again, if we are serious 
about reducing dropout rates and keeping students engaged--we 
need to do so much more to give students a menu of options, and 
let them figure out what their passion is.
    And what always bothers me is these kinds of opportunities, 
historically--these have been normal opportunities for children 
who go to private schools. And for children who go to public 
schools, there are somehow seen as extracurricular--something 
that can afford to be cut.
    And I think all of these things--I mean, there is a huge 
correlation, as you know, between music aptitude and math. But 
even beyond that, just giving students a reason to be excited 
about coming to school--and it might be the band; it might be 
the orchestra; it might be to perform in a play; it might be to 
be on the chess team or the debate team.
    When we talk about lengthening the day and lengthening 
the--you know, the year, and creating these opportunities both 
during the school day and after school--I don't think we can do 
enough of this.
    And, as I talk to students in Detroit, so many of them 
talked about--it was the band, it was the football team--those 
are the reasons why they kept going to school and didn't drop 
out.
    And so I think we have to think very, very differently--get 
away from narrowing the curriculum, and investing in those 
things that give students a chance to be excited about coming 
to school, but to find their passion and build their sense of 
self-esteem.
    Chairman Miller. Mrs. Biggert?
    Mrs. Biggert. Thank you, Mr. Chairman.
    And, welcome, Mr. Secretary. And thank you for all that you 
accomplished as the CEO of the Chicago Public Schools. It was a 
pleasure to work with you on a couple of issues that you had 
with the then-secretary of Education.
    And you were a winner there, and did a great job 
representing the Chicago Public School. So----
    Secretary Duncan. Thanks for all your support.
    Mrs. Biggert. Thank you.
    And I think we expect great things from you as secretary of 
education. And with your vision and experience, I know that you 
will succeed. So we are really happy to have you there.
    A couple of questions--turning back to the student loans 
that Mr. McKeon mentioned--approximately 25 percent of the 
student loans originate now through the Direct Loan Program, 
compared to 75 percent from the FFEL Program--and how are you 
going to switch, if we have to, to handle the increased volume 
required by the president's proposal?
    And since all of those FFEL programs seemed to have 
worked--but I know we have had a discussion in the last several 
Congresses about the issue between the two programs--but why do 
we want to just continue with one programs, without much debate 
here?
    Secretary Duncan. Yes.
    I think the simple goal is to do the--create the best deal 
we can for students, for their parents and for taxpayers. And 
you have a situation where, as you know--that the FFEL Program 
was on life support--we, as a government, were heavily 
subsidizing the vast majority of those loans anyway.
    And if we have a chance to move out of the business of 
subsidizing banks and put, you know, year after year, literally 
billions of dollars of additional resources out to students at 
a time when going to college has never been more expensive, it 
has never been, you know, tougher for families, and there has 
never been less resources at home to--a chance to do all this 
without adding another taxpayer dollar to the mix, I think, is 
the right thing to do.
    And so what we want to do is really make sure, on the 
private side, that the private sector services these loans--we 
don't want to get in that business. That shouldn't be the 
business we are in. We can create real opportunities there, and 
create the competition and have providers that are doing a 
great job of servicing--give them more business, going forward.
    So I think there is a real chance for the private sector to 
continue to play. But at the end of the day, the goal is simply 
to try and get the best deal we can for students, for parents, 
for taxpayers.
    Mrs. Biggert. I guess I don't see the difference with the 
private loans, versus the direct loan--costing less. And with 
less competition, won't the costs go up?
    Secretary Duncan. Well, no. Actually, the differences--to 
keep the private sector engaged, we have heavily, heavily 
subsidized that to a tune of billions of dollars a year. And we 
simply want to transfer those subsidies--those dollars--from 
banks to students.
    And so it is a different priority, but we think it is the 
right priority.
    Mrs. Biggert. Okay.
    Then, just going back to the--the special ed, for a 
moment--and not the money, but, you know, special ed in the No 
Child Left Behind has always been, you know, a special 
category. And so many teachers that I have talked to where--
when they were going to do the testing said that they were just 
in tears when they had to include the special-ed children in 
their grade level.
    And I think that the No Child Left Behind did a great job 
of really increasing the quality of education for the special-
ed kids. But at the same time, when those tests came along, it 
really was demoralizing and really a disaster for that testing. 
Is that going to change? Are you looking ahead to that?
    Secretary Duncan. It is a really thoughtful question. And I 
think this is one--again, as we think about NCLB 
reauthorization--that we need to be very, very thoughtful on 
both sides of the equation.
    Let me give you both that--I have heard lots of horror 
stories of students asked to take a test where they had, you 
know--couldn't begin to read the questions--and it would be an 
absolutely traumatizing experience. So does that make sense for 
that child? It doesn't.
    The flip side of that is you want to maintain a high bar. 
And you have, now, in the current legislation, these exemptions 
of a certain percent of students, arbitrarily--that doesn't 
make sense either.
    So I think we have to sort of find that balance act between 
walking away from accountability, which we absolutely don't 
want to do, and just, you know, exempting students--but also 
having an assessment that is appropriate for the students' 
cognitive ability.
    Mrs. Biggert. Yes.
    Secretary Duncan. And so we have to sort of find that--
strike that balance. And we have some work to do to get it 
there.
    Mrs. Biggert. Would you consider--or using their LAP to 
decide what test level they would take?
    Secretary Duncan. If you are going to look these issues, 
you--you would have to look at the IAPs. It would have to be 
part of the conversation.
    Mrs. Biggert. Okay.
    Secretary Duncan. So I think this one and the other one 
that is complicated similarly is how you access the knowledge 
of English-language learners, ELL students. I think, on both of 
these, we need to have some real conversation, debate, and 
figure out who is doing the best in the country, and trying to 
scale that up.
    Mrs. Biggert. Unfortunately, my time is expired.
    Chairman Miller. Mr. Hinojosa?
    Mr. Hinojosa. Thank you, Mr. Chairman.
    Secretary Duncan, thank you for coming to visit with us. 
And I want to say that the remarks in the opening part of this 
meeting is excellent, because you address so many problems that 
are of concern to us in Texas.
    I had the pleasure of going to China with a co-del led by 
Buck McKeon. And we wanted to know why their high schools were 
out-performing ours by so much. And we learned some of the 
things that you used in your remarks. And that was parental 
involvement plus early reading plus writing, equals success in 
school--was the way that they answered the questions when we 
met with stakeholder out there.
    Number two, we saw that, on the weekends, they were doing 
exactly what you said today. And that was utilizing their 
schools for extracurricular activities and, thus, really 
utilizing their schools--longer days, longer weeks--all of 
that, we saw it ourselves, as members of Congress. So we want 
to support your thinking.
    But I am going to focus on something that is also of great 
interest to me, because it is shocking to hear that in Detroit, 
we have had as much as 75 percent dropout rate. In minority 
populations like--districts like mine--80 percent Hispanic--we 
have 50 percent dropout. And it is tough as heck to get our 
kids to go to college.
    The National Center for Education Statistics report that 
since 1984, minority undergraduate student enrollments surged 
by 146 percent, compared to growth of only 15 percent for the 
white population of students. Minority-serving institutions 
represent less than one-third of all degree-granting, Title IV 
institutions, but enroll more than half of all the minority 
students.
    How does this administration plan to build on the efforts 
that Congress has already made in the passage of the--I think 
we call it the College Cost Reduction and Access Act, plus the 
passage of Higher Education Opportunity Act?
    Secretary Duncan. I think one of the most important things 
we can do as a country is get many more students going to 
college, but particularly, students from the minority 
community. And I think this huge expansion in resources to make 
college more affordable--Pell Grant, Perkins Loans, tuition tax 
credits--the students going to those minority-serving 
institutions often come from financially difficult situations. 
And they are going to be huge beneficiaries of these new 
resources.
    So I think if we can continue to put this money on the 
table year after year after year, and families can know that 
they have access to these resources--that is going to be very, 
very important.
    And let me just add one quick thing on that. To me, again, 
it is not just the money. It is students, at a young age, 
knowing that money is going to be there for them--this idea of 
making it mandatory--because I worry a lot about really smart 
third and fourth and fifth and sixth-grades whose father might 
have lost a job, whose mother may have taken a 50 percent pay 
cut, who start to think at an early age, ``Because of my 
family's financial situation, college isn't for me.''
    And if we, as a country, can say, ``This money is mandated. 
This money is going to be there. It doesn't matter what is 
going on at home,'' I think, again, the psychological message 
at an early age that is sent to students--so there is a reason 
to hope. There is a reason to work hard.
    Mr. Hinojosa. I agree with you.
    And I want to say that, back in 1998, we started the GEAR 
UP Program, which was intended to address that children could 
see that, if they stayed in school, there was light at the end 
of the tunnel.
    So we need to consider increasing the GEAR UP Program 
funding, if we are going to answer that concern of yours.
    But let me go on to visits by chancellors and presidents, 
in my office, saying that accessibility and affordability to 
higher education was their highest priority.
    And you answered Congressman Castle's question of--as far 
as I am concerned, on skyrocketing costs of college education. 
But let us go, then, to the issue that you discussed earlier, 
about supporting--I know I want to support your college-student 
loan program because, according to numbers that I saw--the 
Congressional Budget Office estimate that the savings of the 
direct government student-loan program--can yield $93 billion 
over the next 10 years.
    And my question to you is: What can we do in Congress to 
help--that this program is going to be successful the next 
decade?
    Secretary Duncan. Yes.
    Well, this is obviously--this is in our fiscal year 2010 
budget. And your support of that measure would be 
extraordinarily important. We can help students, as you said, 
for decades, without asking for another dollar from taxpayers.
    Mr. Hinojosa. Thank you.
    Chairman Miller. Mr. Secretary, I know we were hoping to 
hold you here until 11:30. If you could stay with us another 15 
minutes, there is no shortage of members who have questions. 
But we expect votes starting, probably, in about 10 minutes.
    On this side of the aisle, I have Mr. Thompson, Mr. Roe and 
Ms. Guthrie. And, over here, is McCarthy, Tierney, Davis--all 
of it depends on who shows or doesn't. Oh, Mr. Thompson left.
    So, Mr. Roe?
    Mr. Roe. Thank you, Mr. Chairman.
    I have spent 24 years in the public-school system. I told 
the committee last week, ``I overdosed on it.'' But I think 
education is not a cost, but an investment. And I think we look 
at it as a cost. And as you said earlier, money--and, very 
eloquently--money is not always the answer.
    And I guess one of the first questions I want to ask you 
is: We have been spending more and more and more money, and 
getting worse and worse and worse results. Why is that?
    Secretary Duncan. I don't know if I totally agree with 
that. I think what we see is very uneven results. I think you 
see some places of extraordinary excellence, and school--school 
districts, individual schools, charter groups--getting 
phenomenal results with very difficult populations. And you see 
other places, you know, like Detroit--which I think is, like, 
Ground Zero, educationally.
    So what I see is not uniformity. I see very disparate 
outcomes. And while that presents some challenges, to me, it is 
actually why I am so hopeful that I would argue we have more 
good ideas about what works today, than we have at any previous 
time. And over the past 5, 10, 15 years, we have seen more 
entrepreneurial educators. We have seen great visionaries step 
up.
    And so in every community--rural, inner-city, urban--we 
have examples of schools and children beating the odds every 
single day. What I want to do is to invest wisely, and to 
really take to scale those best practices, and invest in what 
works.
    And so I think we have a real opportunity here to make 
those pockets of excellence, systems of excellence, and sort of 
get away from this idea of islands, and make these high-quality 
opportunities the norm, rather than the exception.
    Mr. Roe. I agree with that.
    I live in eastern Tennessee, and trained in west Tennessee, 
at Memphis. And my wife taught for 3 years in the school system 
there.
    One of the questions we get all the time--and I will make 
just one comment, and then ask you the question. I am right 
with you on this alternative certification, because, as a 
physician, I can't be qualified to teach eighth-grade health.
    Secretary Duncan. Right.
    Mr. Roe. That is crazy.
    And you can't teach health in high school. I couldn't do it 
if I retired and wanted to do that. So I am with you 100 
percent that we need to have ways to get folks who have retired 
as chemists and mathematicians and so forth, back in the 
school. And I agree with that.
    One of the things we hear--and I know you have heard it, 
until you are deaf--is that the teachers--and I have many, many 
of them who have been patients of mine, complain that, ``Look, 
Dr. Roe, I am just teaching to the test. That is what I am 
doing.''
    How do you answer those teachers in the classroom? When we 
talk about a--and I agree with you, the standards are all over 
the place. And if we have a national standard, how do we answer 
that question?
    Secretary Duncan. I think the real question is not 
``teaching to the test,'' but the question is, ``Is it a good 
assessment?''
    I think if it is a good assessment, then you want people 
teaching to it. And if it is a bad assessment, you don't.
    And so, again, really thinking about this high bar, and 
thinking about making it quality, and thinking about, ``Does it 
evaluate critical-thinking skills?'' Are we teaching our 
children to think and to write, and to express their ideas 
critically?
    And if we can collectively come up with assessments that 
are strong, that are good assessments, that--I think that is a 
good thing. I can't speak for you, but you had to pass, you 
know, some exams to become a doctor. If those are good exams, 
teaching to those is actually a good thing. It gives you the 
knowledge and skills you need.
    So really thinking about the quality of assessments, I 
think, is very, very important, going forward.
    Mr. Roe. I had to chuckle a little bit when you said about 
how we wanted to get the government out of the business of 
banking. Anyway, I won't go there.
    In China--I read a statistic the other day, or saw a 
statistic the other day, where they have more honor students 
than we have students in this country. That is a scary number, 
when you compete on the world market.
    Secretary Duncan. Yes.
    I think so much of our challenge, honestly--you know, money 
is a piece of the answer. But let me be clear: The money is 
only good if we leverage reform. If we invest in the status 
quo, we are not going to get where we need to go in the 
country. We have to drive a very strong reform agenda. And, 
secondly, we have to raise our expectations with adults.
    And a huge part of the problem is we have too many adults 
who don't really believe that children can be successful--and 
thinking about how we get more students taking A.P. classes, 
how we get more minority students taking A.P. classes.
    We, as adults, have to really believe in our hearts that 
every single child, regardless of family background, regardless 
of socioeconomic status, can be successful. And not to just 
belabor this, but I met with this phenomenal students in 
Detroit--worked hard to overcome horrendous odds--super-smart, 
going to college.
    I have come to understand they don't have an A.P. class in 
their high school. How is that possible? How is that possible 
today?
    Mr. Roe. I guess one other thing, right quick--and then you 
may have to answer this--because I know the other folks want to 
ask questions--but on schools that are failing, 2,000 schools 
equal half of our dropouts. Why don't we do something?
    I am a person that is gone to nothing but public schools, 
but--a charter school or a scholarship or anything to get them 
out of there, because we are letting a generation fail.
    Secretary Duncan. Well, I think we have to turn those 
schools around.
    And, again, we did this in Chicago. There are other folks 
who are good in this business. And just to continue to invest 
in a situation that is broken--I think we have to think very, 
very differently.
    Let me be clear: The high-school dropout rate is not just a 
high-school issue. It means you look at those high schools. We 
have to look at their feeder middle schools. And we have to 
look at those feeder elementary schools. And if we can look at 
all those schools at the same time, we can change the 
opportunity structure for that entire neighborhood.
    But this takes courage. This takes the willingness to 
challenge the status quo. Tinkering around the edges here is 
not going to get us where we need to go.
    Chairman Miller. Mrs. McCarthy?
    Mr. Roe. Thank you, Mr. Chairman.
    Mrs. McCarthy. Thank you, Mr. Chairman.
    I certainly welcome you, Secretary Duncan. We had a few 
minutes to talk earlier, about school safety. And that is going 
to be something that I have been working on for a number of 
years.
    I agree that, you know, there is a lot more work that needs 
to be done. But you are probably one of the few, if not only, 
secretary of Education, that is coming from a school district, 
or from a--yes, from a school district--that has had, 
unfortunately, an awful lot of violence in those schools. I 
have some of those schools in my district. And I guess anyone 
that is in a urban-suburban area sees that.
    So one of the things that I wanted to ask about was--your 
budget proposes to zero out the state grants for safe and drug-
free schools and transfer a portion of that funding to the 
national programs.
    I guess what I am looking at--you know, why do you see the 
money going from the safe and drug-free, into the national 
programs? But I guess what confuses me--if you believe the 
national programs are better, then why only take--I guess you 
took $110 million out of the $295 million. So it is kind of 
leaving both programs starving, I guess.
    One other thing, too, is that I also believe--many of our 
students are doing excellent. Unfortunately, it is middle 
school and high school that we start to see the dropouts 
starting.
    We have worked in my district on Project GRAD. The TRIO 
Program works terrific. What we have seen--where the kids, when 
they got involved in it, they were able to bring other 
youngsters, that probably never would. We see their marks going 
up, and going to college.
    So with that, I would appreciate your answers.
    Secretary Duncan. Yes.
    I will take the second one first. You know, Project GRAD, 
TRIO, GEAR UP--all those programs--dual enrollment--we talked 
about all these programs that are giving students exposure and 
access to higher education, not just as juniors and seniors, 
but in fifth and sixth and seventh grade--I think are hugely 
important.
    So we want to continue to do more there. And, again, this 
idea of social isolation and breaking down those barriers is so 
important to me, and really helping students aspire to be 
successful. And understanding they can fit in in that 
environment is critically important.
    On the safe and drug-free, it was a simple strategic 
decision. We had some significant research from IES showing 
that the money going out to states basically got that looted. 
There was no real impact. And I want to get that money to 
districts. I want to get that money to where the action is.
    And, so, at the state level, we didn't see much positive 
going on. If we can use that money to get it out to schools and 
to districts, and really make an impact there--we thought that 
was a better strategic decision.
    Mrs. McCarthy. Now, are you going to increase the amount of 
money in it, so that when you are looking at the school that 
needs to have--you know, I have several under-served schools in 
my district that--a lot of these programs are there. It is 
working.
    I wish it just could go through high school, and not just 
at certain grades, though.
    Secretary Duncan. Yes. Yes.
    No, I understand the concern.
    Chairman Miller. Thank you.
    Mr. Guthrie?
    Mr. Guthrie. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here.
    And I worked in these issues, in the state legislature. And 
when we finally started to come up with policies I thought that 
were better, is when we spent a lot of time studying failures 
and why schools failed, and called superintendents up and said, 
``Why are you failing?''
    And we finally decided--and I heard Jack Kemp say it, 
actually, and it changed my attitude about it--we need to look 
at schools that, demographically should be--or you would 
predict to fail, that were successful, and study success and 
how you replicate it. And that changed the whole way we thought 
about it. So we need to replicate success. And I just look at 
the failing schools.
    One question--I was just taking a picture on the steps of 
the Capitol yesterday. And it had all these students sitting 
around in high school. And the mom said, ``How are we going to 
pay for college?'' That is the number-one issue in people's 
mind today, I think.
    And I think one of the biggest issues in the country--
because people have to say, ``pathway to the middle class''--
and it is through college. And they are seeing that. That is 
going on, so I am glad that is a priority.
    And there is a question on the failed programs, as we were 
looking at this. My understanding is the $93 billion is money 
that the banks would be making on these programs, not 
necessarily a subsidy paid to the banks. It is $93 billion. And 
by the government doing a Direct Loan Program, the $93 billion 
would be coming to the government instead of the banks.
    And the government can borrow at a lower interest rate. 
And, therefore, are we going to reflect that back in what the 
students pay? Or, for instance, if the students have a fixed 
pay to the private bank, and they pay the same rate to the 
government, and the government's loan--able to loan money at a 
lower rate, then the government's actually taking some money 
from these students who are struggling to go to college, and 
funding other programs with that.
    They are subsidizing other programs. Is that accurate?
    Secretary Duncan. I need to get clear on the technical side 
of that. And Bob Shireman is actually testifying here today. 
And he can walk that through.
    But I guess our simple--again, our simple goal is to, you 
know, figure out what is right for taxpayers, for students, and 
for their families. And the goal is not subsidizing the banks, 
but putting more money, on an ongoing basis, on an annual basis 
every single year, to increase access and affordability--we 
think it is absolutely the right thing to do.
    But we are not looking to make a margin on this, to be 
clear.
    Chairman Miller. Has the gentleman's time expired? Oh, it 
hasn't. Okay.
    We will be having a hearing on the loan program tomorrow, 
in the committee. And Mr. Shireman will be among one of the 
witnesses.
    Mr. Tierney?
    Mr. Tierney. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here today.
    I have to take 1 minute of time, unfortunately, just 
because I don't' think it should continually go unaddressed. 
Our friend from Michigan--or from Minnesota, rather--was 
talking about IDEA funds.
    And it continues to amaze me how people can continue to say 
that this is a legislative mandate. Those that know the history 
of that law know that it is, in fact, a judicial mandate, where 
the courts indicated that every child deserves an education. 
And the 40 percent was an authorization number, not a 
commitment or promise or a spending--appropriation number.
    And when Mr. Kline and I had the motion to fully fund IDA--
for several years in a row, we were in the minority--not a 
single Republican voted for it.
    So we all do--and I happen to be someone who believes we 
should fund as much of it as we can. It gives money down at the 
local communities for flexibility--but just to get the history 
straight on that.
    I want to congratulate you and the president on focusing on 
the cost of higher education. And I would like to get a 
commitment from you--in that latest bill--the Higher Education 
Act that we passed--were policies in there to reward colleges 
that kept their--their increases on tuition and fees down to 
the cost of living, and give them incentives by giving them 
more campus-based aid, and the provision that states would 
maintain their effort--that they couldn't simply take the 
federal money and then take a walk--and take their money out of 
the picture.
    Are you committed to enforcing both of those provisions as 
much as possible, and to driving the cost, at least, to a more 
reasonable rate?
    Secretary Duncan. Absolutely.
    Mr. Tierney. Okay. I appreciate that.
    On the issue of reading, we had a lot of people that had 
troubles with Reading First, and some people that liked Reading 
First. Tell me a little bit about what your philosophy is. What 
will replace the reading emphasis in this administration? Are 
you setting standards and expecting Congress to fill it in from 
there, or do you have a particular proposal for that?
    Secretary Duncan. No, what we want is a balanced and 
comprehensive approach. And we want to fund this at every 
level--the early childhood piece; we want to do stuff at the 
middle school. And we want to look at this at high school, as 
well. And I worry about teenage literacy a lot, as well.
    So we have to look across the board. And this proposal, 
over $370 million, we think, addresses the real need out there. 
And we want to be very, very thoughtful about how we do this.
    Mr. Tierney. Can you talk to us a little bit about the role 
of teacher performance and so-called merit pay in the 
president's and your plans?
    Secretary Duncan. Well, I will just simply say that there 
is unprecedented resources on the table to reward excellence. 
And I think we can't do enough to highlight those principals, 
those teachers, and those schools that are beating the odds 
every single day.
    And I think, in so many other professions, excellence is 
routinely rewarded. And, somehow, in education, we have been a 
little bit scared of that.
    So, through the Teacher Incentive Fund that the chairman 
spoke about--that we have over $500 million to put on the table 
for districts that want to help reward excellence, and support 
those schools that are making a great difference.
    Mr. Tierney. So your philosophy is to incent others to come 
up with the ideas locally, as to how they would do that, as 
opposed to imposing a particular model?
    Secretary Duncan. Oh, absolutely. There are lots of good 
models out there.
    And so, yes, I think our goal, again, is to really invest 
in what works. But I always think, you know--when I was in 
Chicago, I didn't think good ideas came from Washington. Now 
that I am in Washington, I know all the ideas don't come from 
Washington.
    The best ideas are always going to come from the local 
level. But we want to really reward those folks that are 
pushing the envelope.
    Let me just say quickly, on this--because it gets a little 
complicated--what I will say is where you have programs that 
pit teachers against each other--I think those fail. And if we 
have five teachers in a school--and if only one teacher can 
make more money, then that pushes me to close my doors and it 
does not incent the right behavior.
    And so I am really big on collaborative awards. And we 
created a program in Chicago that came from our teachers--where 
every adult in the building--not just the teachers benefited--
but the principals, security guards, the custodian--the 
custodians, the lunchroom attendants.
    And as you guys--you know, as we visit high-performing 
schools around the country, uniformly, it is every adult in 
that building that is part of that culture. And so the more we 
really create this idea of teamwork and camaraderie, and the--
you know, the lunchroom attendants are making sure they are 
serving good food, and making sure the students are eating, and 
the custodians are making sure the building is immaculate. And 
the security guards are making sure students are safe and they 
are taking their backpacks home in the evening.
    The more we create that sense of teamwork and camaraderie, 
the better we are going to see schools do.
    Mr. Tierney. Just to close with one administrative 
question--I am concerned that a number of states are not using 
the Recovery and Reinvestment Acts for Education in the manner 
in which they should. You made a statement in your opening 
remark about that.
    It seems to me that there are some games being played and, 
in fact, that some are just making themselves and the state 
budget healthy at the expense of not keeping teachers on the 
payroll, or other education personnel, and not filling in those 
gaps.
    Do you have enough personnel on your staff to actually do 
the kinds of reviews that are necessary to enforce those 
provisions?
    Secretary Duncan. We are going to look at this very, very 
closely.
    So I do not need an army to do this. We are watching this. 
We are monitoring this very closely.
    And we did two things. And I am a big believer in carrots 
and sticks. We put out very significant monies through the 
stimulus package. We withheld billions of dollars. And if folks 
are acting in bad faith, if folks are gaming, we have a real 
opportunity not to send out that second set of money.
    Second, we have these unprecedented discretionary 
resources--Race to the Top, school-improvement money, 
teaching--we have all these other resources that states would 
love to have. If states are playing games now, they are 
basically going to disqualify themselves.
    And so this is going to be really interesting to see how 
creative, how innovative, states are, going forward. And we 
have both carrots and sticks to play.
    And we will see what happens.
    Mr. Tierney. Well, thank you. We look forward to working 
with you.
    Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Hunter?
    Mr. Hunter. Thank you, Mr. Chairman.
    Mr. Secretary, great to be with you.
    We share your last name, and my first name. So it is at 
least one thing we have in common here--Duncan.
    I have got a specific question. I am a veteran, a 
California resident. I went to San Diego State University. And 
it was probably about $1,200 or $1,300 a semester, when I went 
to school. You could work, literally, for the summer, and, you 
know, pay for your fall semester.
    But right now, with our post-9/11 G.I. Bill funding for 
California veterans--they don't get their G.I. Bill towards any 
actual tuition for private education. They only get for local 
fees, because state schools in California--public institutions 
for higher education--charge only fees. They don't charge 
tuition.
    Stanford, for instance--if you were smarter than I am, then 
you went to Stanford. G.I. Bill wouldn't help you at all, 
because that is private education.
    So I am wondering, on that particular issue, if you have 
talked to the V.A. at all, and if you have any kind of fix. 
Because there have been exceptions for this in the old Pell 
Grants. Just checking to see if there is anything now--if we 
could fix it permanently so that G.I. Bill covers both private 
and public institutions in California.
    Secretary Duncan. Yes. I will absolutely look at that for 
you.
    Just a question--is that a California-specific issue, or is 
that a national issue?
    Mr. Hunter. California-specific.
    Secretary Duncan. Okay. So I need to better understand that 
one. I will look at it for you.
    Mr. Hunter. Okay.
    And, second--tying into this--veterans, right now, have 
higher unemployment rate than on average. Guys getting out of 
the--the military--they are 22, 23 years old. They might have 
been infantry or artillery. They might not have learned a 
skill.
    I see them as being disadvantaged because we are not going 
after them. These are highly motivated, highly disciplined, 
usually more-mature-for-their-age men and women that have 
served, that have sacrificed, that have been under extreme 
pressure.
    What are we going to do for them to make--to try to get 
them into schools, and bring them into the workforces as 
educated adults that have 4-year or 8-year degrees?
    Secretary Duncan. Yes.
    I would love them all to come teach. I want to work very, 
very hard with that population coming back from Iraq and coming 
back from Afghanistan.
    Obviously, they have lots of other interests, but those 
folks that want to come into the classroom--I think they would 
be phenomenal teachers. I think they are going to be great 
leaders. You said they are mature. They are not going to be 
scared. You know, nothing we can throw at them is going to be 
tougher than what they have seen before. These are great role 
models--real disciplined--you know, a real sense of mission.
    And so I want to do everything we can on a creative basis. 
I have talked about, you know, Troops to Teachers and 
alternative certification. That, to me, is a huge pool of 
talent that I want to try and open our doors and get them to 
become teachers, if that is in their heart.
    Mr. Hunter. The problem is, though, just getting them into 
school, because there is no net to catch them after they get 
out after 4 years. And they are suddenly released back into the 
civilized world again--they don't really know what to do.
    They go home sometimes. They are looking for the--you know, 
the help-wanted ads. They don't realize that their G.I. Bill is 
going to pay for them to go to school.
    And we kind of let them out of that net. And we should be 
catching them and taking advantage of----
    Secretary Duncan. So we should think together of how we 
would do a better job of proactively reaching out. I think the 
community colleges are a huge opportunity. And due to some of 
these increases in subsidies that--you know, that is almost 
free for many folks today.
    You know, I think the average cost of community college is 
$2,500--$3,000. And the Tuition Tax Credit--you are basically 
going for no money.
    If you get on that track--again, whether it is education or 
something else, I think the community colleges are a huge, huge 
opportunity for vets coming back home. And we should think 
about how--like you said, we don't just let them wander. We 
reach out to them and let them know the opportunities that are 
out there for them.
    Mr. McKeon. Will the gentleman yield?
    Mr. Hunter. Absolutely.
    Mr. McKeon. Mr. Secretary, this is a V.A. program. We just 
hope that they would reach out to you to help administer--I 
think, because of your experience in getting dollars out to the 
states----
    Secretary Duncan. Yes.
    Mr. McKeon. The way they send the money out, the California 
veterans are penalized because California is the only state 
that does not charge tuition for in-state residents.
    Secretary Duncan. Yes.
    Mr. McKeon. So I think we put a bill in yesterday, and we 
think that we can solve this. But we hope that they will 
include you in the----
    Secretary Duncan. I would love to help.
    That, to me, is like a no-brainer. And it doesn't make any 
sense. And we should fix it. So whatever I can do--and----
    Mr. McKeon. About $6,500 per California veteran would be 
available to our fix, and this would be a good thing to do.
    Secretary Duncan. Let me know what I can do to be 
supportive.
    Chairman Miller. Mr. Holt?
    Mr. Holt is going to have the last question. The secretary 
has been very generous with his time. We have held him over. 
And we are going to have votes in a matter of minutes.
    Mr. Holt?
    Mr. Holt. Thank you, Mr. Chairman.
    And, Mr. Secretary, thank you for coming.
    I must say, many Americans have high hopes riding on you. 
And we wish you every success.
    Speaking before the National Science Teachers Association, 
you said that, ``Science is all about questioning assumptions, 
testing theories, analyzing facts--the basic skills that 
prepare kids not just for the lab, but for life. We are doing 
kids a disservice if we don't teach them how to ask the tough, 
challenging questions.'' I couldn't agree more.
    Under the AARA, you have the $5 billion--approximately $5 
billion Race to the Top Funds. I would like to know if you plan 
to use any of those in connection with science education.
    Secondly, following along this, the 2010 budget actually 
trims the funding for the math-science partnerships, slightly. 
It is way below what it was when it was the Eisenhower Funds of 
a decade back. I think it is an essential program.
    I would like to hear what you are going to be doing to 
increase that program, or if you have some other way that 
teachers are going to get the professional development that 
they need and deserve in science education.
    Third point I would like to ask you to touch on is foreign 
languages. Foreign-language instruction isn't easy. It should 
start easy. It should be an integral part of even the 
elementary curriculum, all the way through--what foreign-
language reforms do you propose? And along that line, are you 
going to create an assistant secretary for international and 
foreign-language study? There is now a deputy assistant 
secretary.
    It might be more than you can cover now. If you can't cover 
all of that, I would appreciate your getting back to us on 
those points.
    Secretary Duncan. We can get back to you. I will try and do 
as best I can to answer quickly.
    I think--and, again, this is controversial--we have 
shortages of math and science teachers. We have shortages of 
foreign-language teachers. I think we need to pay those 
teachers more.
    We have been talking about math and science shortages for, 
I don't know, 25 years--30 years? I would like to stop talking 
about it. It is hard for students to be passionate about 
something that their teachers don't know. It is hard to teach 
what you don't know, and so many of our students' interest in 
math and science starts to peter out in sixth and seventh and 
eighth grade. Guess why? Because the teachers don't know the 
content.
    And so, with these resources, we want to do a number of 
things. I want to pay teachers more in those areas of critical 
need. I would love to send thousands and thousands of teachers 
back to school to learn the math and to learn the science. And 
we have numerous partnerships with universities so they can get 
the endorsements and have the content knowledge.
    I think that is the only way, long term, we can get more 
students interested and passionate in staying in the field. And 
I think it is a real loss for our country in terms of 
productivity when students don't have these kinds of 
opportunities.
    So I think we have to look at many pots of money--again, 
unprecedented, you know, stimulus dollars, unprecedented Title 
I dollars, Race to the Top Fund--all of these can be used for 
professional development. These can be used to pay teachers 
more to work in areas of critical need.
    I think we need to be much more thoughtful and creative 
about how we are creating this structure where every child has 
access to a great math teacher, a great science teacher.
    Finally, on foreign language--starting young is absolutely 
right. Starting in high school is late in the game. Starting, 
you know, 3-year-olds and 4-year-olds and 5-year-olds and 6-
year-olds--it is just like second nature to them.
    So the more we can provide those opportunities early on, 
the better students are going to do.
    Mr. Holt. Well, you know, decreasing the funding for the 
math-science partnerships, which is the only U.S. Department of 
Education program that is available across the country, to all 
schools for teacher professional development in science and 
math--the only program that is out there--to reduce it, rather 
than to double it is not the right way to go.
    Maybe you have other things in mind, but I would like the 
specifics on that.
    And, again, with the Race to the Top Funds--if you could be 
specific about how you will be using what funds for science 
education, I sure would appreciate hearing it.
    Secretary Duncan. Sure. And just to correct the record, we 
actually didn't reduce it. We capped it. We level-funded it. 
But it did not get reduced. So it----
    Mr. Holt. You know, it is half of what it was when it was 
the Eisenhower Funds a decade ago.
    Secretary Duncan. Well, that may be true, but----
    Mr. Holt. Teachers need this professional development.
    Secretary Duncan. Right.
    And I fully understand. But, again, there are unprecedented 
discretionary resources on the table. And to have districts, to 
have schools step up and invest in those things that make a 
difference--there has never been this kind--the magnitude of 
this opportunity.
    And so there is a huge, huge chance for states and 
districts to invest in professional development, and to invest 
to pay those teachers--pick a number--$5,000, $10,000, $15,000 
more to teach in underserved communities--never had more 
latitude to do that--and when we look for that creativity to 
come from local districts and local schools.
    Mr. Holt. Great.
    Thank you very much, Mr. Secretary.
    Thank you, Mr. Chairman.
    Chairman Miller. Thank you, Mr. Secretary, for being so 
generous with your time with the committee. I was told to have 
you out of here a half an hour ago. I thought we were going to 
have votes, as we were told by the floor. That didn't happen. 
And you have stayed beyond that time.
    There are members who have statements that they want to 
make. There are members who have questions. We, obviously, 
would like the opportunity to forward both their statements and 
their questions to you for a response. They didn't get an 
opportunity this morning, but they have a burning interest a 
number of these subjects and on the plans of the 
administration, with respect to that.
    So without objection, members will have 14 days to submit 
additional materials or questions for the hearing record.
    The chair and the ranking member will make sure that those 
materials are forwarded to the secretary for a response.
    Without objection, this hearing will stand adjourned. Thank 
you again.
    [The statement of Mr. Ehlers follows:]

   Prepared Statement of Hon. Vernon J. Ehlers, a Representative in 
                  Congress From the State of Michigan

    Chairman Miller, thank you for holding this important hearing today 
on President Obama's education agenda.
    I appreciate Secretary Duncan's testimony on the importance of 
``ensuring that our children and young adults have the education they 
need to ensure they enter the workforce with the knowledge and skills 
they need to be successful and to help rebuild our economy.'' I know 
that Secretary Duncan understands the importance of science education. 
When he served as CEO of the Chicago Public School District, Secretary 
Duncan had an exceptional science teacher, Michael Lach, helping to 
design the math and science curriculum. Mike previously worked in my 
office as an Einstein fellow, and understands the unique intersections 
between science content knowledge, curricular development and 
legislation. I certainly hope that Mike still has your ear--he provided 
me with good advice and our nation would benefit from his counsel on 
science education policy.
    More than 10 years ago, I led the effort to develop a new, 
sensible, coherent long-range science and technology policy for our 
nation. The Committee on Science published my efforts, Unlocking Our 
Future: Toward a New National Science Policy, in September 1998. This 
report found that extensive changes are needed to improve math and 
science education in the United States, and many of its findings are 
still relevant today. I am pleased to present Secretary Duncan with a 
copy of this report, and would be delighted to discuss it in detail.
    My work and a host of other well regarded studies have concluded 
that an investment in teacher professional development is sorely needed 
to make fundamental changes to our students' understanding of math and 
science.
    Before the No Child Left Behind Act (NCLB), Congress provided 
substantially more funding for math and science teacher professional 
development through the Eisenhower program than we have had since 2001. 
While Title II, Part A--the State Grants for Improving Teacher 
Quality--may be used for professional development, a 2005 U.S. 
Department of Education report found that the majority of districts use 
these funds for class size reduction. Many science teachers report 
little, if any, funds available for professional development 
activities. NCLB required schools to begin science testing in the 2007-
08 school year, and our teachers must be equipped with the tools to 
effectively teach math and science.
    The Math and Science Partnerships program is an innovative, proven 
program designed to improve teacher content knowledge and teaching 
skills in math and science subjects. Through formula grants to every 
state, the Math and Science Partnerships provide crucial teacher 
professional development and teacher in-service training by linking 
school districts with university mathematics, science and engineering 
departments. As a result of the Math and Science Partnerships program, 
our students' math and science skills will be strengthened.
    Unfortunately, President Obama's fiscal year 2010 budget requests 
level funding for the Math & Science Partnerships program. For years, 
Representative Holt and I have fought to increase funding for this 
valuable teacher professional development program. I find it very 
disheartening that the President's budget does not request adequate 
resources for this program, and hope that this request will be 
reconsidered.
    On a related topic, I am pleased that President Obama's budget 
requests funds to ``support activities to strengthen States' content 
and achievement standards and assessments, such as activities to 
develop college- and career-ready standards and assessments''. It is 
absolutely key that science be treated on par with reading and math in 
any update of the No Child Left Behind Act. Last Congress, I introduced 
the Science Accountability Act to hold states and schools accountable 
for student learning in science, and I am reintroducing this bill 
today. Also, I strongly support voluntary, national math and science 
education content standards, and, in June, I plan to reintroduce the 
Standards to Provide Educational Achievement for Kids (SPEAK) Act, 
which provides financial incentives to states to adopt world-class, 
national math and science standards.
    Finally, I look forward to working with President Obama, Secretary 
Duncan, and the Members of this Committee on reforming the No Child 
Left Behind Act. This law is overdue for reauthorization, and the lack 
of legislative action greatly concerns me. We must update this law with 
improvements to math and science education to unlock the future for our 
children.
                                 ______
                                 
    [Questions submitted and the responses follow:]

                                     [Via Electronic Mail],
                                      Washington, DC, May 27, 2009.
Hon. Arne Duncan, Secretary,
U.S. Department of Education, 400 Maryland Avenue, SW, Washington, DC 
        20202.
    Dear Secretary Duncan: Thank you for testifying at the May 20, 2009 
hearing of the Committee on Education and Labor on ``The Obama 
Administration's Education Agenda.'' A number of Representatives have 
asked that you respond in writing to the following questions:

                   REPRESENTATIVE DONALD PAYNE (D-NJ)

    1. Mr. Secretary, I am concerned that the Administration's budget 
eliminates funding for a program that has produced tremendous results 
for teachers nationwide, Ready to Teach. A current recipient of Ready 
to Teach funds is PBS TeacherLine. PBS TeacherLine has been the source 
of high-quality, online fully facilitated professional development 
since 2000, serving more than 55,000 educators across the United States 
in the past four years alone. With a recent focus on coaching and 
mentoring, PBS TeacherLine created Peer Connection, a field-tested, 
high-performance suite of collaboration and communication tools created 
to strengthen and streamline instructional coaches' work with the 
teachers they're supporting. This appears to be an innovative practice 
that should be encouraged by this administration. Can I get your 
commitment that you will take a closer look at this program and 
evaluate it on its merits and success?
    2. As you think about what is needed to help students succeed 
academically--particularly those living in poverty- what are some of 
the innovations that have been successful that you would like to 
advance nationally?
    3. How important do you think ``added time'' or ``expanded learning 
time'' is to helping close the achievement gap?
    4. Do you support flexibility in how federal dollars can be spent 
to meet the needs of struggling students? For example, using funds like 
those designed for Supplemental Education Services to support more 
comprehensive approach to add learning time for students?
    5. How can federal dollars, such as those in the American Recovery 
and Reinvestment Act and in the President's Fiscal Year 2010 budget, be 
used to support expanded learning time?

                   REPRESENTATIVE BOBBY SCOTT (D-VA)

    1. Given the disparity between college retention and graduation 
rates between low-income and high-income students, how does the 
Administration plan to incorporate into its retention strategy, 
longstanding programs like TRIO, which successfully equip students with 
the academic, social, and cultural skills needed to thrive in 
institutions of higher education?
    2. The budget requests $20 million in loan subsidies to guarantee 
up to $178 million in loans under the Historically Black Colleges and 
Universities Capital Financing Program. To what extent will this meet 
the demand for such loans? Are there institutions in the pipeline with 
projects waiting to be financed? How many institutions do you 
anticipate will obtain loans in 2010?
    3. There seems to be varying views on the definition of a 
``quality'' teacher and whether this translates to being an 
``effective'' teacher. What are some of your and the Department's ideas 
on addressing this concern and ensuring that classrooms are not filled 
with paper teachers (teachers that are qualified on paper because of an 
advanced degree or etc.) who are not effective and can't engage our 
youth in ways that are both beneficial and conducive to their learning?
    4. Currently, Title I regulations do not provide specific 
graduation rate goals or growth targets. I have introduced legislation, 
the Every Student Counts Act, to address the dropout crisis that hasn't 
been fixed under the No Child Left Behind model. The Every Student 
Counts Act establishes an annual graduation rate goal of 90 percent and 
a growth target of 3 percent improvement annually and supports ``growth 
models'' of accountability by setting annual benchmarks based on a 
school's own starting point. Do you support this bill?

                   REPRESENTATIVE LYNN WOOLSEY (D-CA)

    1. As you look at the Race to the Top funds and other programs that 
incentivize innovation, how is the Administration planning to work with 
states and school districts to make sure more girls and minorities are 
becoming interested in and doing well in math and science classes?
    2. How do you envision the improvement of child care quality 
fitting into the proposed Early Learning Challenge Fund?
    3. How can we work together to ensure that all forms of early 
childhood care and education are receiving access to the Early Learning 
Challenge funds and the assistance to improve quality for our nation's 
children?
    4. Historically, the Department of Health and Human Services has 
had much of the jurisdiction over early childhood programs, 
particularly child care. How do you plan to work with the Department of 
Health and Human Services to improve the coordination and delivery of 
services to children under the age of five? Specifically, In light of 
the Early Learning Challenge Grants proposal, how do you plan to 
coordinate the development and implementation of this proposal with 
HHS?

                 REPRESENTATIVE CAROLYN MCCARTHY (D-NY)

    1. What is going to be the new name for the No Child Left Behind 
Law?
    2. Why does the department think it is a good idea to zero out the 
State grants for Safe and Drug Free Schools (SDFS) and transfer a 
portion of that funding to the national programs?
    3. If the Department believes that the SDFS state grant program is 
indeed ineffective and the SDFS National Programs are considered 
effective, why would the Administration not transfer all of the $295 
million currently in the SDFS state grant budget to National Programs 
instead of creating a net reduction of $184 million dollar for school 
safety?
    4. We have seen funding drop from $650 million for SDFS at the time 
of the Colombine shootings and to the current $295 million over the 
past decade. Furthermore, we do not have accurate data on incidents 
that occur in schools and that the only national data we have on school 
violence comes from the surveys found in the indicators report. Without 
good information we cannot help schools that need it the most. That is 
why I have introduced the SAVE Act. What are the Department's long-term 
plans for keeping our students safe?
    5. In March 2007, I sent the Department a letter (attached hereto) 
outlining my concerns that the Office of Safe and Drug Free Schools has 
not been collecting and does not possess data as required under ESEA 
Section 4141 which reauthorized the Gun Free Schools Act (GFSA). 
Specifically, States are required to report to the Secretary a 
description of circumstances surrounding any expulsions including the 
name of the school concerned, the number of students expelled, and the 
type of firearms involved. We have an obligation to keep America's 
schools gun free. The goal of this measure was to remove firearms from 
all public schools in the United States by requiring schools districts 
receiving federal funds to adopt a gun-free school policy and expel for 
one year students who carry a gun to school. As lawmakers and concerned 
parents, in order to know whether the goals of the law are being met it 
is critical to have accurate and available data collected as required 
by the law. In November 2007, eight months after my letter was sent, I 
received a response from the Department (attached hereto). It said, in 
part, ``We acknowledge that a series of school shootings that have 
occurred during the past decade have heightened the public's concern 
about school safety and the presence of firearms and other weapons in 
schools. Based on the changing climate since the Department's initial 
implementation of GFSA reporting requirements, our review of the GFSA 
and your request, we will initiate the steps necessary to begin to 
collect information from States about the names of schools where a 
student was found to have brought a firearm from school.'' Can you 
please advise the status of these steps? Is the Department collecting 
this information? If yes, where might I find the information?
    6. As you know, two middle school students--Carl Walker-Hoover of 
Springfield, MA and Jaheem Harrera of DeKalb County, GA--committed 
suicide within the past month and a half because of anti-gay bullying 
and harassment. What steps is the Education Department taking to 
provide states, local districts and schools with the guidance and 
resources they need to prevent this type of bullying and harassment, 
and to intervene when it occurs?
    7. Mr. Secretary, I am concerned that Administration's budget 
eliminates funding for a program that has produced tremendous results 
for New York teachers, Ready To Teach. Ready to Teach funds VITAL, an 
initiative spearheaded by my local public television station, Thirteen/
WNET, that leverages public television's high-quality educational 
programming to create standards-aligned digital content for classroom 
use. Will you work with me to continue this successful partnership with 
public television stations and to increase their capacity to serve 
students and teachers nationwide?
    8. Would the Administration consider allocating a portion of the 
``$2.5 billion for a new five-year Access and Completion Incentive Fund 
to support innovative state efforts to help low-income students succeed 
and complete their college education,'' to expand existing and 
successful TRIO and Project GRAD programs so that we can expand 
programs that actually work while at the same time seeking out 
innovative programs?

                    REPRESENTATIVE RUSH HOLT (D-NJ)

    1. Under the ARRA you have a $4.35 billion Race to the Top Fund, 
what plans do you have to use that fund to improve STEM and foreign 
language education?
    2. While science is being tested, only reading and mathematics 
assessments are currently counted in AYP. What are your views on the 
inclusion of science in AYP?
    3. Given your statement that ``science education is central to our 
broad effort to restore American leadership in Education worldwide'' 
will you work to increase funding for the Mathematics and Science 
partnerships program and restore it to its pre NCLB funding levels?
    4. The reauthorization of the Higher Education Act established a 
Deputy Assistant Secretary for International and Foreign Language 
Education, will you elevate this to a full Assistant Secretary position 
under the authority you have?
    5. What plans do you have to improve foreign language instruction 
in elementary schools, and what foreign language reforms would you want 
to see included in ESEA reauthorization?

                   REPRESENTATIVE SUSAN DAVIS (D-CA)

    1. Please share some specifics on what performance-based rewards 
will look like through the Teacher Incentive Fund.
    2. What are some of the obstacles to implementing performance-based 
rewards and how does the Department plan to overcome these obstacles?
    3. How will the performance pay rewards interact with No Child Left 
Behind and its requirements, such as Adequate Yearly Progress and 
Highly Qualified Teachers?
    4. What opportunities do you see to build a new structure for 
successful principals and strong school leadership under the Obama 
Administration?
    5. What will the new National Teacher Recruitment program look like 
and how will it bring new, quality teachers to the profession?
    6. How important is the issue of tuition refunds and loan 
forgiveness for service members who are activated to the Department?
    7. How is the Department addressing the unique needs of service 
members and military veterans attending college? What tools do you need 
from Congress to better meet these needs?
    8. Given that programs such as ED's Mentoring Programs are making 
progress toward closing the gap of 15 million children without a mentor 
and connecting young people with a solid role model, what can we do to 
improve the program--perhaps through a more rigorous RFP process or 
other means--rather than end it as recommended by the President's 
Budget?
    9. What type of research has been done to measure some of the other 
potentially positive effects of ED's Mentoring Programs, such as the 
happiness and confidence that can come from a healthy relationship with 
a responsible adult?

                  REPRESENTATIVE RAUL GRIJALVA (D-AZ)

    1. Given that Latino students are a significant and rapidly growing 
segment of the student population, are there plans to make a stronger 
effort to appoint Latinos and Latinas to positions in the Department of 
Education?
    2. After seeing the Recovery Act and the President's FY10 budget, 
the Hispanic community has been concerned that the new administration 
has not prioritized English language learners, or the Latino student 
population. How does the President's education agenda specifically plan 
on addressing the needs of Latino and ELL students?
    3. The President's budget proposed to eliminate the Even Start 
Family Literacy program. If funding for this program is eliminated, 
this will effect 59,000 parents and children struggling with illiteracy 
and poverty, more than half (53%) of whom are Latino. How will the 
President's education agenda ensure that families, particularly Latino 
families who have low-literacy levels, have access to essential 
services, like those provided by the Even Start program (GED, ESL 
classes for adults and early learning programs for young children)?
    4. The President has proposed State Early Learning Challenge Grants 
to improve the quality of early care and education systems, as a major 
part of his education platform. Less than half, or 43%, of Hispanic 
children ages zero-to-three attend a center-based early care and 
education (ECE) program, compared to 66% of Black children and 59% of 
White children. How will these grants be structured to ensure that 1) 
Latino students have more access to these programs, and 2) be designed 
to meet the unique needs of young English language learners and their 
families?
    5. Latinos are the fastest-growing segment of the U.S. student 
population and represent the future of the U.S. workforce. The passage 
of the ``DREAM Act'' will increase educational attainment among Latinos 
in the United States, affording them adequate preparation for work. In 
turn, the nation's economy will thrive. Is the ``DREAM Act'' an 
immediate priority for the new administration?
    6. Farmworker migrant and seasonal worker students are some of the 
most disadvantaged and at-risk students in the country. They have one 
of the highest dropout rates and encounter tremendous obstacles in 
completing high school and pursuing higher education. The High School 
Equivalency (HEP) /College Assistance Migrant Program (CAMP) have been 
successful in helping to close the access and completion gaps for many 
low-income, minority farmworker migrant and seasonal worker students. 
After years of level funding and the loss of 20 HEP/CAMP programs since 
2004, I was pleased that the President proposes a $2.5 million increase 
for the HEP/CAMP program from $34.16 million in FY 2009 to $36.61 
million for FY 2010. The Higher Education Opportunity Act (HEOA) 
recognized the importance of the HEP/CAMP program by increasing its 
authorization level $75 million. Can we expect the Administration's 
continued support of the HEP/CAMP program in the form of increased 
funding proposals in the future?
    7. The President has also proposed a drop-out prevention initiative 
that promises innovation and targets those schools with the highest 
drop-out rates. How is this initiative different from the Bush 
Administration's drop-out prevention initiative under NCLB? What role 
will community-based organizations have in this initiative?
    8. No plan to address the high school dropout crisis will be 
effective without an adequate middle grade intervention to aid the most 
troubled feeder middle schools and elementary schools of the most 
troubled high schools. In what way will the high school reform 
proposals include the middle grades?
    9. I am concerned about the problem of bullying faced by students, 
including lesbian, gay, bisexual and transgender students in the 
country. What action is the Department of Education taking to address 
bullying in the nation's schools?

                   REPRESENTATIVE MAZIE HIRONO (D-HI)

    1. According to 2006 data, there are three dropout factories in my 
district and five total in the state of Hawaii. I share your concern 
about low performing schools and want to know how best to help them. I 
recognize that dropout factories are not just a high school problem, as 
there are other factors in the elementary and middle school years 
affecting what happens to students in high school. When states submit 
applications for ARRA grants, including for State Fiscal Stabilization 
Funds and Race to the Top funds, how does the Department of Education 
plan to evaluate state applications with respect to dropout factories? 
How specific will your actions be in pushing states to address the 
problem of dropout factories?
    2. There are critical times in a child's development when positive 
intervention makes a real difference. We know that one of these times 
where resources matter is the preschool years. I have a bill, the PRE-K 
Act (H.R. 702) that would create a grant program to support states' 
efforts in providing high quality early education. What, in your view, 
are the other critical years when attention and resources would make a 
difference? Do the President's programmatic and funding requests 
reflect this approach of investing in the critical points in a child's 
development?

                  REPRESENTATIVE JASON ALTMIRE (D-PA)

    1. In the U.S. Department of Education Budget Highlights, there is 
a focus on college completion which supports ``$2.5 billion for a new 
five-year Access and Completion Incentive Fund to support innovative 
state efforts to help low-income students succeed and complete their 
college education.'' As you are aware, there are presently in place 
TRIO programs that are designed to help low-income students succeed and 
complete their college education. These programs do a great job at 
accomplishing these goals--but the programs are severely underfunded. 
Would the Administration consider allocating a portion of this $2.5 
billion to expand existing and very successful TRIO programs so that we 
can expand programs that actually work while at the same time seeking 
out new and innovative programs?
    2. One issue that arises from the President's budget proposal is 
that currently foreign schools are only eligible for the FFEL Program. 
Will the President's legislative proposal will ensure that foreign 
schools also be made eligible for the Direct Loan Program and that 
appropriate steps are taken to ensure that they are able to participate 
on behalf of their American students?

                    REPRESENTATIVE PHIL HARE (D-IL)

    1. In the Administration's education budget proposal, there seems 
to be a policy shift away from formula grants (cuts to Title I, Part A 
and Education Technology and the elimination of Safe and Drug Free 
Schools State grants) to competitive grants (new Title I Early 
Childhood Grants, the High School Graduation Initiative, new monies for 
national programs under Safe and Drug Free Schools). I am afraid that 
this shift will represent a loss of funding to rural school districts 
that do not have the resources to apply for competitive grants. What 
steps is your department going to take to ensure that rural school 
districts are equitably funded, especially under the President's new 
proposals?
    2. As a policy, Congress targets dollars under Title I to 
concentrations of poverty under the argument that it is harder to serve 
large groups of poor students. However, under the Title I funding 
formula, we define concentrations of poverty as percentages or numbers, 
whichever is higher. This results in larger less- poor school districts 
getting more money per poor child then a smaller, higher-poverty school 
districts. What recommendations would you make to instill a greater 
sense of equity when funding children in poverty?
    3. Mr. Secretary, soon I will reintroduce the Positive Behavior for 
Effective Schools Act, which opens up federal resources to school 
districts that want to establish or expand the use of PBIS (Positive 
Behavior Interventions and Supports) and provides teachers with 
training to effectively manage classrooms using PBIS strategies. As you 
may know, President Obama introduced this same bill in the Senate. Do 
you support this legislation and if so, is the administration committed 
to making this a priority?

                   REPRESENTATIVE JOE COURTNEY (D-CT)

    1. Does ARRA require states to adopt their 2010 budgets before 
becoming eligible to receive funding?
    2. In your testimony you stated that states that show progress in 
meeting the goals (``the four pillars'') of the SFSF will be able to 
qualify for the Race to the Top funding. Is it correct to assume that 
states who are dilatory in applying for SFSF and demonstrating 
compliance with SFSF's goals will suffer in the competitive grant 
process set forth in Race to the Top?
    3. Can SFSF be used to supplant state fiscal year 2009 expenditures 
within the state budget?
    4. Is there a way a state can account for state fiscal 
stabilization funds as non-federal funds? If so, how can a state apply 
for permission to do that? It appears that this is possible under 
section 14012 (d) of the ARRA.
    5. Does the ARRA allow use of state fiscal stabilization funds to 
supplant current education expenditures at the local level to achieve 
the Maintenance of Effort for additional Title I and IDEA funds? If so, 
how can localities apply for permission to do so?

                   REPRESENTATIVE JARED POLIS (D-CO)

    1. Both you and the president have repeatedly called for federal 
investment in innovative programs with a proven track record of helping 
schools meet high standards and close the achievement gap. President 
Obama has called on states to lift caps on charter schools and reform 
their charter school rules so that excellent charter schools can be 
replicated. The President's budget includes a 24% increase for Charter 
School Grants, which is an important first step towards fulfilling his 
pledge to double funding for this program. However, the program's focus 
is on new schools rather than scaling up existing successful models to 
serve more students. What role will the replication and expansion of 
high-quality charter schools play in the Administrations' education 
reform agenda, and how do you envision such an investment taking place 
both prior to and as a part of No Child Left Behind reauthorization?
    2. Under the Recovery Act, charter schools in some states are 
facing difficulties accessing the new funding. However, the 
Administration has made it clear that the fair and equal treatment of 
charter schools, which I am assuming is the case both with the recovery 
funds and other federal funding, will be a critical component of future 
ARRA funding. Could you discuss this issue--the role of how charters 
are treated under ARRA--in more detail? Will the Department hold states 
accountable for their treatment of charter schools during the second 
round of State Fiscal Stabilization Funding and the Race to the Top 
funds? How about federal funding in general in the long term longer?
    3. Mr. Secretary, in April the nation grappled with the horrific 
suicides of two 11-year-old children, Carl Joseph Walker-Hoover in 
Massachusetts and Jaheem Herrera in Georgia both of whom had been 
relentlessly bullied and teased with anti-gay epithets. These deaths 
were needless and devastating to their families, friends and 
communities. This year, on the National Day of Silence you stated that 
``we must all acknowledge our collective role and responsibility in 
preventing student deaths and ensuring that our schools remain safe 
havens of learning.'' What action is the Department of Education taking 
to combat bullying and promote tolerance in our nation's schools?
    4. As the founder and superintendent of a charter school serving 
immigrant youth, I have seen firsthand how we waste talent and 
potential in this country by denying high school graduates the 
opportunity to pursue a college education because of their immigration 
status. These kids have been raised and educated in this country and 
are as American as anyone else, but for too long they have had their 
dreams shattered by an education system that ignores their good grades 
and hard work. Educational opportunity is a right, not a privilege, and 
access to higher education is the key for both individual success and 
our nation's economic growth and prosperity. Some try to describe the 
American DREAM Act as immigration policy, but I strongly believe that 
it's fundamentally an issue of educational opportunity. President Obama 
was a co-sponsor of this legislation both as a State and an U.S. 
Senator and during a visit to a school in my district a year ago he 
reiterated his support. Can you please share with us your views on this 
critical issue?
    5. According to the Census Bureau estimates, nearly 1 in 5 adults 
in the U.S. speaks a language other than English at home, and more than 
17 million speak English less than ``very well.'' While demand for 
English language instruction has dramatically increased, federal 
funding for English Speakers of Other Languages (ESOL) programs has 
actually declined. A recent survey among 176 ESOL providers showed that 
57.4 percent maintained waiting lists, ranging from a few weeks to more 
than 3 years. Given the increased demand for adult ESOL programs, and 
the current economic crisis, an investment in adult education is needed 
now more than ever. What efforts will the Administration take to help 
address these issues, and help build and maintain a robust adult 
education, language, and literacy system in the U.S.?

                    REPRESENTATIVE DINA TITUS (D-NV)

    1. In Nevada, we have a serious problem with high school 
completion. In 2006, the Department of Education reported a graduation 
rate for Nevada of 56%, and others have put the city of Las Vegas at an 
even lower rate of 44%--both far below the national average of about 
75%. In my Congressional District there were 4 dropout factories and 5 
with graduation rates lower than 70%. Nevada has been particularly 
hard-hit by the economic downturn and is facing unemployment rates that 
are the highest they have been in 25 years, so the low graduation rates 
are even more disturbing since we know that students without a high 
school diploma will find it difficult to find jobs and will earn less 
when they do. I know you are concerned about this issue. I was 
heartened by your comments this morning, encouraged by the increases in 
your and the President's budget, and intrigued by the recent accounts 
of your conversation with students themselves about why they drop out. 
You said in a recent interview, ``I think we know many of the 
answers.'' Your 2010 budget request includes a $1 billion increase for 
Title I School Improvement Grants. The budget summary states, ``This 
request reflects the Administration's determination to take immediate 
action to begin addressing the factors that contribute to the high 
school dropout crisis in American education.'' You started to give us 
some details earlier and were cut off, so I'd ask you to please 
continue and elaborate on the details of how the School Improvement 
Grants will help improve our nation's and my state's graduation rates?

             REPRESENTATIVE HOWARD P ``BUCK MCKEON'' (R-CA)

    1. I'm aware that the Department has decided to revise the Title I 
regulation issued in 2002 to allow those school districts in need of 
improvement to serve as eligible providers of Supplemental Educational 
Services (SES). The last Administration implemented a pilot program 
allowing a number of districts to offer SES in conjunction with 
implementing parental notification and awareness provisions. Are these 
parental options going to be part of your changes to the districts in 
need of improvement regulation? And, if not, what protections are you 
going to put in place to ensure that students are not forced into 
district programs? And what recommendations would you make so that all 
providers have equal access to collecting and disseminating information 
to ensure maximum parental choice?
    2. One of the keys to successful implementation of the supplemental 
educational services provision is communicating to parents the 
availability of these services in ways that are easily understandable. 
Can you detail how some districts, including your experience in 
Chicago, have made strides in getting the word out to parents about the 
availability of both the district-sponsored service and the service of 
other providers?
    3. I am aware that the Department has notified States and school 
districts that it will entertain requests for waivers to certain SES 
provisions included in Title I of the Elementary and Secondary 
Education Act (ESEA), under the American Recovery and Reinvestment Act. 
What criteria are you basing those waivers on? And would you consider 
granting a waiver for SES in districts where there are more kids 
eligible for SES than could be funded under the 20 percent set-aside?
    4. I know that you have talked a lot about innovation and granting 
States additional flexibility in how they implement several provisions 
under ESEA. To this end, has the Department worked with States and 
local educational agencies to encourage them to submit performance 
agreements under the State and Local Flexibility Demonstration 
Programs? Also, would you support proposals to increase the percentage 
of funds that States and local school districts could transfer under 
the law's transferability option?
    5. As you know, one of the most common challenges that local school 
districts have had when trying to help schools that are in need of 
improvement is that local collective bargaining agreements restrict the 
assignment of more experienced teachers, the expeditious dismissal of 
teachers who cannot demonstrate effectiveness, and reconstitution of 
school staff. How should Federal law tackle this problem? Should we 
repeal or make exceptions to the collective bargaining language 
included in ESEA?
    6. Do you support alternate routes to teacher certification that 
maintain high standards for subject matter knowledge but remove many of 
the hoops and hurdles that I believe keep many promising individuals 
out of teaching?
    7. In your opinion, do you think that teacher colleges of education 
are doing an adequate job of preparing teachers for the realities of 
today's classroom--diverse population, special needs students, and 
content standards set by ESEA? If not, what are your suggestions for 
improving pre-service training for our nation's teachers?
    8. Recent research, including research from former President 
Clinton chief-of-staff John Podesta's organization, has shown that 
student achievement goes up when principals have the freedom to reward 
good teachers. On the other hand, research has also shown that 
additional credentials, including National Board certification, bears 
little to no relationship to improved student performance. So, rather 
than giving each National Board-certified teacher $10,000 as some 
proposals would do, wouldn't it be wiser to invest that money in 
incentive pay structures that have a track record of success?
    9. I've seen a quote from you many times, including recently in 
Time Magazine, when you stated that, ``What NCLB did was, they were 
very loose on the goals--50 states could create their own goals and 50 
different goalposts, and [what] that led to was a real dumbing down of 
those goals. What they're very tight on is how you get there. I think 
what we need to do is fundamentally reverse that--I think we need to be 
really tight on goals and have these common college-ready international 
benchmark standards that we're all aiming for, but then be much looser 
in how you let folks get there.'' What do you mean by being ``looser on 
how you let folks get there''? Does that mean delaying State 
accountability or pushing off the timeline? How do your comments 
compare to the fact that local educational agencies have a significant 
amount of flexibility into what interventions they implement for their 
failing schools once they are identified as needing corrective action 
or restructuring? Also, if you believe that State standards in reading 
and math are too low and that States need to implement common standards 
that are high standards, how are you going to address the complaints 
that we have heard from States that it was too hard to get all kids on 
grade level to what you call ``dumbed down goals''?
    10. I've heard that there has been some discussion at the 
Department that the 2014 timeline will be ``dealt with'' in the Race to 
the Top application, with the implication that if States agree to raise 
their standards, the Department will give them additional time on 
accountability beyond the 2014 deadline. Can you elaborate on this 
point? And if so, under what authority would you do this?
    11. In your testimony, you mentioned that all staff, including 
janitors and lunch attendants, in a school should receive awards under 
the proposed performance pay system. Is there any scientific research 
available that demonstrates that including these other staff members in 
the performance pay system will help increase student achievement?
    12. The Administration's budget includes a new Striving Readers 
program that will provide competitive grants to local educational 
agencies targeted toward helping students in elementary schools learn 
to read. In the development of this plan and the planning application 
process, will school districts be required to ensure that their 
programs include instruction in phonemic awareness? Will they be 
required to ensure that the programs include instruction in phonics?
    13. Does the Administration have any plans to make changes to the 
1% or the 2% rules, which allow States to hold students with 
disabilities to alternative or modified achievement standards under 
ESEA?
    14. It is a known fact that IDEA is underfunded at the Federal 
level. By Congress not meeting its commitment to fully fund 40 percent 
of the national average per pupil expenditure, local districts have 
picked up the cost burden. When Congress passed IDEA in 2004, we hoped 
that one day we would meet our commitment to fully fund special 
education and knew we needed to give local school districts some 
flexibility to reclaim their local dollars they have been using to 
cover the shortfall. Therefore, we included language in the law that 
districts would be allowed to reclaim their local dollars in an amount 
equal to 50 percent of their Federal increase, provided they use those 
dollars for educational purposes. The funding included in the American 
Recovery and Reinvestment Act or ARRA is one of the first real 
opportunities for school districts to utilize this flexibility. 
However, it has come to my attention that the Office of Special 
Education Programs is taking a restrictive view and denying the ability 
of school districts to use this flexibility. When we passed IDEA in 
2004, we included report language that said States had to ``meet an 
exceptionally high standard to prevent local education agencies from 
exercising local control.'' What basis is the Department using to deny 
the use of this flexibility to thousands of school districts?
    15. I committed to helping families and individuals with 
disabilities have the opportunity to lead fulfilling, productive lives. 
Like you, I realize the importance of fully funding the Individuals 
with Disabilities Education Act (IDEA) and improving special education, 
related services for children with disabilities. We also agree on the 
importance of accountability for the academic achievement of these 
children through the No Child Left Behind Act. As the 2010 
reauthorization of IDEA looms, what are your ideas to provide greater 
access to the general education curriculum, increased inclusion in the 
general education classroom and improved postsecondary education and 
other transition opportunities for all children with disabilities, 
including those with intellectual disabilities?
    16. You said you'd like to set a goal to turn around 1,000 low-
performing schools a year for each of the next five years. While this 
goal is admirable, how can a local educational agency that wants to 
close low-performing schools and re-open them with new principals and 
teachers do that in light of collective bargaining agreements and other 
regulations in place?
    17. President Obama has called charter schools ``one of the places 
where innovation occurs'' and he has called on States to lift caps on 
the number of charter schools. In your testimony before the Committee, 
you stated that the Department would ask States to detail whether they 
had charter school caps in place in their Race to the Top applications. 
Will the Department provide those States that do not have charter 
school caps with a priority in accessing funding under the new program?
    18. For the current school year (2008-2009), how many States are in 
compliance with the Highly Qualified Teacher (HQT) definition under 
ESEA? What impact has the HQT definition had on recruiting high quality 
teachers around the country, including recruiting special education 
teachers? What impact has the HQT definition had on the ability of 
public charter schools to recruit teachers? What impact has the HQT 
definition had on alternative certification programs?
    19. Does the Administration support Adjunct Teacher Corps programs, 
including the new program authorized under the Higher Education 
Opportunity Act?
    20. The budget proposes major changes to the Perkins loan program, 
transforming it into a tool to encourage colleges to control costs. It 
reminds me of a proposal I offered several years ago to use the campus-
based aid programs--including Perkins--to achieve that same goal of 
holding down costs. Unfortunately, my plan was rejected by the higher 
education community. I hope you have better luck than I did, and to 
that end, I have two specific questions. First, will all sectors--
including proprietary--be eligible for this program? And second, can 
you share some specifics about how this will work, how you think it 
will bring costs down, and what other plans you may have to get 
colleges to control their costs?
    21. In the President's 2010 budget proposal, there is a great deal 
of emphasis placed on early childhood programs, including new programs 
that would be implemented by the Department of Education. As you know, 
the Federal government already has a number of different early 
childhood programs (69 identified by a 2001 GAO report), the largest of 
which are based at the Department of Health and Human Services. I am 
concerned that, by creating additional and separate Federal early 
childhood programs, we would simply be adding to an already fragmented 
system of early childhood assistance at the Federal level. Would the 
new programs at the Department of Education take the place of any of 
the existing Federal programs?
    22. Would the new early childhood education programs proposed in 
the President's budget be required to work within the existing Head 
Start standards, updated in the reauthorization bill that passed last 
Congress? Will these new programs be targeted towards low-income kids 
or will all students qualify, including students from wealthy families?
    23. According to the Administration's 2010 budget, the proposed 
Early Learning Challenge Fund would provide competitive grants to State 
educational agencies in order for those agencies to establish pathways 
to high quality early childhood education. We have yet to see a 
legislative proposal for this proposed Fund, but some of the activities 
seem to duplicate those being conducted by State Advisory Councils on 
Early Childhood Education and Care that were authorized under the Head 
Start Act. How do these two proposals differ? And if they are 
different, how does the Department propose to increase coordination 
between HHS?
    24. The Administration's proposal would seem to funnel an 
overwhelming majority of its early childhood education funding through 
local educational agencies, some of which are deemed at failure of 
meeting State standards in reading and math under the Elementary and 
Secondary Education Act. Will schools that currently fail to meet 
Adequate Yearly Progress (AYP) be considered as eligible entities to 
provide early childhood education?
    25. Early childhood education has historically been a private 
endeavor. Would the Administration's new early childhood proposals 
allow the private industry, including community-based providers, to 
maintain their role in State provided early childhood education?

                   REPRESENTATIVE THOMAS PETRI (R-WI)

    1. A recent investigation by the New America Foundation found that 
Nelnet, in its November 2006 response to the Inspector General's audit 
of Nelnet, cited three program reviews of other 9.5 claimants as 
justification for not reimbursing its own illegal claims. In 2007, 
Secretary Spellings and Undersecretary Sara Martinez Tucker cited the 
Nelnet response in making a decision to allow Nelnet to keep its 
illegal claims. Now, however, the program reviews have been discredited 
by the IG in the April 2009 audit of Federal Student Aid. Have you 
asked the Attorney General to review the Nelnet settlement?
    2. Have any other 9.5 claimants made reimbursements? Please provide 
me with an update of all 9.5 payments, reimbursements, and any other 
9.5 transactions for federal fiscal years 2006, 2007, and 2008.
    3. The IG's new, April 2009 audit describes how FSA/Financial 
Partners' program reviews were mishandled in that they were not 
reviewed by the Department's Office of General Counsel. A Kentucky 2006 
9.5 program review, however, cites a ``legal opinion provided'' but 
apparently it is from a source other than the Department. Would you 
please provide a copy of the legal opinion cited in that program 
review?

                   REPRESENTATIVE MARK SOUDER (R-IN)

    1. How does the Administration plan to stem the need for drug 
treatment in the future by eliminating prevention efforts such as the 
State Grants portion of the Safe and Drug Free Schools and Communities 
(SDFSC) program, one of the only prevention programs that exist in the 
federal government? Such cuts would decimate the school-based 
prevention infrastructures currently in place, leave the vast majority 
of our nation's schools and students with no drug and violence 
prevention programming at all, and provide large grants to a very small 
number of recipients that would not be sustainable over time. What do 
you plan to do to correct this?
    2. I have heard that the Administration is committed to 
streamlining the FAFSA, a priority that I strongly endorse. As you 
know, the FAFSA currently contains a question about convictions for 
prior drug offenses, which is used to enforce the drug-free student 
loan law enacted by Congress with bipartisan support in 1998 [HEA 
Section 484(r)]. The purpose of this law is to act as a deterrent, so 
that when pressured to use drugs, college students can respond that 
they don't want to lose their student loans. Although even drug 
legalization groups have admitted that the question is the ``only 
obvious mechanism for enforcing [the law]'', in the past, there have 
been efforts to remove this question from the FAFSA, which would 
effectively kill the statute by drastically reducing awareness and 
significantly weakening its ability to deter drug use. Is the 
administration committed to maintaining the drug question on the FAFSA 
and continuing to enforce the drug-free student loan law?

                  REPRESENTATIVE VERNON EHLERS (R-MI)

    1. According to OSTP (the Office of Science and Technology Policy), 
STEM education funding at the U.S. Department of Education is $87 
million (or 10 percent) less than fiscal year 2009 in the President's 
budget request. I am confused about the conflicting messages from the 
Obama Administration on support for STEM education and the America 
COMPETES Act, particularly at the K-12 levels. Why the discrepancy 
between the message and the fiscal year 2010 budget request?
    2. President Obama has recognized the need to improve our students' 
readiness for the jobs of the future. However, the U.S. Department of 
Education's fiscal year 2010 budget requests level funding for the Math 
& Science Partnerships program. For years, Representatives Holt and I 
have fought to increase funding for this valuable teacher professional 
development program at the Department of Education. I find it very 
disheartening that the President's budget does not request adequate 
resources for this program. Please comment on how, under the 
President's proposal, current teachers will be equipped with the math 
and science skills needed to help our nation's future workers succeed.
    3. President Obama's budget requests funds to ``support activities 
to strengthen States' content and achievement standards and 
assessments, such as activities to develop college- and career-ready 
standards and assessments''. As you may be aware, I strongly support 
voluntary, national math and science education content standards. In 
June, I plan to reintroduce the Standards to Provide Educational 
Achievement for Kids (SPEAK) Act, which provides financial incentives 
to states to adopt world-class, national math and science standards. 
Please comment on the President's proposal related to standards.
    4. Please elaborate on how the Race to the Top Funds will be 
distributed, and whether they will address specific subjects.
    5. Under the Higher Education Opportunity Act, you are required to 
convene a summit of higher education experts that work in the area of 
sustainable operations to develop and refine sustainability practices 
and innovation. I know that many in the sustainability community are 
anxious for this summit to take place, and the law requires it to take 
place by the end of fiscal year 2010. I would like to know what steps 
your Department has taken to date to prepare for this summit. (Text 
attached).
    SEC. 1120. SUMMIT ON SUSTAINABILITY.
    Not later than September 30, 2010, the Secretary of Education, in 
consultation with the Administrator of the Environmental Protection 
Agency, shall convene a summit of higher education experts working in 
the area of sustainable operations and programs, representatives from 
agencies of the Federal Government, and business and industry leaders 
to focus on efforts of national distinction that----
    (1) encourage faculty, staff, and students at institutions of 
higher education to establish administrative and academic 
sustainability programs on campus;
    (2) enhance research by faculty and students at institutions of 
higher education in sustainability practices and innovations that 
assist and improve sustainability;
    (3) encourage institutions of higher education to work with 
community partners from the business, government, and nonprofit sectors 
to design and implement sustainability programs for application in the 
community and workplace;
    (4) identify opportunities for partnerships involving institutions 
of higher education and the Federal Government to expand sustainable 
operations and academic programs focused on environmental and economic 
sustainability; and
    (5) charge the summit participants or steering committee to submit 
a set of recommendations for addressing sustainability through 
institutions of higher education.
    6. Under the Higher Education Opportunity Act, you are required to 
enter into an agreement with the National Research Council to conduct 
an evaluation of distance education programs. The interim report is due 
next month. Please update me on this report's progress. (Text 
attached).
   sec. 1107. independent evaluation of distance education programs.
    (a) INDEPENDENT EVALUATION.--The Secretary of Education shall enter 
into an agreement with the National Research Council of the National 
Academy of Sciences to conduct a statistically valid evaluation of the 
quality of distance education programs, as compared to campus-based 
education programs, at institutions of higher education. Such 
evaluation shall include----
    (1) identification of the elements by which the quality of distance 
education can be assessed, which may include elements such as subject 
matter, interactivity, and student outcomes;
    (2) identification of distance education program success, with 
respect to student achievement, in relation to the mission of the 
institution of higher education;
    (3) identification of the benefits and limitations of distance 
education programs and campus-based programs for different students 
(including classification of types of students by age category) by 
assessing access, job placement rates, graduation rates, and other 
factors related to persistence, completion, and cost; and
    (4) identification and analysis of factors that may make direct 
comparisons of distance education programs and campus based education 
programs difficult.
    (b) SCOPE.--The National Research Council shall select for 
participation in the evaluation under subsection (a) a diverse group of 
institutions of higher education with respect to size, mission, and 
geographic distribution.
    (c) INTERIM AND FINAL REPORTS.--The contract under subsection (a) 
shall require that the National Research Council submit to the 
authorizing committees----
    (1) an interim report regarding the evaluation under subsection (a) 
not later than June 30, 2009; and
    (2) a final report regarding such evaluation not later than June 
30, 2010.

                   REPRESENTATIVE JUDY BIGGERT (R-IL)

    1. As you know, the College Cost Reduction and Access Act of 2007 
included some important provisions to simplify the FAFSA form and 
ensure that homeless youth can access educational assistance. However, 
I have some concerns with the way this bill has been implemented. The 
statute requires that youth be considered independent if they are 
homeless or are self-supporting and at risk of homelessness. This 
status must be verified by one of four specified authorities. However, 
questions 58-60 on the 2009-2010 FAFSA address homeless youth, and none 
of these questions include the possibility that a financial aid 
administrator may be a certifying authority, as specified in statute. 
In addition, questions 58 and 59 do not address the possibility that 
students who are self-supporting and at risk of homelessness can 
qualify as independent. I was wondering what your office was doing to 
rectify these issues to ensure that all college applicants have equal 
access to federal financial aid?
    2. According to the notes for questions 58-60 on the FAFSA, a 
``youth'' is defined as one who is ``21 years of age or younger or 
still enrolled in high school as of the day they sign this 
application.'' However, the overall age to qualify as an independent is 
at least 23. Those individuals who are too old to qualify as a 
``youth'' but are not yet independent by age do not qualify for aid if 
they are homeless or at risk of homelessness. Would you consider 
amending the definition of ``youth'' on next year's FAFSA so that all 
homeless students born after January 1, 1987 can qualify for financial 
aid?

                   REPRESENTATIVE TODD PLATTS (R-PA)

    1. I am a co-chair of the Congressional Arts Caucus and through the 
Caucus we promote the advancement of music and arts education. As you 
know, students with an education rich in the arts have been proven to 
achieve better grade point averages in core academic subjects, score 
better on standardized tests, and have lower drop-out rates than 
students without arts education. Even though art is a core curriculum 
subject, many schools across the nation have eliminated their programs. 
As you develop proposals to reauthorize the Elementary and Secondary 
Education Act, how do you plan to ensure that schools continue to offer 
music and art classes?
    2. A recent GAO Report (Access to Arts Education: Inclusion of 
Additional Questions in Education's Planned Research Would Help Explain 
Why Instruction Time Has Decreased for Some Students, Feb. 27, 2009) 
found that teachers at schools identified as needing improvement and 
those with higher percentages of minority students were more likely to 
report a reduction in instructional time spent on arts education. 
Because of this finding, GAO recommended to the U.S. Department of 
Education that when carrying out its planned study on the impact of No 
Child Left Behind, questions be included regarding changes in arts 
instructional time and the causes of these changes. Do you plan to 
follow through on this recommendation?
    3. When will the other Assistant Secretaries be coming on board?
    4. What will the Administration's top three priorities be for ESEA 
reauthorization?

                    REPRESENTATIVE JOE WILSON (R-SC)

    1. Will student debt increase for borrowers of Perkins Loans due to 
the accrual of interest from the origination of the loan as opposed to 
current policy when the student graduates?
    2. Congress has specifically mandated through law that certain 
``high-need'' professions are eligible for loan cancellation under the 
currently structured Perkins Loan program. Eligible individuals can 
apply for up to $5000 of their Perkins Loan to be canceled in exchange 
for 5 years of public service. The Obama Administration is proposing to 
switch that to total loan forgiveness for 10 years of service AND 10 
years of repayment. Do you have data that shows if it costs students 
more, the federal government more, or both to make that change?

                    REPRESENTATIVE TOM PRICE (R-GA)

    1. Some states and local education agencies have passed legislation 
or signed contracts that prevent teacher compensation systems from 
taking student performance into account. Under the Teacher Incentive 
Fund, does the Administration believe student achievement should be 
taken into account when designing performance-based compensation 
systems? Will these states and LEAs that do not include student 
performance as a factor be ineligible for Teacher Incentive Fund 
grants?
    2. Recently, Randi Weingarten, President of the American Federation 
of Teachers (AFT), said that Federally-financed performance-based 
compensation grants be collectively bargained as part of the contracts. 
Will the Administration mandate such a requirement under the Teacher 
Incentive Fund? What about in non-bargaining states--will it apply?

                  REPRESENTATIVE BRETT GUTHRIE (R-KY)

    1. I have heard a lot from the teachers in Kentucky about a program 
called Best in Class that was implemented by our non-profit State 
agency, the Kentucky Higher Education Assistance Authority (KHEAA). 
Through this program, any student who went into teaching was promised 
100 percent forgiveness of their student loans over five years. This 
program is clearly more generous than the federal loan forgiveness 
programs. The agency had to stop offering this program due to the 
recent cuts to lender subsidies, but is eager to find an alternative 
method of financing loans that will provide them with the ability to 
restart this program. What options are available to KHEAA to assist 
them in fulfilling their promised obligations to these new teachers?
    2. I have been pleased to hear that the Secretary asserts that 
there will be an effort to continue working with state-based non-profit 
organizations. These organizations, such as the Kentucky Higher 
Education Assistance Authority (KHEAA), which serves my district, make 
valuable contributions to college access and financial literacy efforts 
across the country. I am concerned that KHEAA and other similar non-
profit organizations will not be able to participate in servicing of 
loans originated under the Administration's direct loan proposal due to 
their smaller size and capacity. Should the plan be passed into law, 
does the Administration's proposal include an explicit role for smaller 
non-profits in servicing direct loan originated loans?

                   REPRESENTATIVE BILL CASSIDY (R-LA)

    1. Mr. Secretary, I know I was not in Congress when the original DC 
Opportunity Scholarship Program passed and the study was implemented, 
but in reviewing the text of the legislation and the most recent study, 
I am struck by the design. It appears that the Institute for Education 
Sciences (IES) studied the impact on achievement for those who were 
offered a scholarship rather than those who actually used the 
scholarship. Yet, the legislation clearly asks for comparisons between 
those students who are participating in the program and those that 
sought to participate and are not. This should have led to an 
evaluation that compared students using scholarships to those that are 
not, instead of mixed comparison groups with weakened results. However, 
given the dilution of the sample, we still have seen that students 
attending private schools have shown greater academic achievement. 
Wouldn't it be prudent to continue the program and conduct a study that 
actually compares students who use scholarships to those in the DC 
public schools to determine achievement effects?
    2. In reviewing the past few years of the study, you can see steady 
growth in reading scores for students who have participated in the 
program to the point where we have the equivalent of more than three 
months of additional instruction for students using a scholarship over 
those who did not. You have seen that each year students also did 
better in math, but not at the statistically significant level. Given 
that each year we have seen gains in achievement for students using a 
scholarship over students in DC Public Schools, why wouldn't you want 
to capitalize on those gains and scale up the program? It seems logical 
to continue working to improve the traditional public schools while 
opening up a lifeline of success to students so we do not have a lost 
generation of kids waiting for change to come to every school.
    3. Mr. Secretary, I know you have been asked several times about 
your position on the DC Opportunity Scholarship Program. I believe your 
answer was that you wanted to work on reforms that help all kids. That 
is a noble goal that I and my colleagues agree with. However, I don't 
believe this is an ``either/or'' situation. The parent groups in DC 
have a motto, ``put kids first.'' I see this as one more tough issue 
where ideology must be put aside so we can do what is right for kids. 
To that end, can you explain why you believe the right thing to do is 
to phase out a scholarship program that has shown success in 
achievement for those who use the scholarship and, if continued, would 
likely continue to show greater success? Why you believe the right 
thing to do is deny students the choice and chance to get a better 
education while the overall improvement process is underway? Why you 
believe that the right thing to do is get rid of a program that has 
been deemed successful by the lead, independent researcher rather than 
scale up the program so more students can benefit?
    4. Last week, the Senate held a hearing on the DC Opportunity 
Scholarship program. One of the witnesses, Ms. Latasha Bennet, the 
mother of a child currently receiving a scholarship and one who was 
promised a scholarship that was recently revoked, posed a question to 
you that I would like to ask for her today. She said, ``I would like to 
ask Mr. Secretary Arne Duncan how is it that my child should not be 
given the same opportunity as his children to get the best education 
possible.'' How do you respond to Ms. Bennet, whose young daughter will 
not have the same opportunity as her older brother because of the 
decision to block new enrollees?

                  REPRESENTATIVE GLEN THOMPSON (R-PA)

    1. The Administration has focused a lot of attention on immediate 
job training related to the current economic downturn. What is the 
Administration's plan for longer term career education and training to 
address the shortage in skilled labor the country will be facing as the 
baby boomer generation gets closer to retirement? We have known this 
has been coming for a while; what is going to be done?
    2. I have read that you have recently been on the road and welcomed 
comment from rural schools and communities; I can say that representing 
a rural district just larger than the state of New Jersey, I appreciate 
your initiative. While you have only been in your position for a short 
period of time, can you provide me details on what initiatives your 
department is putting forth for rural education?
    Please send an electronic version of your written response to the 
questions to the Committee by close of business on Wednesday June 3, 
2009--the date on which the hearing record will close. If you have any 
questions, please do not hesitate to contact the Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 
                                                 December 10, 2009.
Hon. George Miller, Chairman,
Committee on Education and Labor, U.S. House of Representatives, 2181 
        Rayburn House Office Building, Washington, DC 20515.
    Dear Mr. Chairman: I am writing in response to your Committee's 
follow up questions from the May 20, 2009 hearing on ``The Obama 
Administration's Education Agenda.'' Please see the enclosed document 
for the Department's responses to those questions.
    If you have any issues or questions about our responses, please 
contact me at 202-401-0020.
            Sincerely,
                      Gabriella Gomez, Assistant Secretary,
Office of Legislation and Congressional Affairs, U.S. Department of 
                                                         Education.
                                 ______
                                 
Rep. Biggert
    1. As you know, the College Cost Reduction and Access Act of 2007 
included some important provisions to simplify the FAFSA form and 
ensure that homeless youth can access educational assistance. However, 
I have some concerns with the way this bill has been implemented. The 
statute requires that youth be considered independent if they are 
homeless or are self-supporting and at risk of homelessness. This 
status must be verified by one of four specified authorities. However, 
questions 58-60 on the 2009-2010 FAFSA address homeless youth, and none 
of these questions include the possibility that a financial aid 
administrator may be a certifying authority, as specified in statute. 
In addition, questions 58 and 59 do not address the possibility that 
students who are self-supporting and at risk of homelessness can 
qualify as independent. I was wondering what your office was doing to 
rectify these issues to ensure that all college applicants have equal 
access to federal financial aid?
    A: In our proposed 2010-2011 electronic FAFSA (FAFSA on the Web) we 
are seeking public comment and approval of a screening question for any 
applicant who had not yet been determined to be independent because of 
the applicant's response to one of the other independent criteria. The 
screening question will ask the applicant if he or she is homeless or 
at risk of being homeless. Since this is the last dependency question, 
a response of NO will result in the applicant being considered 
dependent and parental information will be required. If the response is 
YES, the next direction will depend on whether the applicant is 21 
years of age or younger or is older than 21.
    For applicants 21 years of age or younger, if the applicant 
responds YES to the homelessness screening question, the three agency 
homelessness determination questions (Questions 58-60) will be 
presented. An applicant who responds YES to any of those three 
questions will be determined to be independent and no parental 
information will be requested. An applicant who responds NO to all 
three of the detail questions will be preliminarily considered to be a 
dependent student. However, the applicant will be instructed to contact 
the financial aid administrator (FAA) to see if a determination of 
homelessness can be made consistent with the law. Also, the electronic 
information sent to the school will be flagged so that the school can 
reach out to the applicant to resolve their status.
    Because the three agency determination questions do not apply to 
applicants 22 or 23 years old because of their age, the three detail 
questions will not be presented to an older applicant who responds YES 
to the screening question. Such an applicant will be considered to be 
dependent. However, the applicant will be instructed to contact the 
financial aid administrator (FAA) to see if a determination of 
homelessness can be made consistent with the law. Also, the electronic 
information sent to the school will be flagged so that the school can 
reach out to the applicant to resolve their status.
    2. According to the notes for questions 58-60 on the FAFSA, a 
``youth'' is defined as one who is ``21 years of age or younger or 
still enrolled in high school as of the day they sign this 
application.'' However, the overall age to qualify as an independent is 
at least 23. Those individuals who are too old to qualify as a 
``youth'' but are not yet independent by age do not qualify for aid if 
they are homeless or at risk of homelessness. Would you consider 
amending the definition of ``youth'' on next year's FAFSA so that all 
homeless students born after January 1, 1987 can qualify for financial 
aid?
    A: The age at which an applicant is automatically considered to be 
independent is 24. The definition of ``youth'' is based on the laws 
referenced in the Higher Education Opportunity Act (HEOA). With regard 
to the question of how a homeless (or at risk of being homeless) person 
who is 22 or 23 can be considered independent based upon that 
homelessness condition, we believe that the process described in 
response to the previous question will ensure that such applicants are 
considered for a determination of homelessness by the financial aid 
administrator.

Rep. Cassidy
    1. Mr. Secretary, I know I was not in Congress when the original DC 
Opportunity Scholarship Program passed and the study was implemented, 
but in reviewing the text of the legislation and the most recent study 
I am struck by the design. It appears that the Institute for Education 
Sciences studied the impact on achievement for those who were offered a 
scholarship rather than those who actually used the scholarship. Yet, 
the legislation clearly asks for comparisons between those students who 
are participating in the program and those that sought to participate 
and are not. This should have led to an evaluation that compared 
students using scholarships with those that are not instead of mixed 
comparison groups with weakened results. However, given the dilution of 
the sample we still have seen that students attending private schools 
have shown greater academic achievement. Wouldn't it be prudent to 
continue the program and conduct a study that actually compares 
students who use scholarships to those in the DC public schools to 
determine achievement effects?
    A: The design of the OSP evaluation did take into account the 
certainty that not every student offered a scholarship actually uses 
it. IES has produced estimates of the impact of using a scholarship 
(i.e. participating in the program). These estimates appear side-by-
side with the estimates of the impact of the offer of a scholarship in 
Chapter 3 of the recent report. For example, p. 41 (table 3-4) shows 
that the impact of the offer of a scholarship on reading achievement is 
equivalent to 3.11 months of schooling, while the impact of using a 
scholarship is equivalent to 3.68 months of schooling.
    The OSP study design is identical to all other evaluations of 
voucher programs that have used random assignment. The lotteries that 
produce the random assignment are conducted when students apply to the 
program and are either offered (treatment group) or not offered 
(control group) a scholarship. Therefore, the first stage of analysis 
is to compare the outcomes of the two groups--which provides the 
estimate of the scholarship offer. We require those initial estimates 
in order to calculate the impact of using a scholarship. For the 
purposes of transparency, both estimates are provided in the reports.
    2. In reviewing the past few years of the study you can see steady 
growth in reading scores for students who have participated in the 
program to the point where we have the equivalent of more than three 
months of additional instruction for students using a scholarship over 
those who did not. You have seen that each year students also did 
better in math, but not at the statistically significant level. Given 
that each year we have seen gains in achievement for students using a 
scholarship over students in DC Public Schools why wouldn't you want to 
capitalize on those gains and scale up the program? It seems logical to 
continue working to improve the traditional public schools while 
opening up a lifeline of success to students so we do not have a lost 
generation of kids waiting for change to come to every school.
    A: The recent evaluation report demonstrated an impact in reading 
for only 5 of the 10 subgroups of students and did not include those 
students who entered the program at relative academic disadvantage, 
such as the students from DC schools designated as in need of 
improvement who were the main target group for the program. Also, 
please note that the fact that the math results are not statistically 
significant means that we can't distinguish the impact from zero; that 
is, we can't be confident that the impacts are positive. Finally, the 
size of the reading impact for the OSP after three years is comparable 
to, or perhaps lower than, the impacts on reading achievement found in 
two studies of inner city charter schools (in Boston and New York 
City).
    While the Administration supports letting current students continue 
their scholarships, we are focusing our efforts on supporting the 
District's efforts to improve their public schools in order to provide 
opportunities for all students, rather than expanding the OSP to serve 
new students.
    3. Mr. Secretary, I know you have been asked several times about 
your position on the DC Opportunity Scholarship Program. I believe your 
answer was that you wanted to work on reforms that help all kids. That 
is a noble goal that I and my colleagues agree with. However I don't 
believe this is an ``either/or'' situation. The parent groups in DC 
have a motto, ``put kids first.'' I see this as one more tough issue 
where ideology must be put aside so we can do what is right for kids. 
To that end, can you explain why you believe the right thing to do is 
to phase out a scholarship program that has shown success in 
achievement for those who use the scholarship and, if continued, would 
likely continue to show greater success? Why you believe the right 
thing to do is deny students the choice and chance to get a better 
education while the overall improvement process is underway? Why you 
believe that the right thing to do is get rid of a program that has 
been deemed successful by the lead, independent researcher rather than 
scale up the program so more students can benefit?
    A: For the reasons described in response to the previous question, 
while the Administration supports letting current students continue 
their scholarships, we are focusing our efforts on supporting the 
District's efforts to improve their public schools in order to provide 
opportunities for all students, rather than expanding the OSP to serve 
new students.
    4. Last week, the Senate held a hearing on the DC Opportunity 
Scholarship program. One of the witnesses, Ms. Latasha Bennet, the 
mother of a child currently receiving a scholarship and one who was 
promised a scholarship that was recently revoked, posed a question to 
you that I would like to ask for her today. She said, ``I would like to 
ask Mr. Secretary Arne Duncan how is it that my child should not be 
given the same opportunity as his children to get the best education 
possible.'' How do you respond to Ms. Bennet, whose young daughter will 
not have the same opportunity as her older brother because of the 
decision to block new enrollees?
    A: The Administration strongly supports the District's efforts to 
improve their public schools to provide opportunities for all students. 
In addition to the funds that the District's schools would receive 
under President Obama's overall Fiscal Year 2010 Education budget 
proposal and are receiving under the American Recovery and Reinvestment 
Act, President Obama's FY10 budget proposal requests a total of $74 
million to support kindergarten through high school education in the 
District, including $42 million for DC Public Schools and $20 million 
for DC charter schools, as well as $12 million to allow currently 
enrolled students to continue in the DC Opportunity Scholarship 
Program.

Rep. Ehlers
    1. Under the Higher Education Opportunity Act, you are required to 
convene a summit of higher education experts that work in the area of 
sustainable operations to develop and refine sustainability practices 
and innovation. I know that many in the sustainability community are 
anxious for this summit to take place, and the law requires it to take 
place by the end of fiscal year 2010. I would like to know what steps 
your Department has taken to date to prepare for this summit.
    A: As the Department and other agencies bring on staff, we have had 
initial discussions regarding this summit. We would be happy to give 
you a progress report as we get closer to the date for the summit.
    2. Under the Higher Education Opportunity Act, you are required to 
enter into an agreement with the National Research Council to conduct 
an evaluation of distance education programs. The interim report is due 
next month. Please update me on this report's progress.
    A: The Department has not entered into an agreement with the 
National Research Council for this evaluation because no funding was 
provided by Congress for this purpose.
    3. According to OSTP (Office of Science and Technology Policy), 
STEM education funding at the U.S. Department of Education is $87 
million (or 10 percent) less than fiscal year 2009 in the President's 
budget request. I am confused about the conflicting messages from the 
Obama Administration on support for STEM education and the America 
COMPETES Act, particularly at the K-12 levels. Why the discrepancy 
between the message and the fiscal year 2010 budget request?
    A: There is no discrepancy between the budget request and the 
President's message. The lower funding request reflects the expiration 
of the authority for one program, the Hispanic-serving Institutions 
STEM and Articulation Program, which was authorized and received 
mandatory funding for fiscal years 2008 and 2009. If one excludes that 
one-time funding, the current STEM budget for programs in the 
Department of Education is actually $13 million higher than in FY 2009.
    4. President Obama has recognized the need to improve our students' 
readiness for the jobs of the future. However, the U.S. Department of 
Education's fiscal year 2010 budget requests level funding for the Math 
& Science Partnerships program. For years, Representatives Holt and 
Ehlers have fought to increase funding for this valuable teacher 
professional development program at the Department of Education. I find 
it very disheartening that the President's budget does not request 
adequate resources for this program. Please comment on how, under the 
President's proposal, current teachers will be equipped with the math 
and science skills needed to help our nation's future workers succeed.
    A: In addition to the request for Math and Science Partnerships 
(MSP), the Administration has requested over $3 billion for ESEA Title 
II-A teacher professional development through Title II, Part A 
programs, including Improving Teacher Quality State Grants, Troops-to-
Teachers, and Transition to Teaching. These programs serve teachers 
across the academic content areas, including mathematics and science.
    5. President Obama's budget requests funds to ``support activities 
to strengthen States' content and achievement standards and 
assessments, such as activities to develop college- and career-ready 
standards and assessments''. As you may be aware, I strongly support 
voluntary, national math and science education content standards. In 
June, I plan to reintroduce the Standards to Provide Educational 
Achievement for Kids (SPEAK) Act, which provides financial incentives 
to states to adopt world-class, national math and science standards. 
Please comment on the President's proposal related to standards.
    A: Unfortunately, many state standards for graduation from high 
school fail to prepare children for college or careers. The 
Administration is pleased that the National Governors Association and 
the Council of Chief State School Officers have committed to leading an 
effort to create common standards in English language arts and 
mathematics for grades K-12. These standards will be research- and 
evidence-based, internationally benchmarked, aligned with college and 
work expectations, and include rigorous content and skills.
    Our request for $410.7 million for State Assessments and Enhanced 
Assessment Instruments would support the development and improvement of 
standards and assessments, and administration of improved State 
assessments aligned with those standards. Although States have largely 
met the requirements for implementing the assessments currently 
required under Title I of the ESEA, the Administration believes that 
those requirements should be considered basic requirements, not 
requirements for an ideal assessment system. The Administration is, 
therefore, requesting funds that States can use to begin developing and 
implementing rigorous college- and career-ready standards and high-
quality assessments that are valid and reliable for all students. In 
addition, these funds will complement and support the State Fiscal 
Stabilization Fund (SFSF) requirement that States improve their 
existing academic standards and that they implement college- and 
career-ready standards and rigorous assessments to improve both 
teaching and learning. Also, we have set aside $350 million of Race to 
the Top funds for the potential purpose of supporting States in the 
development of a next generation of assessments. As an important next 
step in contemplating and designing a competition for these funds, and 
as a means of providing technical assistance to States, the Department 
held public meetings in Boston, Atlanta and Denver. Information about 
the schedule and topics is available at http://www.ed.gov/programs/
racetothetop-assessment/index.html.
    6. Please elaborate on how the Race to the Top Funds will be 
distributed, and whether they will address specific subjects.
    A: Race to the Top is a competitive grant program designed to 
encourage and reward States that are creating the conditions for 
education innovation and reform; achieving significant improvement in 
student outcomes, including making substantial gains in student 
achievement, closing achievement gaps, improving high school graduation 
rates, and ensuring student preparation for success in college and 
careers; and implementing ambitious plans in four core education reform 
areas:
    <bullet> Adopting standards and assessments that prepare students 
to succeed in college and the workplace and to compete in the global 
economy;
    <bullet> Building data systems that measure student growth and 
success, and inform teachers and principals about how they can improve 
instruction;
    <bullet> Recruiting, developing, rewarding, and retaining effective 
teachers and principals, especially where they are needed most; and
    <bullet> Turning around our lowest-achieving schools.
    Race to the Top will reward States that have demonstrated success 
in raising student achievement and have the best plans to accelerate 
their reforms in the future. These States will offer models for others 
to follow and will spread the best reform ideas across their States, 
and across the country. States that include in their application a 
high-quality plan to emphasize science, technology, engineering and 
mathematics (STEM) education will receive a competitive preference.
    The Department plans to make Race to the Top grants in two phases. 
States that are ready to apply now may do so in Phase 1; States that 
need more time may apply in Phase 2. States that apply in Phase 1 but 
are not awarded grants may reapply for funding in Phase 2, together 
with States that are applying for the first time in Phase 2. Phase 1 
grantees may not apply for additional funding in Phase 2. Phase 1 
applications will be due January 19, 2010 and awards announced in April 
2010. Phase 2 applications will be due June 1, 2010 and awards 
announced in September 2010.
    The Final Notice/Invitation for Applications for Race to the Top 
can be found at http://edocket.access.gpo.gov/2009/pdf/E9-27427.pdf and 
an executive summary can be found at http://www.ed.gov/programs/
racetothetop/executive-summary.pdf.

Rep. Guthrie
    1. I have been pleased to hear that the Secretary asserts that 
there will be an effort to continue working with state-based non-profit 
organizations. These organizations, such as the Kentucky Higher 
Education Assistance Authority (KHEAA), which serves my district, make 
valuable contributions to college access and financial literacy efforts 
across the country. I am concerned that KHEAA and other similar non-
profit organizations will not be able to participate in servicing of 
loans originated under the Administration's direct loan proposal due to 
their smaller size and capacity. Should the plan be passed into law, 
does the Administration's proposal include an explicit role for smaller 
non-profits in servicing direct loan originated loans?
    A: States and non-profits should not have to depend on loan 
servicing revenue in order to engage in important college access and 
financial literacy education in high schools. The problems in the 
credit markets have seriously undermined the work of a number of 
nonprofit organizations that had relied on loan income to fund outreach 
efforts. That is why we are proposing a separate pot of mandatory funds 
for States that can be used to continue these important activities.
    2. I have heard a lot from the teachers in Kentucky about a program 
called Best in Class that was implemented by our non-profit State 
agency, the Kentucky Higher Education Assistance Authority (KHEAA). 
Through this program, any student who went into teaching was promised 
100 percent forgiveness of their student loans over five years. This 
program is clearly more generous than the federal loan forgiveness 
programs. The agency had to stop offering this program due to the 
recent cuts to lender subsidies, but is eager to find an alternative 
method of financing loans that will provide them with the ability to 
restart this program. What options are available to KHEAA to assist 
them in fulfilling their promised obligations to these new teachers?
    A: The Department has received many letters regarding this 
situation. While we understand your concerns, the Department does not 
have any legal power to compel KHEAA or the State of Kentucky to offer 
that program. There are several Federal programs that help teachers 
with their obligation to repay their student loans. Teachers who 
participated in Best in Class may be able to qualify for a loan 
cancellation of up to $17,500 for teachers serving for 5 consecutive 
years in low-income schools and subject-matter shortage areas, or these 
teachers can consolidate the loans into the Direct Loan Program in 
order to take advantage of the Public Service Loan Forgiveness Program.

Rep. McKeon
    1. In the President's 2010 budget proposal, there is a great deal 
of emphasis placed on early childhood programs, including new programs 
that would be implemented by the Department of Education. As you know, 
the Federal government already has a number of different early 
childhood programs (69 identified by a 2001 GAO report), the largest of 
which are based at the Department of Health and Human Services. I am 
concerned that, by creating additional and separate Federal early 
childhood programs, we would simply be adding to an already fragmented 
system of early childhood assistance at the Federal level. Would the 
new programs at the Department of Education take the place of any of 
the existing Federal programs?
    A: The new Early Learning Challenge Fund program would strengthen 
and complement, not duplicate, existing and proposed Federal 
investments in early learning programs, including Head Start. The 
grants would support State efforts to raise their early childhood 
education standards, build systems that promote quality and ensure the 
effectiveness of their early learning programs, and monitor programs' 
performance against the State standards.
    2. I'm aware that the Department has decided to revise the Title I 
regulation issued in 2002 to allow those school districts in need of 
improvement to serve as eligible providers of Supplemental Educational 
Services (SES). The last Administration implemented a pilot program 
allowing a number of districts to offer SES in conjunction with 
implementing parental notification and awareness provisions. Are these 
parental options going to be part of your changes to the districts in 
need of improvement regulation? And, if not, what protections are you 
going to put in place to ensure that students are not forced into 
district programs? And what recommendations would you make so that all 
providers have equal access to collecting and disseminating information 
to ensure maximum parental choice?
    A: The Department's proposal to allow States to approve as an SES 
provider a district identified for improvement, or corrective action, 
or a school identified for improvement, corrective action, or 
restructuring is intended to level the playing field for such LEAs and 
schools and is not intended to give them unfair advantage in enrolling 
students in SES. If an identified district or school becomes a State-
approved provider, it must follow the same statutory and regulatory 
requirements for implementing SES that apply to other providers. 
Moreover, the October 2008 Title I regulations include new provisions 
that will help to ensure that all providers have equal access to 
eligible students. For example, in order to spend unexpended funds from 
its 20 percent obligation on other allowable activities, an LEA must 
partner with outside groups to promote participation in SES and public 
school choice, take certain steps to ensure that all eligible students 
and their parents have a genuine opportunity to sign up for SES and 
public school choice, and ensure that all providers are given access to 
school facilities using a fair, open, and objective process. In 
addition, the Department has produced a guidebook to assist LEAs with 
meeting their obligations to notify parents about SES and public school 
choice and to implement the requirements of the two provisions. The 
guidebook, ``Giving Parents Options: Strategies for Informing Parents 
and Implementing Public School Choice and Supplemental Educational 
Services under No Child Left Behind,'' is available at http://
www.ed.gov/admins/comm/choice/options/index.html. Finally, it is 
parents who will continue to make the final decision about choosing an 
SES provider from the State list of approved providers that serve their 
area.
    3. One of the keys to successful implementation of the supplemental 
educational services provision is communicating to parents the 
availability of these services in ways that are easily understandable. 
Can you detail how some districts, including your experience in 
Chicago, have made strides in getting the word out to parents about the 
availability of both the district-sponsored service and the service of 
other providers?
    A: Chicago, as well as other districts, has taken seriously its 
responsibility to provide clear and complete information to parents 
about their SES options. For example, for the 2008-09 school year, 
Chicago initially informed parents about SES in April 2008 through a 
letter in both English and Spanish. That was followed by a detailed SES 
handbook (also in English and Spanish) distributed to parents at the 
start of the school year. Chicago has developed this handbook each year 
for several years, and it contains information on each provider 
approved to serve the district. Additionally, the district undertook a 
door-to-door campaign to reach parents, aired radio and TV 
announcements, worked with community partners to get the word out, and 
posted information online. This resulted in almost 200,000 students 
being notified in Chicago and almost 50,000 enrolling in services (in 
both the district's program and other providers' programs).
    We believe that other districts around the country will begin or 
continue these types of outreach activities in the 2009-2010 school 
year thanks to several new allowances and requirements in the Title I 
regulations. For example, districts may now spend the equivalent of 1 
percent of their Title I allocations (and count that money against 
their public school choice and SES obligation) for parent outreach for 
SES and public school choice. Additionally, the regulations require 
districts that have not spent their full 20 percent obligation and wish 
to spend the unexpended funds on other activities to partner with 
outside groups to help inform parents. The regulations also require all 
districts to send SES notices to parents that are clear, concise, and 
clearly distinguishable from other school improvement information and 
that explain the benefits of SES, among other things.
    However, the Department will need to remain vigilant to ensure that 
districts, in light of budget cuts, continue to fully inform parents of 
their SES options, as well as implement all other aspects of SES 
consistent with all regulatory and statutory requirements. Furthermore, 
pursuant to Title VI of the Civil Rights Act of 1964, districts may be 
required to communicate information to parents with limited English 
proficiency in their native language. The Department's Office for Civil 
Rights, which has enforcement responsibility for this statute, will 
vigorously enforce this law.
    4. Would the new early childhood education programs proposed in the 
President's budget be required to work within the existing Head Start 
standards, updated in the reauthorization bill that passed last 
Congress? Will these new programs be targeted towards low-income kids 
or will all students qualify, including students from wealthy families?
    A: None of the Administration's proposed early learning programs 
would conflict with the existing Head Start Program Performance 
Standards. These initiatives would also encourage or require programs 
to serve disadvantaged children. For example, the Early Learning 
Challenge Fund would require applicants to describe the efforts they 
would make to move a higher proportion of low-income children to 
higher-quality early learning settings. None of the Administration's 
proposed programs (Early Childhood Grants, Early Learning Challenge 
Fund, Promise Neighborhoods, and Early Reading First) prohibit or would 
prohibit grantees from serving children who are not from low-income 
families.
    5. I am aware that the Department has notified States and school 
districts that it will entertain requests for waivers to certain SES 
provisions included in Title I of the Elementary and Secondary 
Education Act (ESEA), under the American Recovery and Reinvestment Act. 
What criteria are you basing those waivers on? And would you consider 
granting a waiver for SES in districts where there are more kids 
eligible for SES than could be funded under the 20 percent set-aside?
    A: The non-regulatory guidance on Title I, Part A Waivers released 
in July describes in Section B, ``Waivers of Title I, Part A Statutory 
and Regulatory Requirements Related to SES and Public School Choice,'' 
the requirements related to such waivers. Section C, ``Waivers Related 
to Title I, Part A ARRA Funds,'' includes requests for waivers to allow 
exclusion of Title I, Part A ARRA funds in ``set aside'' calculations. 
The guidance is available at: http://www.ed.gov/programs/titleiparta/
title-i-waiver.doc.
    6. I know that you have talked a lot about innovation and granting 
States additional flexibility in how they implement several provisions 
under ESEA. To this end, has the Department worked with States and 
local educational agencies to encourage them to submit performance 
agreements under the State and Local Flexibility Demonstration 
Programs? Also, would you support proposals to increase the percentage 
of funds that States and local school districts could transfer under 
the law's transferability option?
    A: The Department would need to examine the impact of the current 
statute and complete an analysis of the transferability activities over 
the past years in order to make an informed decision on the issue of 
the percentage of funds that SEAs and LEAs should be able to transfer 
to other programs. The Department will consider the role of the current 
flexibility programs in spurring innovation within the context of the 
upcoming ESEA reauthorization. The Secretary is now in the middle of a 
nationwide listening and learning tour to hear from parents, students, 
teachers, principals and other educators about how ESEA is working and 
how best to promote reform of our nation's schools.
    7. The Administration's proposal would seem to funnel an 
overwhelming majority of its early childhood education funding through 
local educational agencies, some of which are deemed at failure of 
meeting State standards in reading and math under the Elementary and 
Secondary Education Act. Will schools that currently fail to meet 
Adequate Yearly Progress (AYP) be considered as eligible entities to 
provide early childhood education?
    A: Only one of the new early childhood programs proposed by the 
Administration in the Fiscal Year 2010 budget request, Title I Early 
Childhood Grants, would provide formula funds to local educational 
agencies (LEAs). This initiative would leverage a portion of the Title 
I funds made available under the American Recovery and Reinvestment Act 
of 2009 (the Recovery Act) by supporting the planning and 
implementation of local early childhood education programs. The 
Department would make formula grants to State educational agencies 
(SEAs) based on the proportional share of Title I, Part A funds 
received by their LEAs in fiscal year 2009, including Recovery Act 
funds. States would then provide matching grants to LEAs, with the 
match supplied by LEAs through the allocation of Recovery Act Title I 
funds to eligible early childhood programs. The unprecedented increase 
in Title I funding provided by the Recovery Act creates a unique 
opportunity for LEAs to make the investments needed to establish or 
expand high-quality pre-K programs that are fully coordinated with 
their existing Title I programs. SEAs would be permitted to establish 
their own additional requirements for LEAs seeking matching grants, 
including priorities for the use of funds, performance standards, and 
limitations on the participation of LEAs that do not have the capacity 
to use the funds effectively to implement high-quality early childhood 
programs. The Department would not require States to link these funds 
to schools' AYP status.
    8. As you know, one of the most common challenges that local school 
districts have had when trying to help schools that are in need of 
improvement is that local collective bargaining agreements restrict the 
assignment of more experienced teachers, the expeditious dismissal of 
teachers who cannot demonstrate effectiveness, and reconstitution of 
school staff. How should Federal law tackle this problem? Should we 
repeal or make exceptions to the collective bargaining language 
included in ESEA?
    A: The Administration recognizes the importance and necessity of 
developing and implementing reforms through collaboration and 
partnership with unions. Turning around underperforming schools, 
particularly schools with the greatest need for improvement, will be 
challenging yet essential work. The Administration is confident that 
collective bargaining agreements will not be a limitation in carrying 
out effective school turnarounds.
    9. Early childhood education has historically been a private 
endeavor. Would the Administration's new early childhood proposals 
allow the private industry, including community-based providers, to 
maintain their role in State provided early childhood education?
    A: The Administration's proposals would allow privately owned and 
operated early learning programs, including programs operated by 
community-based organizations, to continue their important role in 
providing young children with critical programs, services, and 
supports.
    10. Do you support alternate routes to teacher certification that 
maintain high standards for subject matter knowledge but remove many of 
the hoops and hurdles that I believe keep many promising individuals 
out of teaching?
    A: Yes. For example, the Administration's FY 2010 budget proposal 
requests continued funding for the Transition to Teaching (TTT) grant 
program, at the FY 2009 level of $43,707,000. Projects funded through 
TTT have been successful in recruiting and selecting qualified mid-
career professionals, highly qualified paraprofessionals, and recent 
college graduates (within three years) to teach in high-need schools in 
high-need districts, providing rigorous preparation leading to 
certification through accelerated, alternate routes, and providing 
project participants the mentoring and support needed to increase the 
likelihood of them remaining in teaching. Because of the alternative 
routes to certification and incentives provided by the projects, many 
individuals who would not have been able to enter teaching have been 
able to do so and meet the needs of students in our highest need 
districts.
    11. In your opinion, do you think that teacher colleges of 
education are doing an adequate job preparing teachers for the 
realities of today's classroom--diverse population, special needs 
students, and content standards set by ESEA? If not, what are your 
suggestions for improving pre-service training for our nation's 
teachers?
    A: Colleges of education need to make dramatic changes to prepare 
today's children to compete in the global economy. Teacher-preparation 
programs should ensure that new teachers will master the content of the 
subjects they will teach and they will have well-supported field-based 
experiences embedded throughout their preparation programs. Their 
ultimate goal should be to create a generation of teachers who are 
focused on improving student achievement and ready to deliver on that 
goal. Congress recently reauthorized the Higher Education Act, which 
includes the authority for the Teacher Quality Partnership program in 
Title II. As revised, Title II now authorizes grants for pre-
baccalaureate as well as residency programs, and we have recently 
awarded grants under the new authority. While the entire Higher 
Education Act was just reauthorized and will not expire until FY 2014, 
Title II will expire in FY 2011.
    12. Recent research, including research from former President 
Clinton chief-of-staff John Podesta's organization, has shown that 
student achievement goes up when principals have the freedom to reward 
good teachers. On the other hand, research has also shown that 
additional credentials, including National Board certification, bears 
little to no relationship to improved student performance. So, rather 
than giving each National Board-certified teacher $10,000 as some 
proposals would do, wouldn't it be wiser to invest that money in 
incentive pay structures that have a track record of success?
    A: Our budget request for the National Board for Professional 
Teaching Standards (NBPTS) is based on a variety of evidence showing 
the positive impact of National Board Certified Teachers (NBCTs) on 
student achievement and other measures. According to ``Assessing 
Accomplished Teaching: Advanced-Level Certification Programs,'' a 
report released by the National Research Council (NRC) of the National 
Academies in June 2008, NBCTs have higher retention rates and students 
with higher achievement. This most rigorous and comprehensive study to 
date of National Board Certification (NBC) followed a request by 
Congress to develop a framework for evaluating programs that offer 
advanced-level certification to teachers.
    In addition, several major independent studies show that students 
of teachers who have earned NBC perform better on standardized tests 
and on other measures than students of non-NBCTs. In one large-scale 
analysis of more than 100,000 student records, Linda Cavalluzzo (2004) 
demonstrates that students of NBCTs--particularly African American and 
Hispanic students--make larger gains in mathematics than students 
taught by non-NBCTs. Another study finds that students of NBCTs make 
learning gains equivalent on average to an extra month in school 
(Vandevoort, Beardsley, & Berliner, 2004). Furthermore, an examination 
of student achievement by Dan Goldhaber and Emily Anthony (2004) 
reveals that students of NBCTs scored 7 to 15 percentage points higher 
on year-end tests. These studies also show that minority students 
benefit even more from instruction by NBCTs.
    13. I've seen a quote from you many times, including recently in 
Time Magazine, when you stated that, ``What NCLB did was, they were 
very loose on the goals--50 states could create their own goals and 50 
different goalposts, and [what] that led to was a real dumbing down of 
those goals. What they're very tight on is how you get there. I think 
what we need to do is fundamentally reverse that--I think we need to be 
really tight on goals and have these common college-ready international 
benchmark standards that we're all aiming for, but then be much looser 
in how you let folks get there.'' What do you mean by being ``looser on 
how you let folks get there''? Does that mean delaying State 
accountability or pushing off the timeline? How do your comments 
compare to the fact that local educational agencies have a significant 
amount of flexibility into what interventions they implement for their 
failing schools once they are identified as needing corrective action 
or restructuring? Also, if you believe that State standards in reading 
and math are too low and that States need to implement common standards 
that are high standards, how are you going to address the complaints 
that we have heard from States that it was too hard to get all kids on 
grade level to what you call ``dumbed down goals''?
    A: Unfortunately, under NCLB, many State standards fail to prepare 
children for college or careers. This Administration is pleased that 
the National Governors Association and the Council of Chief State 
School Officers have committed to leading an effort to create common 
standards in English language arts and mathematics for grades K-12. 
These standards will be research- and evidence-based, internationally 
benchmarked, aligned with college and work expectations, and include 
rigorous content and skills. We strongly believe that all children, 
with proper support, can achieve to high standards. With regard to 
accountability under ESEA, the Secretary is in the middle of a 
nationwide listening and learning tour to hear from parents, students, 
teachers and other educators about how ESEA is working and how best to 
promote reform in our Nation's schools. Their views and many others 
will inform our thinking about reauthorization, and we look forward to 
working with the Committee on that.
    14. I've heard that there has been some discussion at the 
Department that the 2014 timeline will be ``dealt with'' in the Race to 
the Top application, with the implication that if States agree to raise 
their standards, the Department will give them additional time on 
accountability beyond the 2014 deadline. Can you elaborate on this 
point? And if so, under what authority would you do this?
    A: The Race to the Top application process described in the Final 
Notice/Invitation for Applications does not address the 2014 timeline. 
The final notice can be found at http://edocket.access.gpo.gov/2009/
pdf/E9-27427.pdf.
    15. In your testimony, you mentioned that all staff, including 
janitors and lunch attendants, in a school should receive awards under 
the proposed performance pay system. Is there any scientific research 
available that demonstrates that including these other staff members in 
the performance pay system will help increase student achievement?
    A: The Teacher Incentive Fund provides grants to encourage school 
districts and States to develop and implement innovative performance-
based compensation systems that reward teachers and principals for 
raising student achievement and for taking positions in high-need 
schools. States and LEAs, either alone or in partnership with non-
profit organizations, may apply for competitive grants to develop and 
implement performance-based compensation systems for public school 
teachers and principals. These compensation systems must be based 
primarily on measures related to student achievement.
    The $420 million increase from the regular 2009 appropriation that 
the Administration has requested would support a significant expansion 
of State and school district efforts to develop and implement 
comprehensive strategies for strengthening the educator workforce and 
driving improvements in teacher effectiveness. Beginning with the 
competition that the Department will conduct this year with the $200 
million in additional funds provided for this program by the Recovery 
Act, the Department will place a priority on the support of 
comprehensive, aligned approaches that support improved teacher and 
principal effectiveness and help ensure an equitable distribution of 
effective educators, that actively involve teachers (including special 
education teachers) and principals in the design of human capital and 
compensation systems, and that use data from emerging State and local 
longitudinal data systems to track outcomes and associate those 
outcomes with educator performance. In addition, the Administration is 
requesting language that would permit support for performance-based 
compensation to all staff in a school, because research indicates that 
this approach can be effective in raising performance across a variety 
of organizations. This proposed language would replace current language 
limiting performance-based compensation to teachers and principals.
    In addition, the request includes $30 million to support the 
National Teacher Recruitment Campaign, a comprehensive effort by the 
Department, working with public and private non-profit partners, to 
reach out to potential candidates (including non-traditional 
candidates) for teaching positions, provide information on routes they 
can take to enter the profession, and support the development of 
training programs to help these candidates become qualified to teach.
    16. The Administration's budget includes a new Striving Readers 
program that will provide competitive grants to local educational 
agencies targeted toward helping students in elementary schools learn 
to read. In the development of this plan and the planning application 
process, will school districts be required to ensure that their 
programs include instruction in phonemic awareness? Will they be 
required to ensure that the programs include instruction in phonics?
    A: Yes. Local educational agencies that receive funding under the 
proposed Striving Readers Early Literacy Grants program would be 
required to address the five components of effective reading 
instruction identified in 2000 by the National Reading Panel: phonemic 
awareness, phonics, fluency, vocabulary, and comprehension. In 
addition, the Department would emphasize oral language development and 
writing skills.
    17. Does the Administration have any plans to make changes to the 
1% or the 2% rules, which allow States to hold students with 
disabilities to alternative or modified achievement standards under 
ESEA?
    A: This is an area that we will likely consider in developing a 
proposal for reauthorization of the ESEA as we look at options for 
ensuring the valid and reliable assessment of students with 
disabilities.
    18. It is a known fact that IDEA is underfunded at the Federal 
level. By Congress not meeting its commitment to fully fund 40 percent 
of the national average per pupil expenditure, local districts have 
picked up the cost burden. When Congress passed IDEA in 2004, we hoped 
that one day we would meet our commitment to fully fund special 
education and knew we needed to give local school districts some 
flexibility to reclaim their local dollars they have been using to 
cover the shortfall. Therefore, we included language in the law that 
districts would be allowed to reclaim their local dollars in an amount 
equal to 50 percent of their Federal increase, provided they use those 
dollars for educational purposes. The funding included in the American 
Recovery and Reinvestment Act or ARRA is one of the first real 
opportunities for school districts to utilize this flexibility. 
However, it has come to my attention that the Office of Special 
Education Programs is taking a restrictive view and denying the ability 
of school districts to use this flexibility. When we passed IDEA in 
2004, we included report language that said States had to ``meet an 
exceptionally high standard to prevent local education agencies from 
exercising local control.'' What basis is the Department using to deny 
the use of this flexibility to thousands of school districts?
    A: The Individuals with Disabilities Education Act (IDEA) Section 
613(a)(2)(C) permits local educational agencies (LEAs) that meet 
certain conditions to reduce their required local, or State and local, 
expenditures on special education by up to 50 percent of any increase 
in the LEA's allocation under IDEA Section 611 (Grants to States 
program).
    The LEA must spend the `freed-up' local or, State and local, funds 
on activities that are authorized under the Elementary and Secondary 
Education Act (ESEA) of 1965. Under IDEA, section 616(f), States are 
required to prohibit any LEAs that they determine are not meeting the 
requirements of Part B from taking an MOE reduction under the authority 
in section 613(a)(2)(C).
    19. I committed to helping families and individuals with 
disabilities have the opportunity to lead fulfilling, productive lives. 
Like you, I realize the importance of fully funding the Individuals 
with Disabilities Education Act (IDEA) and improving special education, 
related services for children with disabilities. We also agree on the 
importance of accountability for the academic achievement of these 
children through the No Child Left Behind Act. As the 2010 
reauthorization of IDEA looms, what are your ideas to provide greater 
access to the general education curriculum, increased inclusion in the 
general education classroom and improved postsecondary education and 
other transition opportunities for all children with disabilities, 
including those with intellectual disabilities?
    A: We share your commitment to improving educational results for 
children with disabilities. One of the successes of NCLB was that it 
helped expose the achievement gap by requiring reporting of test scores 
by each sub-group, including students with disabilities. As you know, 
the ARRA included an additional $12 billion for IDEA. We are providing 
guidance and technical assistance to States and districts about 
strategic ways to invest these one-time funds to improve outcomes for 
students with disabilities over the next two years and to advance 
reforms that will have even longer-term impact. In addition, we will 
continue to target our investments under the programs authorized under 
IDEA, Part D on activities that we believe will support improved 
outcomes for children with disabilities. These include, among others, a 
center that provides technical assistance on increasing the 
participation and progress of children with disabilities in assessment 
and accountability systems; a center that provides technical assistance 
to improve transition planning, services, and outcomes for youth with 
disabilities; and a center that provides technical assistance on 
school-wide systems of positive behavior supports and interventions.
    20. You said you'd like to set a goal to turn around 1,000 low-
performing schools a year for each of the next five years. While this 
goal is admirable, how can a local educational agency that wants to 
close low-performing schools and re-open them with new principals and 
teachers do that in light of collective bargaining agreements and other 
regulations in place?
    A: The Administration recognizes the importance and necessity of 
developing and implementing reforms through collaboration and 
partnership with unions. Turning around underperforming schools, 
particularly schools with the greatest need for improvement, will be 
challenging yet essential work. The Administration is confident that 
collective bargaining agreements will not be a limitation in carrying 
out effective school turnarounds.
    21. President Obama has called charter schools ``one of the places 
where innovation occurs'' and he has called on States to lift caps on 
the number of charter schools. In your testimony before the Committee, 
you stated that the Department would ask States to detail whether they 
had charter school caps in place in their Race to the Top applications. 
Will the Department provide those States that do not have charter 
school caps with a priority in accessing funding under the new program?
    A: In applying for Race to the Top funds, a State will earn points 
for ensuring successful conditions for high-performing charter schools 
and other innovative schools, as measured by the extent to which the 
State has a charter school law that does not prohibit or effectively 
inhibit increasing the number of high-performing charter schools in the 
State; the State has laws, statutes, regulations or guidelines 
regarding how charter school authorizers approve, monitor, hold 
accountable, reauthorize, and close charter schools; the State's 
charter schools receive equitable funding compared to traditional 
public schools; the State provides charter schools with funding for 
facilities, assistance with facilities acquisition, access to public 
facilities, the ability to share in bonds and mill levies, or other 
supports, and the extent to which the State does not impose any 
facility-related requirements on charter schools that are stricter than 
those applied to traditional public schools; and the State enables LEAs 
to operate innovative, autonomous public schools other than charter 
schools. The Final Notice/Invitation for Applications for Race to the 
Top can be found at http://edocket.access.gpo.gov/2009/pdf/E9-27427.pdf 
and an executive summary can be found at http://www.ed.gov/programs/
racetothetop/executive-summary.pdf.
    22. For the current school year (2008-2009), how many States are in 
compliance with the Highly Qualified Teacher (HQT) definition under 
ESEA? What impact has the HQT definition had on recruiting high quality 
teachers around the country, including recruiting special education 
teachers? What impact has the HQT definition had on the ability of 
public charter schools to recruit teachers? What impact has the HQT 
definition had on alternative certification programs?
    A: We do not yet have 2008-09 data on the percentage of teachers 
that meet the statutory definition of a highly qualified teacher. The 
most recent year for which we have those data is the 2007-2008 school 
year. In that year one State, North Dakota, had 100 percent of its 
teachers meeting the HQT definition. Nationally, 95 percent of teachers 
met the HQT definition in that year compared with 86.5 percent in the 
2003-2004 school year.
    The Department has not conducted an evaluation that looks 
systematically at the effects of the HQT requirement. We do not 
believe, however, that it has adversely affected schools' ability to 
recruit teachers. It can be difficult for rural schools, where 
secondary teachers often provide instruction in multiple subjects, to 
find teachers who are highly qualified in more than one subject area. 
Similarly, multi-subject special education teachers who provide direct 
instruction in core content areas are also difficult to find. But, in 
general, the data indicate that the requirement has not been an 
impediment to recruitment or hiring.
    We believe that the HQT definition has had a positive impact on 
alternative certification programs. The Title I regulations permit a 
prospective teacher who already has a bachelor's degree and who has 
already demonstrated subject competence to be considered highly 
qualified for a period of up to three years if he or she is enrolled in 
an alternative certification program that meets certain the following 
requirements: (1) it provides intensive, ongoing professional 
development; (2) it provides structured supervision or mentoring; and 
(3) it requires that the teacher make satisfactory progress through the 
program. Alternative certification programs have been modified so that 
they meet these requirements. Also, these programs are probably more 
attractive both to enrollees and to the schools that hire them than 
they were before the HQT requirements came into effect, because they 
provide an option whereby schools can hire teachers who are skilled but 
do not meet full certification requirements and count them as highly 
qualified. Such programs can be particularly attractive in urban and 
rural settings and for special education teachers who need endorsements 
in core content areas.
    23. Does the Administration support Adjunct Teacher Corps programs, 
including the new program authorized under the Higher Education 
Opportunity Act?
    A: The Administration's budget proposal does not contain a request 
for the Adjunct Teacher Corps program, which was authorized in P.L. 
110-315 but has not yet received funding from Congress. Should Congress 
direct funding to this program, the Administration would work closely 
with Congress to implement and administer the program in a manner that 
makes it as effective as possible.
    24. The budget proposes major changes to the Perkins loan program, 
transforming it into a tool to encourage colleges to control costs. It 
reminds me of a proposal I offered several years ago to use the campus-
based aid programs--including Perkins--to achieve that same goal of 
holding down costs. Unfortunately, my plan was rejected by the higher 
education community. I hope you have better luck than I did, and to 
that end, I have two specific questions. First, will all sectors--
including proprietary--be eligible for this program? And second, can 
you share some specifics about how this will work, how you think it 
will bring costs down, and what other plans you may have to get 
colleges to control their costs?
    A: Under the Administration's budget proposal, the annual Perkins 
Loan volume would increase from approximately $1 billion per year to $6 
billion. This would be in the form of lending authority for both 
undergraduate and graduates, allocated to institutions by a formula 
that may include factors to encourage colleges to control their costs 
and offer need-based aid to limit indebtedness, and reward colleges for 
enrolling and graduating students from low-and middle-income families. 
Our expanded and modernized Perkins Loan program would retain the 
current five percent interest rate and contain a ``hold harmless'' for 
schools currently in the program, while eliminating the burden on 
schools to service and collect on the new Perkins loans.
    25. According to the Administration's 2010 budget, the proposed 
Early Learning Challenge Fund would provide competitive grants to State 
educational agencies in order for those agencies to establish pathways 
to high quality early childhood education. We have yet to see a 
legislative proposal for this proposed Fund, but some of the activities 
seem to duplicate those being conducted by State Advisory Councils on 
Early Childhood Education and Care that were authorized under the Head 
Start Act. How do these two proposals differ? And if they are 
different, how does the Department propose to increase coordination 
between HHS?
    A: The Administration worked closely with the Committee to develop 
language for the Early Learning Challenge Fund (ELCF). The 
Administration supports a joint effort between ED and HHS to administer 
the ELCF. Further, HR 3221 calls for states applying for ELCF funds to 
coordinate activities with the State Advisory Councils.
Rep. Petri
    1. A recent investigation by the New America Foundation found that 
Nelnet, in its November 2006 response to the Inspector General's audit 
of Nelnet, cited three program reviews of other 9.5 claimants as 
justification for not reimbursing its own illegal claims. In 2007, 
Secretary Spellings and Undersecretary Sara Martinez Tucker cited the 
Nelnet response in making a decision to allow Nelnet to keep its 
illegal claims. Now, however, the program reviews have been discredited 
by the IG in the April 2009 audit of Federal Student Aid. Have you 
asked the Attorney General to review the Nelnet settlement?
    A: We have not asked the Attorney General to review the Nelnet 
settlement, which was entered into and became effective in January 
2007. The Higher Education Act as in effect prior to the 2008 changes 
gave the Secretary full authority to settle FFELP claims, and she 
exercised that authority to settle the Department's claim against 
Nelnet. Whether program reviews conducted by the Department before the 
Nelnet audit settlement were questionable, as noted in the recent 
Inspector General review, does not invalidate the binding effect of the 
Nelnet settlement or any of the other settlements reached in 2007 
regarding claims for improper payments of Special Allowance Payments 
(SAP).
    2. Have any other 9.5 claimants made reimbursements? Please provide 
me with an update of all 9.5 payments, reimbursements, and any other 
9.5 transactions for federal fiscal years 2006, 2007, and 2008.
    A: Chart Attached at end of document.
    3. The IG's new, April 2009 audit describes how FSA/Financial 
Partners' program reviews were mishandled in that they were not 
reviewed by the Department's Office of General Counsel. A Kentucky 2006 
9.5 program review, however, cites a ``legal opinion provided'' but 
apparently it is from a source other than the Department. Would you 
please provide a copy of the legal opinion cited in that program 
review?
    A: The ``legal opinion provided'' to which you refer was not issued 
by the Department. In response to your question, we asked the Kentucky 
Higher Education Student Loan Corporation (KHESLC) for a copy of that 
opinion, and in response to our request, KHESLC provided a Word 
document, a printout of which is attached to these responses.

Rep. Platts
    1. I am a co-chair of the Congressional Arts Caucus and through the 
Caucus we promote the advancement of music and arts education. As you 
know, students with an education rich in the arts have been proven to 
achieve better grade point averages in core academic subjects, score 
better on standardized tests, and have lower drop-out rates than 
students without arts education. Even though art is a core curriculum 
subject, many schools across the nation have eliminated their programs. 
As you develop proposals to reauthorize the Elementary and Secondary 
Education Act, how do you plan to ensure that schools continue to offer 
music and art classes?
    A: The arts are a core academic subject and part of a complete 
education for all students. The arts are also important to American 
students gaining the 21st century skills they will need to succeed in 
higher education and the global marketplace--skills that increasingly 
demand creativity, perseverance, and problem solving combined with 
performing well as part of a team. We are committed to taking actions 
to help ensure music and art remain prominent in K-12 education.
    2. A recent GAO Report (Access to Arts Education: Inclusion of 
Additional Questions in Education's Planned Research Would Help Explain 
Why Instruction Time Has Decreased for Some Students, Feb. 27, 2009) 
found that teachers at schools identified as needing improvement and 
those with higher percentages of minority students were more likely to 
report a reduction in instructional time spent on arts education. 
Because of this finding, GAO recommended to the U.S. Department of 
Education that when carrying out its planned study on the impact of No 
Child Left Behind, questions be included regarding changes in arts 
instructional time and the causes of these changes. Do you plan to 
follow through on this recommendation?
    A: The Department plans to conduct its next study of Title I 
implementation and impact after the reauthorization of the Elementary 
and Secondary Education Act. We will consider this issue at that time. 
We would like to note that the GAO report found that overall very few 
elementary teachers reported decreases in the amount of instructional 
time spent on arts education.
    3. When will the other Assistant Secretaries be coming on board?
    A: We are working to staff our leadership positions as quickly and 
carefully as possible. We have two remaining Assistant Secretary 
positions unfilled.
    4. What will the Administration's top three priorities be for ESEA 
reauthorization?
    A: The Secretary is in the middle of a nationwide listening and 
learning tour to hear from parents, students, teachers and other 
educators about how ESEA is working and how best to reform our Nation's 
schools. Their views and many others will inform our thinking about 
reauthorization, and we look forward to working with the Committee on 
that.
Rep. Price
    1. Some states and local education agencies have passed legislation 
or signed contracts that prevent teacher compensation systems from 
taking student performance into account. Under the Teacher Incentive 
Fund, does the Administration believe student achievement should be 
taken into account when designing performance-based compensation 
systems? Will these states and LEAs that do not include student 
performance as a factor be ineligible for Teacher Incentive Fund 
grants?
    A: The appropriations language that authorizes the Teacher 
Incentive Fund requires that the teacher and principal compensation 
systems supported ``consider gains in student academic achievement.'' 
Thus, a system that does not consider student achievement would not be 
eligible. We intend to give priority to comprehensive, aligned 
approaches that support improved teacher and principal effectiveness; 
ensure equitable distribution of educators; and that identify the best 
teachers to serve as leaders in their schools.
    2. Recently, Randi Weingarten, President of the American Federation 
of Teachers (AFT), said that Federally-financed performance-based 
compensation grants be collectively bargained as part of the contracts. 
Will the Administration mandate such a requirement under the Teacher 
Incentive Fund? What about in non-bargaining states--will it apply?
    A: Involving teachers in the design of differentiated compensation 
plans ensures that teachers contribute their expertise towards 
designing the best possible plan, leads to wider understanding and 
acceptance of the proposed plan, and results in more successful 
implementation of the plan. Thus, we believe that teachers and, in 
districts that have unions and collective bargaining agreements, union 
leaders, must be involved in developing the compensation plan supported 
through the Teacher Incentive Fund.

Rep. Souder
    1. How does the Administration plan to stem the need for drug 
treatment in the future by eliminating prevention efforts such as the 
State Grants portion of the Safe and Drug Free Schools and Communities 
(SDFSC) program, one of the only prevention programs that exist in the 
federal government? Such cuts would decimate the school-based 
prevention infrastructures currently in place, leave the vast majority 
of our nation's schools and students with no drug and violence 
prevention programming at all, and provide large grants to a very small 
number of recipients that would not be sustainable over time. What do 
you plan to do to correct this?
    A: The Administration has concluded that the necessarily limited 
Federal resources available to support school-based drug prevention 
efforts are best targeted as provided for in our FY 2010 budget. Based 
on the reviews of the State Grants program, evidence that demonstrates 
the program's effectiveness has not been identified, and we continue to 
believe that the program fails to target schools and students most 
needing help, and generally spreads funds too thinly at the local level 
to support quality interventions that are likely to produce significant 
outcomes. Funding the continuation of current infrastructures is not a 
wise investment if those infrastructures are not effective.
    We believe that the Federal government has an important role to 
play in supporting the development of safe and drug-free learning 
environments for our students, but that this work must be done in 
partnership with State and local authorities. Realistically, Federal 
funding alone will never be sufficient to address the range of 
activities and services needed to keep our students safe and drug free.
    The Administration believes better results may be obtained by 
redirecting a portion of this funding to Safe and Drug Free Schools and 
Communities National Activities for direct support, in amounts 
sufficient to make a real difference, for targeted school safety and 
drug prevention and education activities that will add to the national 
knowledge base on program effectiveness and best practices.
    2. I have heard that the Administration is committed to 
streamlining the FAFSA, a priority that I strongly endorse. As you 
know, the FAFSA currently contains a question about convictions for 
prior drug offenses, which is used to enforce the drug-free student 
loan law enacted by Congress with bipartisan support in 1998 [HEA 
Section 484(r)]. The purpose of this law is to act as a deterrent, so 
that when pressured to use drugs, college students can respond that 
they don't want to lose their student loans. Although even drug 
legalization groups have admitted that the question is the ``only 
obvious mechanism for enforcing [the law]'', in the past, there have 
been efforts to remove this question from the FAFSA, which would 
effectively kill the statute by drastically reducing awareness and 
significantly weakening its ability to deter drug use. Is the 
administration committed to maintaining the drug question on the FAFSA 
and continuing to enforce the drug-free student loan law?
    A: We have reviewed each and every question on the form and are 
looking for ways to order the questions on the web-based form so that 
applicants--especially those applying for the first time--are not 
discouraged by the length and complexity of the form. Currently, 
applicants are asked whether they were convicted ``for the possession 
or sale of illegal drugs for an offense that occurred while you were 
receiving federal student aid (such as grants, loans, or work-study)?'' 
This question is confusing to anyone who has not been previously 
enrolled in postsecondary education or received federal financial aid. 
Therefore, we are proposing to revise the 2010-11 FAFSA-on-the-Web to 
not ask this question for first-time college students.

Rep. Thompson
    1. The Administration has focused a lot of attention on immediate 
job training related to the current economic downturn. What is the 
Administration's plan for longer term career education and training to 
address the shortage in skilled labor the country will be facing as the 
baby boomer generation gets closer to retirement? We have known this 
has been coming for a while; what is going to be done?
    A: We are dedicated to investing in career education and training 
and will continue to work with Congress to build and support innovative 
programs that will lead to more students completing degrees or 
certificates that provide the skills needed for good jobs in high-
demand sectors of a regional economy.
    2. I have read that you have recently been on the road and welcomed 
comment from rural schools and communities; I can say that representing 
a rural district just larger than the State of New Jersey, I appreciate 
your initiative. While you have only been in your position for a short 
period of time, can you provide me details on what initiatives your 
department is putting forth for rural education?
    A: The Administration is looking at a lot of different issues that 
affect rural school districts and continues to expand outreach into 
rural communities as evident with the Rural Tour that the President has 
helped coordinate with his Cabinet. Recruiting and retaining teachers, 
community college investment, and broadband access are some of the 
common refrains that come from these forums and are concerns that the 
Department shares with its rural constituents.
    The Rural Education Achievement Program (REAP) authorizes two 
programs to assist rural school districts in carrying out activities to 
help improve the quality of teaching and learning in their schools. The 
Small, Rural School Achievement program provides formula funds to rural 
school districts that serve small numbers of students, and the Rural 
and Low-Income School program provides funds to rural school districts 
that serve concentrations of poor students, regardless of the 
district's size. Funds appropriated for REAP are divided equally 
between these two programs. The Administration's budget request would 
maintain support for rural, often geographically isolated, districts 
that face significant challenges in implementing ESEA accountability 
requirements. The proposed notice for the Investing in Innovation Fund 
also proposes a competitive priority for those working to improve 
educational opportunities in rural communities, knowing that these 
communities face specific challenges.

Rep. Wilson
    1. Will student debt increase for borrowers of Perkins Loans due to 
the accrual of interest from the origination of the loan as opposed to 
current policy when the student graduates?
    A: Although the accrual of interest during the in-school period may 
increase a student's debt at the time of graduation, we hope most 
borrowers under the expanded Perkins Loan program will use the loans to 
replace private loans for which interest accrues during school at 
significantly higher interest rates than the fixed 5 percent available 
under Perkins, resulting in lower debt than they would have otherwise 
incurred.
    2. Congress has specifically mandated through law that certain 
``high-need'' professions are eligible for loan cancellation under the 
currently structured Perkins Loan program. Eligible individuals can 
apply for up to $5000 of their Perkins Loan to be canceled in exchange 
for 5 years of public service. The Obama Administration is proposing to 
switch that to total loan forgiveness for 10 years of service AND 10 
years of repayment. Do you have data that shows if it costs students 
more, the federal government more, or both to make that change?
    A: The Administration's proposal would increase the size of the 
Perkins Loan program from $1 billion to $6 billion annually. Most 
individual borrowers--those who receive a loan as a result of the 
proposed expansion of the program--would be much better off under the 
Administration's proposal, as they could use their Perkins Loans to 
replace costly private loans that have no forgiveness or cancellation 
provisions. A relatively small number of borrowers--those who would 
have received a Perkins Loan in the absence of the Administration's 
proposal and who would have qualified for loan forgiveness under those 
provisions--would receive less generous benefits than those available 
under current law.
    It is important to note that the College Cost Reduction and Access 
Act of 2007 created the Public Service Loan Forgiveness Program to 
encourage individuals to enter and continue to work full-time in public 
service jobs. These loan forgiveness provisions will be available to 
borrowers under the new Perkins Loan program and are broader than the 
targeted cancellations in the existing Perkins Loan program. Under this 
program, borrowers may qualify for forgiveness of the remaining balance 
due on their eligible Federal student loans after they have made 120 
payments on those loans under certain repayment plans while employed 
full-time by certain public service employers. The borrower must be 
employed full-time (in any position) by a public service organization, 
or must be serving in a full-time AmeriCorps or Peace Corps position.

Rep. Altmire
    1. In the U.S. Department of Education Budget Highlights, there is 
a focus on college completion which supports ``$2.5 billion for a new 
five-year Access and Completion Incentive Fund to support innovative 
State efforts to help low-income students succeed and complete their 
college education.'' As you are aware, there are presently in place 
TRIO programs that are designed to help low-income students succeed and 
complete their college education. These programs do a great job at 
accomplishing these goals-but the programs are severely underfunded. 
Would the Administration consider allocating a portion of this $2.5 
billion to expand existing and very successful TRIO programs so that we 
can expand programs that actually work while at the same time seeking 
out new and innovative programs?
    A: The TRIO programs are designed to help improve college 
enrollment, retention, and completion rates, but do not provide a 
complete solution. The College Access and Completion Fund, on the other 
hand, is more comprehensive. Through this program, we hope to stimulate 
strategic initiatives by States and consortia of higher education 
institutions to systemically increase college access and completion 
rates far beyond current outcomes. In addition, there are a number of 
demonstrated and promising strategies developed by non-profits that 
should be considered for expansion in order to increase college access 
and completion rates.
    2. One issue that arises from the President's budget proposal is 
that currently foreign schools are only eligible for the FFEL Program. 
Will the President's legislative proposal ensure that foreign schools 
also be made eligible for the Direct Loan Program and that appropriate 
steps are taken to ensure that they are able to participate on behalf 
of their American students?
    A: Section 211 of HR 3221 makes students and parents of students 
attending institutions located outside the United States eligible for 
the Direct Loan Program.

Rep. Courtney
    1. Does ARRA require states to adopt their 2010 budgets before 
becoming eligible to receive funding?
    A: No, a State does not have to adopt a 2010 budget to receive 
funding under the State Fiscal Stabilization Fund (SFSF) program. In 
the Application for Initial Funding under the SFSF program, the 
Department indicated that a State could provide projected levels of 
State support for elementary and secondary education and public 
institutions of higher education. The Department further noted that the 
projected levels could be based on such data as the Governor's budget 
request or preliminary budget or appropriations legislation.
    2. In your testimony you stated that states that show progress in 
meeting the goals (``the four pillars'') of the SFSF will be able to 
qualify for the Race to the Top funding. Is it correct to assume that 
states who are dilatory in applying for SFSF and demonstrating 
compliance with SFSF's goals will suffer in the competitive grant 
process set forth in Race to the Top?
    A: The Race to the Top's Final Notice/Invitation for Applications 
includes two eligibility requirements, one of which is that a State's 
application for funding under Phase 1 and Phase 2 of the SFSF must be 
approved by the Department prior to the State being awarded a Race to 
the Top grant. The Final Notice also includes an Absolute Priority 
(meaning that an application must meet this priority to receive funds) 
for applications that comprehensively and coherently address all of the 
four education reform areas specified in the ARRA as well as the State 
Success Factors Criteria in order to demonstrate that the State and its 
participating LEAs are taking a systemic approach to education reform. 
The State must demonstrate in its application sufficient LEA 
participation and commitment to successfully implement and achieve the 
goals in its plans; and it must describe how the State, in 
collaboration with its participating LEAs, will use Race to the Top and 
other funds to increase student achievement, decrease the achievement 
gaps across student subgroups, and increase the rates at which students 
graduate from high school prepared for college and careers.
    3. Can SFSF be used to supplant state fiscal year 2009 expenditures 
within the state budget?
    A: While there is nothing in the statute specifically prohibiting a 
State from using SFSF funds to supplant State expenditures, we believe 
that just as the Federal Government has taken serious steps to help 
save jobs and drive reforms, each State has an obligation to abide by 
the spirit of the law and play its part in spurring today's economy and 
protecting our children's education. We expect that States, local 
school districts, and colleges and universities will use Stabilization 
funds to avert layoffs and cuts to essential public services, and 
implement the education reforms highlighted in the ARRA. The funds 
should not be used to reduce State support for elementary, secondary, 
and postsecondary education. In addition, a State must maintain State 
support for elementary and secondary education and public institutions 
of higher education in each of fiscal years (FYs) 2009, 2010, 2011, at 
least at the level that the State provided in FY 2006.
    4. Is there a way a state can account for state fiscal 
stabilization funds as non-federal funds? If so, how can a state apply 
for permission to do that? It appears that this is possible under 
section 14012 (d) of the ARRA.
    A: The statute does provide the Department with the authority to 
give prior approval to enable a State to treat Stabilization funds that 
are used for elementary, secondary, or postsecondary education as non-
Federal funds for the purpose of any requirement to maintain fiscal 
effort under any other program that the Department administers. To 
receive such approval, however, a State first must demonstrate that it 
has not disproportionately reduced support for education. If a State 
did reduce the proportion of total State revenues spent on education, 
we will consider whether there were any exceptional or uncontrollable 
circumstances contributing to the year-to-year decreases, the extent of 
the decline in available financial resources, and any changes in demand 
for services. In addition, the State must be able to demonstrate that 
the portion of its Stabilization funds that it seeks to treat as non-
Federal funds to meet the MOE requirements of other Federal programs 
was spent in such a manner that had the Stabilization funds been non-
Federal funds, the Stabilization funds would have been permitted to be 
used in determining the State's or LEA's compliance with the MOE 
requirement of that other program. We also want to note that the 
receipt of such approval does not reduce the level of effort required 
by the State in the following fiscal year.
    5. Does the ARRA allow use of state fiscal stabilization funds to 
supplant current education expenditures at the local level to achieve 
the Maintenance of Effort for additional Title I and IDEA funds? If so, 
how can localities apply for permission to do so?
    A: As with States, a local educational agency (LEA) may, with prior 
approval, treat Stabilization funds as non-Federal funds for the 
purpose of any requirement to maintain fiscal effort under any other 
program that the Department administers. Also, as with States, we will 
be concerned if an LEA reduces the proportion of total revenues that 
are spent on education, and will take that into consideration in 
deciding whether to allow a State or LEA to treat Stabilization funds 
as non-Federal funds for MOE purposes of other Federal programs.

Rep. Grijalva
    1. Given that Latino students are a significant and rapidly growing 
segment of the student population, are there plans to make a stronger 
effort to appoint Latinos and Latinas to positions in the Department of 
Education?
    A: The Department and the Administration are committed to promoting 
a workforce with diverse backgrounds and we recognize the need for 
senior staff to understand the issues facing the growing Latino student 
population.
    2. After seeing the Recovery Act and the President's FY10 budget, 
the Hispanic community has been concerned that the new administration 
has not prioritized English language learners, or the Latino student 
population. How does the President's education agenda specifically plan 
on addressing the needs of Latino and ELL students?
    A: In addition to Title III of the ESEA, which is the major 
elementary and secondary education program for ELL students, the budget 
provides significant increases in school improvement grants and a high 
school graduation initiative. Both of these proposals aim to assist in 
turning around low-performing schools. Many of the schools targeted by 
these funds are schools that low-income and Latino students attend. 
Using these funds and working with States, school districts, 
communities and parents, we can make a difference for Latino students. 
The Department's Office for Civil Rights also will vigorously enforce 
long-standing policy under Title VI of the Civil Rights Act of 1964 to 
ensure that limited English proficient children receive equal 
educational opportunities. The budget also provides significant 
increases for the High School Equivalency Program, the College 
Assistance Migrant Program, the English Literacy and Civics Education 
program, and the Adult Education State Grants program, all of which 
serve Latino and ELL populations.
    3. The President's budget proposed to eliminate the Even Start 
Family Literacy program. If funding for this program is eliminated, 
this will affect 59,000 parents and children struggling with illiteracy 
and poverty, more than half (53%) of whom are Latino. How will the 
President's education agenda ensure that families, particularly Latino 
families who have low literacy levels, have access to essential 
services, like those provided by the Even Start program? (GED, ESL 
classes for adults and early learning programs for young children)
    A: The Administration is committed to funding high-quality services 
for limited English proficient children and their parents, and has 
demonstrated this commitment throughout the budget. For example, the 
Administration believes that children need and deserve exposure to 
English language and literacy-rich environments prior to entering 
kindergarten and has requested almost $1 billion for early childhood 
programs at the Department of Education. That request includes $500 
million for the new Title I Early Childhood Grants and $162.5 million 
for Early Reading First, in addition to over $7.2 billion in funding 
for Head Start at the Department of Health and Human Services. The 
Administration greatly appreciates the inclusion of the $8 billion for 
the Early Learning Challenge Fund in HR 3221, which along with of these 
other large investments in early childhood programs will benefit Latino 
children. In addition, the Administration requested $730 million for 
the English Language Acquisition State Grants program to support the 
Department's commitment to supporting the needs of children and youth 
who are English language learners. Further, the Department has 
requested over $628 million for Adult Basic and Literacy Education 
State Grants, a $74 million increase, to support English literacy, 
adult basic education, and family literacy services, and a $2.5 million 
increase for the HEP and CAMP programs.
    We believe that Latino and other families deserve higher-quality 
services that will help them to develop the skills they need to be 
successful. Based on the results of three national evaluations, we 
believe that Even Start is not delivering those results. The most 
recent evaluation concluded that, while Even Start participants made 
small gains, they did not perform better than the comparison group that 
did not receive Even Start services. As a result, the Administration 
has chosen to direct the resources to other efforts that would better 
address the needs of children and families.
    4. The President has proposed State Early Learning Challenge Grants 
to improve the quality of early care and education systems, as a major 
part of his education platform. Less than half, or 43%, of Hispanic 
children ages zero-to-three attend a center-based early care and 
education (ECE) program, compared to 66% of Black children and 59% of 
White children. How will these grants be structured to ensure that 1) 
Latino students have more access to these programs, and 2) be designed 
to meet the unique needs of young English language learners and their 
families?
    A: We will ensure that the needs of all students including Latinos 
and other English Language Learners are addressed in the implementation 
of the Early Learning Challenge Fund. We look forward to working with 
Congress on any input you or others may have.
    5. Latinos are the fastest-growing segment of the U.S. student 
population and represent the future of the U.S. workforce. The passage 
of the ``DREAM Act'' will increase educational attainment among Latinos 
in the United States, affording them adequate preparation for work. In 
turn, the nation's economy will thrive. Is the ``DREAM Act'' an 
immediate priority for the new administration?
    A: The Administration supports the DREAM Act.
    6. Farm worker, migrant, and seasonal worker students are some of 
the most disadvantaged and at-risk students in the country. They have 
one of the highest dropout rates and encounter tremendous obstacles in 
completing high school and pursuing higher education. The High School 
Equivalency Program (HEP) and the College Assistance Migrant Program 
(CAMP) have been successful in helping to close the access and 
completion gaps for many low-income, minority farm worker migrant and 
seasonal worker students. After years of level funding and the loss of 
20 HEP/CAMP programs since 2004, I was pleased that the President 
proposed a $2.5 million increase for the HEP/CAMP program from $34.16 
million in FY 2009 to $36.61 million for FY 2010. The Higher Education 
Opportunity Act (HEOA) recognized the importance of the HEP/CAMP 
program by increasing its authorization level $75 million. Can we 
expect the Administration's continued support of the HEP/CAMP program 
in the form of increased funding proposals in the future?
    A: We were very pleased to request an increase for the High School 
Equivalency (HEP) and College Assistance Migrant Program (CAMP). We 
agree that these programs provide important support for helping 
individuals from migrant populations to receive their GED credential 
and to complete their first year of postsecondary education, and we 
will consider their needs as we set priorities for our future budget 
requests.
    The Administration's fiscal year 2010 budget request also provided 
$905 million for Federal TRIO programs and $628 million for Adult 
Education State grants, an increase of $74 million for that program, to 
help these populations.
    7. The President has also proposed a drop-out prevention initiative 
that promises innovation and targets those schools with the highest 
drop-out rates. How is this initiative different from the Bush 
Administration's drop-out prevention initiative under NCLB? What role 
will community-based organizations have in this initiative?
    A: The proposed High School Graduation Initiative would provide 
assistance to help schools implement comprehensive efforts to increase 
high school graduation rates. The program would award 5-year grants to 
local educational agencies (LEAs) that propose comprehensive approaches 
that focus on at least a cluster of 3 to 5 schools and address the 
obstacles that impede students' ability to graduate. LEAs would 
implement plans that reflect community-based needs assessments and 
include a plan for ensuring program sustainability. Grantee plans would 
also identify how many students will likely need additional support to 
graduate, how many dropouts leave school a few versus many credits shy 
of graduation, and how many students graduate unprepared for success in 
college or the workforce. Activities carried out with grant funds might 
include monitoring early warning indicators that a student is at risk 
of dropping out. Such early warning systems might: (1) focus on the 
needs of students transitioning from middle school to high school; (2) 
use identifiers such as low attendance rates, entering ninth grade with 
achievement scores more than three years behind in a core subject area, 
failing one or more core courses during middle school or ninth grade, 
repeating ninth grade, or being over-age and under-credited during 
ninth or tenth grade; and (3) begin before middle school. Early warning 
systems would seek to effectively identify those students at risk of 
not graduating on time and would provide schools and LEAs with the 
information necessary to target interventions of the type and level 
necessary to support students' on-time graduation. Comprehensive 
prevention and reentry plans might include, among other things: (1) a 
focus on the needs of students transitioning from middle to high 
school, (2) alternative scheduling options, (3) alternative programs 
that address both stable (e.g., family income, neighborhood) and 
alterable (e.g., attendance, motivation, grade level) characteristics, 
(4) partnerships with community organizations to provide support 
services, and (5) small learning communities. Comprehensive plans for 
over-age, under-credited, or reentry students might also, among other 
things, eliminate seat requirements, provide competency- or 
proficiency-based credits mapped against State graduation requirements, 
and allow for accelerated learning opportunities. This approach, which 
requires a comprehensive and coordinated community strategy, also 
allows considerable local flexibility and reflects the complexity of 
the dropout problem, for which there is no ``silver-bullet'' solution. 
We expect that community-based organizations will play an important 
role in all of the projects funded by the proposed High School 
Graduation Initiative.
    8. No plan to address the high school dropout crisis will be 
effective without an adequate middle grade intervention to aid the most 
troubled feeder middle schools and elementary schools of the most 
troubled high schools. In what way will the high school reform 
proposals include the middle grades?
    A: Struggling schools, including middle schools, have had 
difficulty turning around in large part because of a lack of resources. 
The Department's proposal to provide $1.5 billion for School 
Improvement Grants (a $1 billion increase from last year)--as well as 
the $3 billion for such grants in the Recovery Act--will help those 
schools move past simply being labeled as needing improvement and 
provide them with the resources they need to implement effective 
reforms and raise student achievement. LEAs should also have the 
flexibility to direct limited funds and other assistance to their 
schools that have the most need and would most benefit from turn-around 
efforts. Specifically, the Department's FY 2010 budget would focus 40 
percent of the FY 2010 School Improvement Grants on dropout factories 
and their feeder middle schools, which will focus funds more precisely 
on the schools with the greatest need.
    9. I am concerned about the problem of bullying faced by students, 
including lesbian, gay, bisexual and transgender students in the 
country. What action is the Department of Education taking to address 
bullying in the nation's schools?
    A: We share your concern about the potentially terrible impact of 
bullying and harassing behavior on students, whether or not the 
behavior focuses on sexual orientation, gender, gender identity, 
religion, race, ethnicity, language background, or any of the other 
issues that bullies use to intimidate their targets. Bullying and 
harassment prevent young people from focusing on their studies and 
thereby disrupt the learning process; as such, they are an education 
issue of the highest priority for our Administration. We believe that 
schools must provide safe, disciplined, and nurturing environments for 
all of their students and establish school climates that are conducive 
to learning and healthy youth development.
    A new initiative concerning school culture and climate included in 
the President's fiscal year (FY) 2010 budget request would be designed 
to support efforts to address problems related to disruption and 
disorder in schools, as well as to assist schools that are experiencing 
serious violent and criminal behavior. The budget requests $100 million 
in FY 2010 for new grants to encourage the use of research-based 
interventions as well as the involvement of partners from the 
community, including representatives from law enforcement, juvenile 
justice, and public mental health systems that also frequently interact 
with troubled students. We expect that applicants would propose 
strategies to reduce bullying and harassing behaviors, as well as to 
provide needed supports for victims, as well as bullies, that can then 
be used as models for other districts.
    We look forward to the opportunity to develop and implement this 
new initiative, but also want to share information with you about other 
relevant activities. For example, some existing Department of Education 
programs, such as the Safe Schools/Healthy Students initiative 
(implemented in conjunction with the Departments of Health and Human 
Services (HHS) and Justice), also provide for bullying prevention 
efforts in schools and communities. We have also provided support for 
the development and implementation of an anti-bullying initiative 
sponsored by the Health Resources and Services Administration (HRSA), 
part of HHS. The initiative includes the development of materials and 
technical assistance for children and adult audiences, and includes 
some materials that specifically address bullying and harassment of 
lesbian gay, bisexual and transgender youth. Information about the 
``Stop Bullying Now'' campaign has been broadly disseminated and is 
available online at: http://www.stopbullyingnow.hrsa.gov/kids/.
    The Department's Office for Civil Rights also plays an important 
role in combating bullying and sexual harassment through its 
enforcement of Title IX of the Education Amendments of 1972 (Title IX). 
Since Title IX protects a person from sex discrimination, both male and 
female students are protected from sexual harassment engaged in by a 
school's employees, other students, or third parties. Although Title IX 
does not prohibit discrimination on the basis of sexual orientation, it 
protects gay and lesbian students from sexual harassment as it does all 
other students. As part of the Department's enforcement of Title IX, we 
will provide guidance and technical assistance to ensure that districts 
and postsecondary institutions understand their responsibilities to 
prevent and end sex-based harassment regardless of the real or 
perceived sexual orientation of the victim.
    While many students who are the victims of bullying and harassing 
behavior are able to continue to function in spite of the pain 
inflicted by bullies, in some cases the intensity of the harassment, 
lack of family or other support, or fragility of a student can result 
in the kind of tragedies identified in your question. Schools also play 
an important role in preventing adolescent suicides. Our colleagues at 
the Substance Abuse and Mental Health Services Administration (SAMHSA), 
part of HHS, are implementing a variety of activities designed to 
assist schools and communities in understanding and preventing this 
tragic behavior, including operating a technical assistance center that 
develops training and technical assistance materials and activities 
that focus on the most up-to-date information about effective suicide 
prevention efforts. Details about these efforts and the valuable 
services that are providing to help reduce the incidence of youth 
suicide are available online at: http://www.sprc.org/about--sprc/
about--site.asp.

Rep. Hare
    1. In the Administration's education budget proposal, there seems 
to be a policy shift away from formula grants (cuts to Title I, Part A 
and Education Technology and the elimination of Safe and Drug Free 
Schools State grants) to competitive grants (new Title I Early 
Childhood Grants, the High School Graduation Initiative, new monies for 
national programs under Safe and Drug Free Schools). I am afraid that 
this shift will represent a loss of funding to rural school districts 
that do not have the resources to apply for competitive grants. What 
steps is your department going to take to ensure that rural school 
districts are equitably funded, especially under the President's new 
proposals?
    A: We do not anticipate that the proposed funding shifts would have 
a negative impact on rural districts. In the past, under our large 
competitive grant programs, we have typically seen a fairly equitable 
distribution in the mix of urban, suburban, and rural grantees. In 
response to concerns such as yours, we have analyzed the mix of 
recipients and haven't found that rural districts are disadvantaged.
    We will continue to work with Congress and the States to ensure 
that all types of LEAs have an equitable opportunity to receive support 
under the President's initiatives.
    2. As a policy, Congress targets dollars under Title I to 
concentrations of poverty under the argument that it is harder to serve 
large groups of poor students. However, under the Title I funding 
formula, we define concentrations of poverty as percentages or numbers, 
whichever is higher. This results in larger less poor school districts 
getting more money per poor child then smaller, higher-poverty school 
districts. What recommendations would you make to instill a greater 
sense of equity when funding children in poverty?
    A: The Secretary is in the midst of a listening and learning tour 
to seek input and begin framing issues for the upcoming reauthorization 
of the Elementary and Secondary Education Act (ESEA), but we are not 
yet ready to make specific recommendations on changes to ESEA. We look 
forward to working with Congress on that effort.
    3. Mr. Secretary, soon I will reintroduce the Positive Behavior for 
Effective Schools Act, which opens up federal resources to school 
districts that want to establish or expand the use of PBIS (Positive 
Behavior Interventions and Supports) and provides teachers with 
training to effectively manage classrooms using PBIS strategies. As you 
may know, President Obama introduced this same bill in the Senate. Do 
you support this legislation and if so, is the administration committed 
to making this a priority?
    A: Positive Behavior Interventions and Supports (PBIS) is an 
important preventative approach that can increase the capacity of the 
school staff to support children with the most complex behavioral 
needs, thus reducing the instances that require intensive 
interventions. We share your support for strategies that assist 
teachers to effectively manage their classrooms. These strategies 
provide an opportunity for teachers and students to concentrate on 
learning and not to be distracted by frequent conduct and behavior 
problems, and also often help identify individual teachers who need to 
improve their classroom management skills as well as individual 
students who may require learning supports more significant than those 
can be readily provided in the classroom.
    We encourage schools to think comprehensively about the kinds of 
strategies that they need to implement in order to establish safe and 
nurturing learning environments for all students. A new initiative 
concerning school culture and climate included in the President's 
fiscal year (FY) 2010 budget request is designed to support those kinds 
of comprehensive efforts to address problems related to significant 
levels of disruption and disorder in schools, as well as to assist 
schools that are experiencing serious violent and criminal behavior. 
The budget requests $100 million in FY 2010 for new grants to school 
districts experiencing the most significant problems. The program will 
encourage the use of research-based interventions as well as the 
involvement of partners from the community, including representatives 
from law enforcement, juvenile justice, and public mental health 
systems that also frequently interact with troubled students. We expect 
that applicants will propose strategies to improve student behavior, 
including classroom management strategies for teachers, as well as a 
broader range of interventions designed to improve school climate and 
culture. The Department also funds the Center on Positive Behavioral 
Interventions and Supports.

Rep. Hirono
    1. According to 2006 data, there are three dropout factories in my 
district and five total in the state of Hawaii. I share your concern 
about low performing schools and want to know how best to help them. I 
recognize that dropout factories are not just a high school problem, as 
there are other factors in the elementary and middle school years 
affecting what happens to students in high school. When states submit 
applications for ARRA grants, including for State Fiscal Stabilization 
Funds and Race to the Top funds, how does the Department of Education 
plan to evaluate state applications with respect to dropout factories? 
How specific will your actions be in pushing states to address the 
problem of dropout factories?
    A: The President and the Department are committed to increasing the 
number of students who graduate from high school prepared for the 
challenges of work and postsecondary education. To support that goal, 
the Administration has requested in its fiscal year 2010 budget request 
$50 million for a High School Graduation Initiative. The Initiative 
would support innovative efforts to drive better high school graduation 
rates through prevention and reentry systems for students at risk of 
not graduating. In addition, the ARRA provided $3 billion for School 
Improvement Grants. The final requirements for School Improvement 
Grants emphasize the use of these funds in a State's persistently 
lowest-achieving schools, to ensure that limited Federal funds go to 
the schools in which they are most needed. The definition of 
persistently lowest-achieving schools includes high schools with 
graduation rates below 60 percent over a number of years.
    States are not required to address specifically ``dropout 
factories'' in their applications for funding under the State Fiscal 
Stabilization Fund program. However, States will be required to 
publicly identify their lowest performing Title I eligible high schools 
and assure that it will take steps to, among other things, provide 
targeted, intensive support and effective interventions to turn around 
schools identified for corrective action and restructuring.
    With regard to the Race to the Top program, the application 
includes an Absolute Priority (meaning that an application must meet 
this priority to receive funds) for applications that comprehensively 
and coherently address all of the four education reform areas specified 
in the ARRA as well as the State Success Factors Criteria in order to 
demonstrate that the State and its participating LEAs are taking a 
systemic approach to education reform. The State must demonstrate in 
its application sufficient LEA participation and commitment to 
successfully implement and achieve the goals in its plans; and it must 
describe how the State, in collaboration with its participating LEAs, 
will use Race to the Top and other funds to increase student 
achievement, decrease the achievement gaps across student subgroups, 
and increase the rates at which students graduate from high school 
prepared for college and careers. Under Race to the Top, a State will 
earn points for the extent to which it has demonstrated its ability to 
increase high school graduation rates, as well as for the extent to 
which it has the authority to intervene directly in the persistently 
lowest-achieving schools (which include high schools with graduation 
rates of less than 60 percent) and for the extent to which its 
application includes a high-quality plan to identify such schools and 
support LEAs in turning them around by implementing one of four school 
intervention models.
    2. There are critical times in a child's development when positive 
intervention makes a real difference. We know that one of these times 
where resources matter is the preschool years. I have a bill, the PRE-K 
Act (H.R. 702) that would create a grant program to support states' 
efforts in providing high quality early education. What, in your view, 
are the other critical years when attention and resources would make a 
difference? Do the President's programmatic and funding requests 
reflect this approach of investing in the critical points in a child's 
development?
    A: The Administration believes that each year of a child's life, 
including birth through age five, is crucial to their success in school 
and beyond. The Administration outlined five pillars for reforming our 
education system that are guiding both the implementation of the 
American Recovery and Reinvestment Act and the President's fiscal year 
2010 budget request for the Department of Education. The first pillar 
is investing in early childhood education and expanding access to 
quality childcare. The second is challenging States to adopt world-
class college- and career-ready academic standards and assessments. The 
third is to recruit, prepare, and reward effective teachers. The fourth 
is promoting innovation and excellence in America's schools by 
expanding charter schools, extending learning time, and turning around 
low-performing schools. The fifth is increasing the number of people 
pursuing higher education and earning a postsecondary degree or 
certificate. These pillars reflect that the Administration is committed 
to supporting our children and youth beginning at birth and continuing 
through adulthood.
    In the FY 2010 budget, the Administration proposed the following 
new investments that would support our youngest children (from birth 
through age 5):
    <bullet> $500 million for a new Title I Early Childhood Grants 
program to help jump-start expanded investment of ESEA Title I, Part A 
funds in early childhood education.
    <bullet> $300 million for a new Early Learning Challenge Fund that 
would provide competitive grants to States to develop and/or refine 
their statewide early learning systems for children from birth through 
age five.
    <bullet> $10 million for the Promise Neighborhoods initiative to 
provide 1-year planning grants to non-profit, community-based 
organizations to develop plans for comprehensive neighborhood programs 
that provide the necessary support for children and youth from birth 
through college so that they may succeed in school and beyond.
    <bullet> $162.5 million for Early Reading First, an increase of $50 
million to expand support for high-quality, research-based early 
literacy services for preschool children.
    The Administration also greatly appreciates the $8 billion in HR 
3221 for the Early Learning Challenge Fund.

Rep. Holt
    1. Under the ARRA you have a $4.35 billion Race to the Top Fund, 
what plans do you have to use that fund to improve STEM and foreign 
language education?
    A: States that include in their Race to the Top application a high-
quality plan to emphasize science, technology, engineering and 
mathematics (STEM) education will receive a competitive preference. The 
Race to the Top application also provides for an Invitational Priority 
for applications in which the State's participating LEAs seek to create 
the conditions for reform and innovation as well as the conditions for 
learning by providing schools with flexibility and autonomy in various 
areas, including implementing new structures and formats for the school 
day or year that result in increased learning time in core academic 
subjects, including foreign languages. The Final Notice/Invitation for 
Applications on Race to the Top can be found at http://www.ed.gov/
programs/racetothetop/final-priorities.pdf, and an executive summary 
can be found at http://www.ed.gov/programs/racetothetop/executive-
summary.pdf.
    2. While science is being tested, only reading and mathematics 
assessments are currently counted in AYP. What are your views on the 
inclusion of science in AYP?
    A: We are still in the process of getting feedback from a multitude 
of stakeholders regarding the ESEA reauthorization. The Secretary is in 
the middle of a listening and learning tour to gain input from 
students, teachers, principals, administrators, parents, and others who 
are at the ground level about what needs to be done to reform our 
education system. We recognize the importance of standards in science, 
but how we can best implement them is still being discussed and 
considered.
    3. Given your statement that ``science education is central to our 
broad effort to restore American leadership in Education worldwide'' 
will you work to increase funding for the Mathematics and Science 
partnerships program and restore it to its pre NCLB funding levels?
    A: The Mathematics and Science Partnerships program was first 
funded in 2002 at $12.5 million. It has been funded at $179 million 
since 2008. We believe that this is an appropriate level of funding for 
the program in FY 2010 to continue to help prepare American students to 
compete in the global, high-tech economy.
    4. The reauthorization of the Higher Education Act established a 
Deputy Assistant Secretary for International and Foreign Language 
Education, will you elevate this to a full Assistant Secretary position 
under the authority you have?
    A: As you know, Andre Lewis has been appointed as the Deputy 
Assistant Secretary for International and Foreign Language Education. 
The Administration is committed to ensuring that students are prepared 
to compete in the global economy and participate in the international 
community. The Department is currently undertaking a review of all 
Department programs related to foreign languages and international 
issues and projects.
    Once that review has been completed, the Secretary will determine 
whether any reorganization or personnel changes are needed.
    5. What plans do you have to improve foreign language instruction 
in elementary schools, and what foreign language reforms would you want 
to see included in ESEA reauthorization?
    A: Increasing the number of elementary school students learning 
foreign languages is critical to our international competitiveness. A 
2002 survey of large U.S. corporations found that nearly 30 percent 
failed to fully exploit international business opportunities due to a 
lack of employees with foreign language skills. Also, data from the 
National Security Education Program and the American Council of 
Teachers of Russian show that the median speaking proficiency of 
American college graduates, before study abroad, in five languages 
critical to national security (Arabic, Chinese, Japanese, Korean and 
Russian) is 1 on a scale of 5. As Superintendent of the Chicago Public 
Schools, the Secretary included $1 million in the fiscal year 2009 
budget to expand the teaching of Arabic, Chinese and Russian to 
kindergarten through high school students. The Department of 
Education's fiscal year 2010 budget request of $26.3 million for the 
Foreign Language Assistance program would maintain the previous year's 
increase for grants to LEAs, States, and partnerships of LEAs and 
institutions of higher education to increase the quality and quantity 
of foreign language instruction in the United States. We would be 
pleased to work with you and other members of the Committee during the 
reauthorization of the Elementary and Secondary Education Act on this 
issue.

Rep. McCarthy
    1. What is going to be the new name for the No Child Left Behind 
Law?
    A: As you may know, the Secretary is in the middle of a Listening 
and Learning Tour, and has been seeking input for the upcoming 
reauthorization of the Elementary and Secondary Education Act (ESEA), 
and is open to suggestions.
    2. Why does the department think it is a good idea to zero out the 
State grants for Safe and Drug Free Schools (SDFS) and transfer a 
portion of that funding to the national programs?
    A: The overall purpose of the SDFSC programs is an important one. 
However, the SDFSC State Grant program has not been shown to be 
effective, does not adequately target schools most needing help, and 
generally spreads funds too thinly at the local level to support 
quality interventions.
    By comparison, SDFSC National Programs does not have these design 
flaws and limitations and is better structured to support targeted, 
high-quality interventions. Accordingly, the Administration proposes to 
redirect $100 million from the SDFSC State Grant program to SDFSC 
National Programs in order to fund direct grants to local educational 
agencies (LEAs), or to other organizations in partnership with LEAs, to 
support new approaches to assisting schools in fostering a safe and 
drug-free learning environment, particularly by using approaches 
designed to change school culture and climate and thereby improve 
character and discipline and reduce drug use, crime, and violence. The 
President's 2010 budget also includes an additional $183.6 million for 
SDFSC National Programs, most of which is for direct grant assistance 
to LEAs for drug and violence prevention or for emergency preparedness 
activities.
    3. If the Department believes that the SDFS state grant program is 
indeed ineffective and the SDFS National Programs are considered 
effective, why would the Administration not transfer all of the $295 
million currently in the SDFS state grant budget to National Programs 
instead of creating a net reduction of $184 million dollar for school 
safety?
    A: The President's 2010 budget provides significant resources to 
school districts to support these efforts through national programs. 
Equally important, in addition to providing direct support to LEAs for 
school safety and drug and violence prevention projects in sufficient 
amounts to make a real difference for students at the local level, most 
funds requested for SDFSC National Programs would support projects that 
are structured in a manner that permits grantees and independent 
evaluators to measure progress and add to the knowledge base on program 
effectiveness and best practices, which ultimately can serve to benefit 
all school districts.
    4. We have seen funding drop from $650 million for SDFS at the time 
of the Colombine shootings and to the current $295 million over the 
past decade. Furthermore, we do not have accurate data on incidents 
that occur in schools and that the only national data we have on school 
violence comes from the surveys found in the indicators report. Without 
good information we cannot help schools that need it the most. That is 
why I have introduced the SAVE Act. What are the Department's long-term 
plans for keeping our students safe?
    A: We envision a Federal role that incorporates several components. 
First, we think that we should support activities including research, 
evaluation, and data collection that are national in scope or otherwise 
unlikely to be supported by States and localities. These kinds of 
activities form the basis for an improved understanding of the 
challenges involved in creating safe and healthy learning environments, 
as well as for developing and refining our knowledge about the most 
effective approaches to meeting these challenges. Our sustained support 
for two significant national data collections about school violence, 
and a rigorous evaluation of a middle school violence prevention 
intervention, is an example of these kinds of investments.
    We should also play a leadership role in developing or testing 
approaches and strategies designed to reduce youth violence, create 
school climates that support learning, and enhance the capacity of 
schools to prepare for and respond to the wide range of crisis 
situations that they may face. Support for these kinds of demonstration 
activities helps expand the quantity and quality of effective solutions 
for these problems, and maintains an appropriate focus on making the 
best possible investments with the limited resources that are 
available.
    We also carry out an important responsibility to disseminate widely 
and effectively information about data and results of research and 
evaluation activities to be sure school officials around the Nation 
have easy access to the most up-to-date information about how to 
develop and maintain safe and secure schools that support academic 
achievement and are prepared to respond to a variety of hazards and 
challenges.
    Finally, we must also be ready to provide support for direct 
services to those school districts that are experiencing the most 
severe and chronic problems in providing safe and secure learning 
environments. For a variety of reasons, many of which are outside of 
the immediate control of school officials, some districts experience 
unusually high levels of disruption and disorder, as well as violent 
and criminal activity. In these instances, we hope to focus our limited 
funding resources on sites with high-quality plans to address these 
problems.
    The new initiative concerning school culture and climate included 
in the President's fiscal year (FY) 2010 budget request represents this 
final prong of our strategy. The initiative is designed to support 
efforts to address problems related to significant levels of disruption 
and disorder in schools, as well as to assist schools that are 
experiencing serious violent and criminal behavior. The budget requests 
$100 million in FY 2010 for new grants to school districts experiencing 
the most significant problems. The program will encourage the use of 
research-based interventions as well as the involvement of partners 
from the community, including representatives from law enforcement, 
juvenile justice, and public mental health systems that also frequently 
interact with troubled students.
    5. In March 2007, I sent the Department a letter (attached hereto) 
outlining my concerns that the Office of Safe and Drug Free Schools has 
not been collecting and does not possess data as required under ESEA 
Section 4141 which reauthorized the Gun Free Schools Act (GFSA). 
Specifically, States are required to report to the Secretary a 
description of circumstances surrounding any expulsions including the 
name of the school concerned, the number of students expelled, and the 
type of firearms involved. We have an obligation to keep America's 
schools gun free. The goal of this measure was to remove firearms from 
all public schools in the United States by requiring schools districts 
receiving federal funds to adopt a gun-free school policy and expel for 
one year students who carry a gun to school. As lawmakers and concerned 
parents, in order to know whether the goals of the law are being met it 
is critical to have accurate and available data collected as required 
by the law. In November 2007, eight months after my letter was sent, I 
received a response from the Department (attached hereto). It said, in 
part, ``We acknowledge that a series of school shootings that have 
occurred during the past decade have heightened the public's concern 
about school safety and the presence of firearms and other weapons in 
schools. Based on the changing climate since the Department's initial 
implementation of GFSA reporting requirements, our review of the GFSA 
and your request, we will initiate the steps necessary to begin to 
collect information from States about the names of schools where a 
student was found to have brought a firearm from school.'' Can you 
please advise the status of these steps? Is the Department collecting 
this information? If yes, where might I find the information?
    A: We have begun to explore modifications in the data collection 
instrument and existing clearance for Gun-Free Schools Act information, 
but have encountered an additional issue that potentially affects our 
ability to collect and report information about the names of schools 
where students have been found to have brought a firearm to school. As 
you may know, the Federal Education Rights and Privacy Act (FERPA) 
regulations recently underwent significant revisions. The Department 
issued final regulations on December 9 that include revisions designed 
to help educational agencies and institutions better understand and 
administer FERPA's requirements and to make important changes related 
to school safety, access to education data for research and 
accountability, and safeguarding education records.
    At this time, we are determining how or if these revisions affect 
our ability to report data concerning the names of school where a 
student was found to have brought a firearm to school. Previously, the 
definition of ``personally identifiable information'' in the FERPA 
regulations included a reference to ``other information that would make 
the student's identity easily traceable''. That phrase was removed 
because it is ambiguous. Instead, the revised definition of the term 
``personally identifiable information'' in the final regulations 
includes ``other information that, alone or in combination, is linked 
or linkable to a specific student that would allow a reasonable person 
in the school community, who does not have personal knowledge of the 
relevant circumstances, to identify the student with reasonable 
certainty.'' In addition the revised definition prevents a school from 
disclosing information, even in redacted form, that is requested by a 
party if the school reasonably believes the party knows the identity of 
the student to whom the record relates. We believe that these changes 
will make it easier for affected educational agencies and institutions 
to determine whether information is personally identifiable, and, 
consequently, whether it may be released without consent.
    Until we are able to reach a determination about whether or not 
release of Gun-Free Schools Act data concerning the names of schools 
where students have been found to have brought a firearm to school 
could fall within the scope of the revised definition of personally 
identifiable information, we cannot make final decisions on the steps 
necessary to request data about school names. We continue to collect 
data about the number of expulsions and types of firearms as required 
by the Gun-Free Schools Act, as well as information about building type 
(elementary or secondary schools), the disability status of students 
expelled, and availability of continuing education services for 
students expelled under the Gun-Free Schools Act, but are also 
considering whether or not any of this data could be considered 
personally identifiable information.
    6. As you know, two middle school students--Carl Walker-Hoover of 
Springfield, MA and Jaheem Harrera of DeKalb County, GA--committed 
suicide within the past month and a half because of anti-gay bullying 
and harassment. What steps is the Education Department taking to 
provide states, local districts and schools with the guidance and 
resources they need to prevent this type of bullying and harassment, 
and to intervene when it occurs?
    A: We share your concern about the potentially terrible impact of 
bullying and harassing behavior on students, whether or not the 
behavior focuses on sexual orientation, gender, gender identity, 
religion, race, ethnicity, language background or any of the other 
issues that bullies use to intimidate their targets. Bullying and 
harassment prevent young people from focusing on their studies and 
thereby disrupt the learning process; as such, they are an education 
issue of the highest priority for our Administration. We believe that 
schools must provide safe, disciplined, and nurturing environments for 
all of their students and establish school climates that are conducive 
to learning and healthy youth development.
    A new initiative concerning school culture and climate included in 
the President's FY 2010 budget request is designed to support efforts 
to address problems related to disruption and disorder in schools, as 
well as to assist schools that are experiencing serious violent and 
criminal behavior. The budget requests $100 million in FY 2010 for new 
grants to encourage the use of research-based interventions as well as 
the involvement of partners from the community, including 
representatives from law enforcement, juvenile justice, and public 
mental health systems that also frequently interact with troubled 
students. We expect that applicants will propose strategies to reduce 
bullying and harassing behaviors, as well as to provide needed supports 
for victims, as well as bullies, that can then be used as models for 
other districts.
    We look forward to the opportunity to develop and implement this 
new initiative, but also want to share information with you about other 
relevant activities. For example, some existing Department of Education 
programs, such as the Safe Schools/Healthy Students initiative 
(implemented in conjunction with the Departments of Health and Human 
Services (HHS) and Justice), also provide for bullying prevention 
efforts in schools and communities. We have also provided support for 
the development and implementation of an anti-bullying initiative 
sponsored by the Health Resources and Services Administration (HRSA), 
part of HHS. The initiative includes the development of materials and 
technical assistance for children and adult audiences, and includes 
some materials that specifically address bullying and harassment of 
lesbian, gay, bisexual and transgender youth. Information about the 
``Stop Bullying Now'' campaign has been broadly disseminated and is 
available online at: http://www.stopbullyingnow.hrsa.gov/kids/.
    The Department's Office for Civil Rights also plays an important 
role in combating bullying and sexual harassment through its 
enforcement of Title IX of the Education Amendments of 1972 (Title IX). 
Since Title IX protects a ``person'' from sex discrimination, both male 
and female students are protected from sexual harassment engaged in by 
a school's employees, other students, or third parties. Although Title 
IX does not prohibit discrimination on the basis of sexual orientation, 
it protects gay and lesbian students from sexual harassment as it does 
all other students. As part of the Department's enforcement of Title 
IX, we will provide guidance and technical assistance to ensure that 
districts and postsecondary institutions understand their 
responsibilities to prevent and end sex-based harassment regardless of 
the real or perceived sexual orientation of the victim.
    While many students who are the victims of bullying and harassing 
behavior are able to continue to function in spite of the pain 
inflicted by bullies, in some cases the intensity of the harassment, 
lack of family or other support, or fragility of a student can result 
in the kind of tragedies identified in your question. Schools also play 
an important role in preventing adolescent suicides. Our colleagues at 
the Substance Abuse and Mental Health Services Administration (SAMHSA), 
part of HHS, are implementing a variety of activities designed to 
assist schools and communities in understanding and preventing this 
tragic behavior. For example, they operate a technical assistance 
center that develops training and technical assistance materials and 
activities that focus on the most up-to-date information about 
effective suicide prevention efforts. Details about these efforts and 
the valuable services that they are providing to help reduce the 
incidence of youth suicide are available online at: http://
www.sprc.org/about--sprc/about--site.asp.
    7. Mr. Secretary, I am concerned that Administration's budget 
eliminates funding for a program that has produced tremendous results 
for New York teachers, Ready to Teach. Ready to Teach funds VITAL, an 
initiative spearheaded by my local public television station, Thirteen/
WNET, that leverages public television's high-quality educational 
programming to create standards-aligned digital content for classroom 
use. Will you work with me to continue this successful partnership with 
public television stations and to increase their capacity to serve 
students and teachers nationwide?
    A: In his FY 2010 budget request, the President has proposed to 
replace the Ready to Teach program with a new activity under the Fund 
for the Improvement in Education program, the Digital Professional 
Development initiative. This activity will provide for some flexibility 
that does not exist in the current Ready to Teach authority, especially 
the flexibility to support early childhood activities and to permit a 
wide range of entities to apply for funding. The purpose of the new 
initiative is to develop and distribute innovative digital professional 
development for teachers, including early childhood personnel, in core 
curriculum areas, that aligns with and supports State academic content 
standards, as appropriate. The digital professional development will be 
available for distribution through the Internet, online portals, and 
other digital media platforms and will use learning modules, gaming, 
simulations, and other innovative technological applications to enhance 
the effectiveness and relevance of such content for teachers. The 
Department takes this action in order to expand the technological 
approaches that can be used to support effective professional 
development, to encourage the development of professional development 
for early childhood educators, and to promote sustainability through a 
wide range of partnerships including, but not limited to, public 
television stations. We look forward to working with you on these 
efforts.
    8. Would the Administration consider allocating a portion of the 
``$2.5 billion for a new five-year Access and Completion Incentive Fund 
to support innovative state efforts to help low-income students succeed 
and complete their college education,'' to expand existing and 
successful TRIO and Project GRAD programs so that we can expand 
programs that actually work while at the same time seeking out 
innovative programs?
    A: The President's FY 2010 budget maintains support for TRIO at 
$905 million. The College Access and Completion Fund will stimulate 
strategic initiatives by States and associations of higher education 
institutions throughout the country, to systemically increase college 
access and completion rates far beyond current outcomes. In addition, 
there are a number of demonstrated and promising strategies developed 
by non-profits that should be considered in order to increase college 
access and completion rates.

Rep. Payne
    1. Mr. Secretary, I am concerned that the Administration's budget 
eliminates funding for a program that has produced tremendous results 
for teachers nationwide, Ready to Teach. A current recipient of Ready 
to Teach funds is PBS TeacherLine. PBS TeacherLine has been the source 
of high-quality, online fully facilitated professional development 
since 2000, serving more than 55,000 educators across the United States 
in the past four years alone. With a recent focus on coaching and 
mentoring, PBS TeacherLine created Peer Connection, a field-tested, 
high-performance suite of collaboration and communication tools created 
to strengthen and streamline instructional coaches' work with the 
teachers they're supporting. This appears to be an innovative practice 
that should be encouraged by this administration. Can I get your 
commitment that you will take a closer look at this program and 
evaluate it on its merits and success?
    A: We appreciate your support for this program and certainly our 
intention is to evaluate all programs on their merits. In his FY 2010 
budget request, the President has proposed to replace the Ready to 
Teach program with a new activity under the Fund for the Improvement in 
Education program, the Digital Professional Development initiative. 
This activity will provide for some flexibility that does not exist in 
the current Ready to Teach statute, especially the flexibility to 
support early childhood activities and to permit a wide range of 
entities to apply for funding. The purpose of the new initiative is to 
develop and distribute innovative digital professional development for 
teachers, including early childhood personnel, in core curriculum 
areas, that aligns with and supports State academic content standards, 
as appropriate. The digital professional development will be available 
for distribution through the Internet, online portals, and other 
digital media platforms and will use learning modules, gaming, 
simulations, and other innovative technological applications to enhance 
the effectiveness and relevance of such professional development for 
teachers. The Department takes this action in order to expand the 
technological approaches that can be used to support effective 
professional development, to encourage the development of professional 
development for early childhood educators, and to promote 
sustainability through a wide range of partnerships including, but not 
limited to, public television stations.
    2. As you think about what is needed to help students succeed 
academically--particularly those living in poverty- what are some of 
the innovations that have been successful that you would like to 
advance nationally?
    A: We believe we must have dramatically higher State standards, and 
support common standards across States. To that end, the Administration 
has requested over $400 million to support the development of rigorous 
assessments linked to those standards. We have also called for State 
data systems that are able to track student achievement and teacher 
effectiveness so we are able to learn where students are successful and 
where further interventions are needed. Additionally, we have called 
for States to remove caps on charter schools and implement laws that 
enable high-quality growth in the charter school sector. Finally, we 
must improve teacher effectiveness and the equitable distribution of 
teachers; turn around low-performing schools through such means as 
restructuring, providing incentives to high-performing educators to 
work in those schools, and adding time to the school day and year; 
strengthen early learning preparation for college and careers; and use 
technology to improve teaching and student learning. More information 
on reform ideas that may significantly improve student academic success 
is available at http://www.ed.gov/policy/gen/leg/recovery/guidance/
uses.doc in a document produced by the Department.
    3. How important do you think ``added time'' or ``expanded learning 
time'' is to helping close the achievement gap?
    A: The Secretary has said that he fundamentally believes that our 
school day is too short, our school week is too short, and our school 
year is too short; that it doesn't matter how poor, how tough the 
family background, or what the socioeconomic challenges, where students 
have longer days, longer weeks, longer years--that's making a 
difference.
    4. Do you support flexibility in how federal dollars can be spent 
to meet the needs of struggling students? For example, using funds like 
those designed for Supplemental Education Services to support more 
comprehensive approach to add learning time for students?
    A: The Department is supportive of innovative approaches to 
ensuring student success, including extended learning time.
    5. How can federal dollars, such as those in the American Recovery 
and Reinvestment Act and in the President's Fiscal Year 2010 budget, be 
used to support expanded learning time?
    A: Federal education funds, including ARRA funds, can be used by 
LEAs and schools to expand learning time by extending the school day, 
school year, or both, to improve student achievement through increased 
time for core academic subjects. Title I funds for schoolwide and 
targeted assistance programs may be used as part of an overall strategy 
to improve student learning outcomes to increase time for structured 
teacher collaboration such as job-embedded teacher professional 
development and planning, and for classroom observation and coaching. 
Instructional strategies and initiatives for schoolwide Title I 
programs must be based on scientifically-based research to strengthen 
the core academic program and increase the quality and quantity of 
learning time. In addition, the FY 2010 budget request included $1.13 
billion for the 21st Century Community Learning Centers program, which 
is specifically focused on before- and after-school programs.

Rep. Polis
    1. Both you and the president have repeatedly called for federal 
investment in innovative programs with a proven track record of helping 
schools meet high standards and close the achievement gap. President 
Obama has called on states to lift caps on charter schools and reform 
their charter school rules so that excellent charter schools can be 
replicated. The President's budget includes a 24% increase for Charter 
School Grants, which is an important first step towards fulfilling his 
pledge to double funding for this program. However, the program's focus 
is on new schools rather than scaling up existing successful models to 
serve more students. What role will the replication and expansion of 
high-quality charter schools play in the Administrations' education 
reform agenda, and how do you envision such an investment taking place 
both prior to and as a part of No Child Left Behind reauthorization?
    A: Replication and expansion of high-quality charter schools will 
play a central role in the Administration's education reform agenda. 
The charter school program has provided over $2.2 billion in financial 
assistance to States since 1995 for the planning, program design, and 
initial implementation of charter schools, and the dissemination of 
information on charter schools. State educational agencies (SEAs) award 
these funds as subgrants to developers of charter schools who have 
applied for a charter. In addition, States may reserve up to 10 percent 
of their grant for dissemination sub-grants to spread lessons learned 
from high-quality charter schools with a demonstrated history of 
success to other public schools, including other public charter 
schools, about how to create, sustain, replicate and expand high-
quality, accountable schools. In support of the President's request to 
increase funding for this program to $268 million, the Department is 
seeking additional flexibility to reserve funds to make multiple awards 
to charter management organizations and other entities that can 
replicate and expand successful charter school models as part of a 
national dissemination plan. Our Administration supports rigorous 
accountability for all charter schools, and moving forward, will 
encourage higher quality processes for the review and approval of 
charter schools, as well as ways to shut down charter schools that are 
not serving students well.
    2. Under the Recovery Act, charter schools in some states are 
facing difficulties accessing the new funding. However, the 
Administration has made it clear that the fair and equal treatment of 
charter schools, which I am assuming is the case both with the recovery 
funds and other federal funding, will be a critical component of future 
ARRA funding. Could you discuss this issue--the role of how charters 
are treated under ARRA--in more detail? Will the Department hold states 
accountable for their treatment of charter schools during the second 
round of State Fiscal Stabilization Funding and the Race to the Top 
funds? How about federal funding in general in the long term longer?
    A: In applying for Race to the Top funds, a State will earn points 
for ensuring successful conditions for high-performing charter schools 
and other innovative schools, as measured by the extent to which the 
State has a charter school law that does not prohibit or effectively 
inhibit increasing the number of high-performing charter schools in the 
State; the State has laws, statutes, regulations or guidelines 
regarding how charter school authorizers approve, monitor, hold 
accountable, reauthorize, and close charter schools; the State's 
charter schools receive equitable funding compared to traditional 
public schools; the State provides charter schools with funding for 
facilities, assistance with facilities acquisition, access to public 
facilities, the ability to share in bonds and mill levies, or other 
supports, and the extent to which the State does not impose any 
facility-related requirements on charter schools that are stricter than 
those applied to traditional public schools; and the State enables LEAs 
to operate innovative, autonomous public schools other than charter 
schools. The Final Notice/Invitation for Applications for Race to the 
Top can be found at http://www.ed.gov/programs/racetothetop/final-
priorities.pdf and an executive summary can be found at http://
www.ed.gov/programs/racetothetop/executive-summary.pdf.
    State law determines whether a charter school is an LEA, or a 
school within an LEA. A charter school LEA must receive Stabilization 
funding on the same basis as other LEAs in the State. In addition, 
Section 5206 of the ESEA requires State educational agencies to take 
necessary measures to ensure that a newly opening or a significantly 
expanding charter school LEA receives Department of Education formula 
grant funds to which it is entitled within five months after opening or 
expanding even if the identity of the children in those LEAs needed to 
determine allocations may not be available at the time the charter 
school LEA opens or expands.
    3. Mr. Secretary, in April the nation grappled with the horrific 
suicides of two 11-year-old children, Carl Joseph Walker-Hoover in 
Massachusetts and Jaheem Herrera in Georgia both of whom had been 
relentlessly bullied and teased with anti-gay epithets. These deaths 
were needless and devastating to their families, friends and 
communities. This year, on the National Day of Silence you stated that 
``we must all acknowledge our collective role and responsibility in 
preventing student deaths and ensuring that our schools remain safe 
havens of learning.'' What action is the Department of Education taking 
to combat bullying and promote tolerance in our nation's schools?
    A: We share your concern about the potentially terrible impact of 
bullying and harassing behavior on students, whether or not the 
behavior focuses on sexual orientation, gender, gender identity, 
religion, race, ethnicity, language background, or any of the other 
issues that bullies use to intimidate their targets. Bullying and 
harassment prevent young people from focusing on their studies and 
thereby disrupt the learning process: as such, they are an education 
issue of the highest priority for our Administration. We believe that 
schools must provide safe, disciplined, and nurturing environments for 
all of their students and establish school climates that are conducive 
to learning and healthy youth development.
    A new initiative concerning school culture and climate included in 
the President's FY 2010 budget request is designed to support efforts 
to address problems related to disruption and disorder in schools, as 
well as to assist schools that are experiencing serious violent and 
criminal behavior. The budget requests $100 million in FY 2010 for new 
grants to encourage the use of research-based interventions as well as 
the involvement of partners from the community, including 
representatives from law enforcement, juvenile justice, and public 
mental health systems that also frequently interact with troubled 
students. We expect that applicants will propose strategies to reduce 
bullying and harassing behaviors, as well as to provide needed supports 
for victims, as well as bullies, that can then be used as models for 
other districts.
    We look forward to the opportunity to develop and implement this 
new initiative, but also want to share information with you about other 
relevant activities. For example, some existing Department of Education 
programs, such as the Safe Schools/Healthy Students initiative 
(implemented in conjunction with the Departments of Health and Human 
Services (HHS) and Justice), also provide for bullying prevention 
efforts in schools and communities. We have also provided support for 
the development and implementation of an anti-bullying initiative 
sponsored by the Health Resources and Services Administration (HRSA), 
part of HHS. The initiative includes the development of materials and 
technical assistance for children and adult audiences, and includes 
some materials that specifically address bullying and harassment of 
lesbian, gay, bisexual and transgender youth. Information about the 
``Stop Bullying Now'' campaign has been broadly disseminated and is 
available online at: http://www.stopbullyingnow.hrsa.gov/kids/.
    The Department's Office for Civil Rights also plays an important 
role in combating bullying and sexual harassment through its 
enforcement of Title IX of the Education Amendments of 1972 (Title IX). 
Since Title IX protects a ``person'' from sex discrimination, both male 
and female students are protected from sexual harassment engaged in by 
a school's employees, other students, or third parties. Although Title 
IX does not prohibit discrimination on the basis of sexual orientation, 
it protects gay and lesbian students from sexual harassment as it does 
all other students. As part of the Department's enforcement of Title 
IX, we will provide guidance and technical assistance to ensure that 
districts and postsecondary institutions understand their 
responsibilities to prevent and end sex-based harassment regardless of 
the real or perceived sexual orientation of the victim.
    While many students who are the victims of bullying and harassing 
behavior are able to continue to function in spite of the pain 
inflicted by bullies, in some cases the intensity of the harassment, 
lack of family or other support, or fragility of a student can result 
in the kind of tragedies identified in your question. Schools also play 
an important role in preventing adolescent suicides. Our colleagues at 
the Substance Abuse and Mental Health Services Administration (SAMHSA), 
part of HHS, are implementing a variety of activities designed to 
assist schools and communities in understanding and preventing this 
tragic behavior. For example SAMHSA also operates a technical 
assistance center that develops training and technical assistance 
materials and activities that focus on the most up-to-date information 
about effective suicide prevention efforts. Details about these efforts 
and the valuable services that are provided to help reduce the 
incidence of youth suicide are available online at: http://
www.sprc.org/about--sprc/about--site.asp.
    4. As the founder and superintendent of a charter school serving 
immigrant youth, I have seen firsthand how we waste talent and 
potential in this country by denying high school graduates the 
opportunity to pursue a college education because of their immigration 
status. These kids have been raised and educated in this country and 
are as American as anyone else, but for too long they have had their 
dreams shattered by an education system that ignores their good grades 
and hard work. Educational opportunity is a right, not a privilege, and 
access to higher education is the key to both individual success and 
our nation's economic growth and prosperity. Some try to describe the 
American DREAM Act as immigration policy, but I strongly believe that 
it's fundamentally an issue of educational opportunity. President Obama 
was a co-sponsor of this legislation both as a State and an U.S. 
Senator and during a visit to a school in my district a year ago he 
reiterated his support. Can you please share with us your views on this 
critical issue?
    A: The Administration supports the DREAM Act.
    5. According to the Census Bureau estimates, nearly 1 in 5 adults 
in the U.S. speaks a language other than English at home, and more than 
17 million speak English less than ``very well.'' While demand for 
English language instruction has dramatically increased, Federal 
funding for English Speakers of Other Languages (ESOL) programs has 
actually declined. A recent survey among 176 ESOL providers showed that 
57.4 percent maintained waiting lists, ranging from a few weeks to more 
than 3 years. Given the increased demand for adult ESOL programs, and 
the current economic crisis, an investment in adult education is needed 
now more than ever. What efforts will the Administration take to help 
address these issues, and help build and maintain a robust adult 
education, language, and literacy system in the U.S.?
    A: The President and the Department are committed to strengthening 
the adult education, language and literacy system. The Department 
recognizes that the need for programs and services in adult education 
and ESOL significantly exceeds the level of our resources and our 
ability to fully address the demand. According to the 2003 National 
Assessment of Adult Literacy (NAAL), over 30 million adults have 
``below basic literacy'' in English. Twelve million (44 percent) are 
non-native English speakers. In program year 2007-08, the Adult 
Education State Grant program served approximately 2.3 million adults, 
46 percent of whom were English language learners.
    The President's budget requests $628 million for the Adult 
Education State grants program for FY 2010, $74.1 million more than the 
FY 2009 level. The FY 2010 increase includes an increase in the set-
aside for English Literacy/Civics Education State Grants to $75 
million, a $7.1 million increase over the FY 2009 level.
    An essential component in developing this skilled workforce and 
addressing the needs of immigrant workers is providing job training in 
the English language. The Department continues to fund an Adult English 
Language Education Technical Assistance Network to support adult 
English language (EL) teachers by providing: (1) a national repository 
of research and research-based resources for adult EL educators across 
the Nation, and (2) targeted technical assistance to States in need of 
improving their EL professional development systems.
    Finally, to specifically address the transition needs of English 
language learners, the Department is working with its State partners to 
better understand how English language learners transition between 
language training classes and adult basic skills instruction. The 
Department is identifying and evaluating promising new practices and 
initiatives to determine if they are effective in improving the 
transition rate of English language learners into Adult Basic Education 
and Adult Secondary Education programs.

Rep. Davis
    1. Please share some specifics on what performance-based rewards 
will look through the Teacher Incentive Fund.
    A: Our FY 2010 budget request for the Teacher Incentive Fund (TIF) 
program builds on what we have learned from our first two cohorts of 
grantees. In the FY 2010 grant competition, the Department would place 
a priority on the support of comprehensive, aligned approaches that 
support improved teacher and principal effectiveness, help ensure an 
equitable distribution of effective educators, actively involve 
teachers and principals in the design of human capital and compensation 
systems, and use data from emerging State and local longitudinal data 
systems to track outcomes and associate those outcomes with educator 
performance. Grants would provide support for rewarding teachers for 
improving student academic achievement, encouraging highly qualified, 
effective teachers to enter classrooms with high concentrations of poor 
children, and developing and implementing performance-based teacher 
compensation systems.
    We expect that we will see grantees provide differentiated 
compensation for teachers and principals who can demonstrate that the 
students in their classes and schools performed at a higher level than 
comparable students. Grantees would make awards to individual teachers 
whose students demonstrate achievement gains or, alternatively, a 
grantee may choose to provide additional compensation to all teachers 
in a particular grade or subject area where students demonstrate 
significant gains in performance. Grantees also are likely to provide 
additional compensation to effective teachers who commit to serving in 
hard-to-staff schools. Grantees might also choose to provide additional 
compensation to educators who agree to mentor new teachers or take on 
other leadership responsibilities.
    The Administration has also requested appropriations language that 
would also allow FY 2010 grantees to use TIF funds to reward all staff 
in a school, as opposed to only teachers and principals.
    2. What are some of the obstacles to implementing performance-based 
rewards and how does the Department plan to overcome these obstacles?
    A: We believe there is significant support for performance pay 
systems that are developed and implemented with the participation of 
teachers and principals. Accordingly, the Administration has requested 
a significant increase in funding for the Teacher Incentive Fund (TIF). 
The Department would place a priority on the support of comprehensive, 
aligned approaches that support improved teacher and principal 
effectiveness and help ensure an equitable distribution of effective 
educators, that actively involve teachers (including special education 
teachers) and principals in the design of human capital and 
compensation systems, and that use data from emerging State and local 
longitudinal data systems to track outcomes and associate those 
outcomes with educator performance. The Administration is also 
requesting language that would permit support for performance-based 
compensation to all staff in a school.
    3. How will the performance pay rewards interact with No Child Left 
Behind and its requirements, such as Adequate Yearly Progress and 
Highly Qualified Teachers?
    A: We believe that performance pay, in the context of the Teacher 
Incentive Fund (TIF), is compatible with the current requirements of 
the ESEA, as evidenced by the use of TIF grants in recent years. The 
Administration has requested a significant increase in funding for this 
program to support State and school district efforts to develop and 
implement comprehensive strategies for strengthening the educator 
workforce and driving improvements in teacher and principal 
effectiveness.
    4. What opportunities do you see to build a new structure for 
successful principals and strong school leadership under the Obama 
Administration?
    A: School districts have the opportunity to use funds for 
innovations under the Improving Teacher Quality State Grants program in 
order to increase the number of successful principals through 
professional development, recruitment, and retention activities.
    For FY 2010, the Administration has requested $517.3 million, $420 
million more than the 2009 regular appropriation level, for the Teacher 
Incentive Fund program. Among its allowable activities, Teacher 
Incentive Fund grants support efforts to develop and implement improved 
human capital and compensation systems in order to attract and retain 
the best principals.
    The Administration has also requested a $10 million increase for 
the School Leadership program to support school district efforts to 
encourage successful school leaders to work in lower-performing 
schools. Also, through the Teacher Quality Partnership Grants program, 
the Department awards grants that can be used for, among other 
purposes, supporting school leadership programs to train 
superintendents, principals, and other school leaders in high-need or 
rural school districts.
    5. What will the new National Teacher Recruitment program look like 
and how will it bring new, quality teachers to the profession?
    A: The Administration has requested $30 million for a National 
Teacher Recruitment Campaign.
    The program would combine: (1) a public service campaign to call 
people to service as teachers; (2) web-based services to help 
prospective teachers understand the requirements for becoming a teacher 
and the preparation options available to them; and (3) a National 
Teacher Recruitment Clearinghouse, where qualified teachers can find 
employment opportunities and preparation institutions and employers can 
seek a richer pool of candidates.
    The program would target a wide range of potential teachers: 
college students who could enter undergraduate teacher preparation 
programs; recent college graduates who could enter post-BA teacher 
preparation programs and alternative routes to teacher certification; 
and mid-career professionals and paraprofessionals who are interested 
in a new career direction.
    The program will promote multiple pathways into the profession, 
such as competitive university-based programs and high-performing 
alternative certification programs.
    6. How important is the issue of tuition refunds and loan 
forgiveness for service members who are activated to the Department?
    A: Service members and veterans are very important to the 
Department. The Department administers numerous programs and benefits 
that apply to service members and veterans, as well as their families, 
while they are in college, deployed or have been graduated, and is 
committed to working with Congress on these issues. (See Question 7 for 
more specifics.)
    7. How is the Department addressing the unique needs of service 
members and military veterans attending college? What tools do you need 
from Congress to better meet these needs?
    A: The Department administers numerous programs and benefits that 
apply to service members and veterans, as well as their families, while 
they are in college, and for loans after they attend college or are 
deployed. The Department is implementing a number of new changes 
brought about by the Higher Education Opportunity Act (HEOA) amendments 
to the Higher Education Act (HEA). The Department on December 2008 
issued a ``Dear Colleague'' letter on the new HEOA changes. The 
Department has also completed the negotiated rulemaking process on new 
regulations required by the HEOA.
    The Department currently must have institutions treat veterans' 
education benefits as estimated financial assistance that count towards 
meeting the need of a student. However, the institution must exclude 
Chapter 30 benefits for purposes of eligibility for a subsidized 
Stafford Loan. The Department has made postsecondary institutions aware 
that starting with the 2010-2011 award year under the HEA, all Federal 
veterans education benefits must be excluded for purposes of 
eligibility for all of the Federal Student Aid programs. (P.L. 111-39, 
recently passed by Congress moved this date up to July 1, 2009).
    The Department has made public postsecondary institutions aware 
that it may not charge a member of the Armed Forces who is on active 
duty for a period of more than 30 days and whose domicile or permanent 
duty station is in a State that receives assistance under the HEA, nor 
his or her spouse and dependent children, a tuition rate higher than 
its in-State tuition rate. This new HEA provision is effective for the 
2009-2010 award year.
    The Department is working with the Department of Defense to 
complete a computer matching agreement to ensure that starting with the 
2009-2010 award year, the maximum Federal Pell Grant eligibility (EFC 
of zero) will be given to a student whose parent or guardian was a 
member of the armed forces and died as a result of military service in 
Iraq or Afghanistan after September 11, 2001.
    The Department is appyling the requirement of the Service members 
Civil Relief Act to the FFEL and Direct Loan programs that limits the 
interest rate on a borrower's loan to six percent during the borrower's 
active duty military service. This change applies to borrowers in 
military service as of August 14, 2008.
    The Department has taken steps to apply to Direct Loans disbursed 
on or after October 1, 2008, a new HEA provision that interest will not 
accrue on the loan of an eligible military borrower for a period of not 
more than 60 months. The eligible military borrower is one who is 
serving on active duty or performing qualifying National Guard duty 
during a war or other military operation or national emergency, and is 
in an area of hostilities in which service qualifies for special pay. 
The benefit applies to any eligible military borrower whose service 
includes August 14, 2008, or begins after that date.
    The Department has also taken steps to apply the new readmission 
requirements for service members that were effective August 14, 2008. 
An institution may not deny readmission to a service member of the 
Armed Forces for reasons relating to that service. In addition, a 
student who is readmitted to an institution under this requirement must 
be readmitted with the same academic status as the student had when he 
or she last attended the institution.
    In addition to the newer items that were mentioned above and 
brought about by the HEOA, the Department continues to apply the 
military service deferment for FFEL Loans, Direct Loans, and Perkins 
Loans during the period that the borrower is serving on active duty or 
performing eligible National Guard duty during a war, or other military 
operation, or national emergency. Also, effective October 1, 2007, 
members of the National Guard or Armed Forces Reserve, and members of 
the Armed Forces who are in a retired status, who are called to active 
duty service, are eligible for a 13-month deferment on repayment of 
their loans following the completion of their active duty military 
service.

                          LIAISON AND OUTREACH

    The Department established a new position (Special Advisor for 
Military Affairs) in the Office of Planning, Evaluation and Policy 
Development to collaboratively promote and enhance policies in the 
Department that will improve the education and overall well-being of 
military members and their families, including those attending college. 
This person's functions include serving as the liaison between the 
Department of Education and the Department of Defense for 
implementation of the Memorandum of Understanding between the two 
agencies and other cross-agency efforts.
    The Office of Communications and Outreach newsletter ``Touching 
Base'' provides online information about educational issues and 
resources pertaining to the education of military students. The 
publication highlights the activities of the Department of Education 
that have direct impact on military communities with the audience 
including military families, military organizations, and military 
support centers. It is available via e-mail and is posted on the 
Department's website at http://www.ed.gov/news/newsletters/
touchingbase/index.html.
    Federal Student Aid (FSA) staff attended Job Fairs at military 
locations in Maryland, North Carolina, and Virginia, and provided 
financial aid materials in support of events in Louisiana and Texas. 
FSA also regularly provides articles to the Department of Veterans 
Affairs for the ``Operations Iraqi Freedom/Enduring Freedom Review'' 
newsletter.
    FSA's publications, workshops, and website are very useful tools 
and resources that help military families take advantage of grants, 
scholarships, and other services. Military families can easily find 
information about financial assistance for college by accessing it from 
TurboTap.org which includes a link to www.federalstudentaid.ed.gov.

                         INSTITUTIONAL TRAINING

    In the Federal Student Aid Handbook on its website for financial 
aid officers at www.ifap.ed.gov, FSA provides ``Dear Colleague'' 
letters and electronic announcements information on the proper handling 
of military members' and veterans' issues, including their benefits 
when they apply for financial assistance for college. FSA has done 
numerous joint workshops with the Department of Veterans Affairs for 
financial aid officers to keep them up to date on changes that apply to 
veterans and their families.
    8. Given that programs such as ED's Mentoring Programs are making 
progress toward closing the gap of 15 million children without a mentor 
and connecting young people with a solid role model, what can we do to 
improve the program--perhaps through a more rigorous RFP process or 
other means--rather than end it as recommended by the President's 
Budget?
    A: We agree that connecting young people in an effective way with 
responsible adults is an important goal, particularly for youth who 
lack those connections within their families or communities. While the 
research concerning effective mentoring programs and strategies is more 
limited than we would like, we believe that positive mentoring 
relationships are most likely to flourish when there is a good match 
between mentors and assigned students, mentors are committed to the 
relationship and effectively trained, the relationship is sustained 
over a significant period of time, and mentoring activities help 
engender meaningful conversations and interactions for the mentors and 
mentees.
    We are disappointed that the results of the recently released 
evaluation of the Department's Mentoring Program grantees did not 
reflect statistically significant improvements in academic achievement 
or engagement, delinquent or high-risk behavior, or interpersonal 
relationships. For example, program grantees frequently experienced a 
delay in matching mentors and students. As a result, the average length 
of a mentoring match was less than six months, with mentors reporting 
meeting with mentees an average of 4.4 times a month for a little more 
than one hour per meeting. Given the relatively brief average amount of 
time spent in the mentoring relationships, it is not surprising that 
significant behavioral changes were not found.
    Many other Federal programs in more than a dozen agencies support 
mentoring activities. For example, the President's budget request 
includes funding for programs in the Department of Justice and the 
Corporation for national and Community Service that support mentoring 
for disadvantaged youth.
    If Congress elects to continue funding for the program at the 
Department of Education, the Department would be glad to provide any 
needed Technical Assistance.
    9. What type of research has been done to measure some of the other 
potentially positive effects of ED's Mentoring Programs, such as the 
happiness and confidence that can come from a healthy relationship with 
a responsible adult?
    A: The Institute of Education Sciences conducted a large-scale, 
experimental evaluation of ED's student mentoring program. The 
evaluation did not examine the program's impacts specifically on 
student confidence or happiness. However, it did examine its impacts on 
several other non-school-related outcomes (e.g., pro-social behaviors; 
delinquency). The study found no positive effects after one school year 
on any of these outcomes (Bernstein, et al., 2009).
    In addition, there are two other recent large-scale, experimental 
evaluations on school-based mentoring programs. The first was a study 
of the Big Brothers/Big Sisters program, which found no impacts on any 
of the non-school-related outcomes (e.g., self-esteem; assertiveness) 
that were measured at two points, after one school year and after 
fifteen months (Herrera, et al., 2007). The second study was of a 
generic school-based mentoring program, which found statistically 
significant impacts on four out of 19 non-school-related outcomes after 
one school year.

Rep. Scott
    1. Given the disparity between college retention and graduation 
rates between low-income and high-income students, how does the 
Administration plan to incorporate into its retention strategy, 
longstanding programs like TRIO, which successfully equip students with 
the academic, social, and cultural skills needed to thrive in 
institutions of higher education?
    A: The President's FY 2010 budget maintains support for TRIO at 
$905 Million. However TRIO programs do not provide a complete solution. 
The College Access and Completion Fund is more comprehensive. Through 
this program, we hope to stimulate strategic initiatives by States and 
associations of higher education institutions throughout the country, 
to systemically increase college access and completion rates far beyond 
current outcomes. In addition, there are a number of demonstrated and 
promising strategies developed by non profits that should be considered 
in order to increase college access and completion rates.
    2. The budget requests $20 million in loan subsidies to guarantee 
up to $178 million in loans under the Historically Black Colleges and 
Universities Capital Financing Program. To what extent will this meet 
the demand for such loans? Are there institutions in the pipeline with 
projects waiting to be financed? How many institutions do you 
anticipate will obtain loans in 2010?
    A: There are currently institutions with applications in the 
pipeline, and we expect to guarantee loans for 9 schools in fiscal year 
2010.
    3. There seems to be varying views on the definition of a 
``quality'' teacher and whether this translates to being an 
``effective'' teacher. What are some of your and the Department's ideas 
on addressing this concern and ensuring that classrooms are not filled 
with paper teachers (teachers that are qualified on paper because of an 
advanced degree or etc.) who are not effective and can't engage our 
youth in ways that are both beneficial and conducive to their learning?
    A: Teacher effectiveness is an Administration priority. For 
example, the FY 2010 budget includes an increase in funding for the 
Teacher Incentive Fund which will encourage changes in teacher and 
principal compensation systems as well as reward those who raise 
student achievement, close gaps, and work in the most challenging 
schools. In the State Fiscal Stabilization Fund, Race to the Top, and 
School Improvement Grants, the Administration is also focusing on 
teacher effectiveness. For example, the requirements for Race to the 
Top award points to states with teacher evaluation systems that make 
growth in student achievement a significant factor. We are also looking 
closely at this issue in the context of ESEA reauthorization.
    4. Currently, Title I regulations do not provide specific 
graduation rate goals or growth targets. I have introduced legislation, 
the Every Student Counts Act, to address the dropout crisis that hasn't 
been fixed under the No Child Left Behind model. The Every Student 
Counts Act establishes an annual graduation rate goal of 90 percent and 
a growth target of 3 percent improvement annually and supports ``growth 
models'' of accountability by setting annual benchmarks based on a 
school's own starting point. Do you support this bill?
    A: The Administration is committed to turning around low-performing 
schools, with a special emphasis on comprehensive, research-based 
interventions in chronically low-performing schools, including the 
roughly 2,000 high school ``dropout factories'' that contribute 
disproportionately to the Nation's dropout crisis.
    Specifically, the Administration's proposed budget included:
    <bullet> $50 million for a High School Graduation Initiative to 
promote innovative strategies for increasing high school graduation 
rates, particularly in the ``dropout factories'' and their feeder 
schools.
    <bullet> $1.5 billion for Title I School Improvement Grants, $1 
billion over the 2009 funding level. These funds will help build State 
and local capacity to identify and implement effective interventions to 
turn around low-performing schools. The Administration also requested 
the enactment of appropriations language requiring States to ensure 
that 40 percent of School Improvement Grant allocations are spent on 
improvement activities in middle and high schools, which would be 
another avenue to use in taking on the dropout crisis.
    <bullet> An additional $100 million for the Investing in Innovation 
Fund to help identify, evaluate, and scale up proven strategies for 
improving student achievement and closing achievement gaps in low-
performing schools, including secondary schools.
    These proposed investments represent the beginning of the 
Administration's efforts to improve graduation rates.
    The Administration looks forward to reviewing legislative proposals 
and working with Congress to find ways to strengthen accountability for 
graduation rates and incorporating growth models into Adequate Yearly 
Progress.

Rep. Titus
    1. In Nevada, we have a serious problem with high school 
completion. In 2006, the Department of Education reported a graduation 
rate for Nevada of 56%, and others have put the city of Las Vegas at an 
even lower rate of 44%-both far below the national average of about 
75%. In my congressional District there were 4 dropout factories and 5 
with graduation rates lower than 70%. Nevada has been particularly 
hard-hit by the economic downturn and is facing unemployment rates that 
are the highest they have been in 25 years, so the low graduation rates 
are even more disturbing since we know that students without a high 
school diploma will find it difficult to find jobs and wil earn less 
when they do. I know you are concerned about this issue. I was 
heartened by your comments this morning, encouraged by the increases in 
your and the President's budget, and intrigued by the recent accounts 
of your conversation with students themselves about why they drop out. 
You said in a recent interview, ``I think we know many of the 
answers.'' Your 2010 budget request includes a $1 billion increase for 
Title I School Improvement Grants. The budget summary states, ``This 
request reflects the Administration's determination to take immediate 
action to begin addressing the factors that contribute to the high 
school dropout crisis in American education.'' You started to give us 
some details earlier and were cut off, so I'd ask you to please 
continue and elaborate on the details of how the School Improvement 
Grants will help improve our nation's and my state's graduation rates?
    A: The $1 billion increase requested for Title I School Improvement 
Grants (SIG) reflects the strong priority that the Administration is 
placing on identifying and implementing effective strategies for 
turning around low-performing schools and making sure that States and 
LEAs have the resources needed to meet the ambitious proficiency goals 
set by the ESEA. In addition, the request would require States to 
ensure that least 40 percent of their SIG allocations are spent on 
school improvement activities in their middle and high schools, unless 
the State can serve all eligible middle and high schools with a lesser 
amount. This targeting request reflects the Administration's 
determination to take immediate action to begin addressing the factors 
that contribute to the high school dropout crisis in American 
education.
    Section 1003(g) of the ESEA authorizes formula grants to States to 
fund local school improvement activities required by section 1116(b) of 
the ESEA for Title I schools that do not make adequate yearly progress 
for at least 2 consecutive years. Authorized activities include the 
development and implementation of school improvement plans, 
professional development for teachers and staff, corrective actions 
such as instituting a new curriculum, alternative governance under a 
restructuring plan, and the provision of public school choice and 
supplemental educational services options.

Rep. Woolsey
    1. As you look at the Race to the Top funds and other programs that 
incentivize innovation, how is the Administration planning to work with 
states and school districts to make sure more girls and minorities are 
becoming interested in and doing well in math and science classes?
    A: The Department is taking an active role in this area, as well as 
ensuring that States, school districts, non-profits, and others can 
help more girls and minorities become interested and do well in math 
and science in ways they determine will lead to greatest outcomes for 
their students. For example, through rigorous enforcement of Title IX, 
we will work to identify and remedy disparities in access to STEM 
education. Applicants for Race to the Top will receive a competitive 
preference for including in their application a description of a high-
quality plan to emphasize STEM education, including by addressing the 
STEM education needs of underrepresented groups, such as women and 
girls. The Department is also working closely with the White House and 
developing interagency partnerships through the Council on Women and 
Girls.
    2. How do you envision the improvement of child care quality 
fitting into the proposed Early Learning Challenge Fund?
    A: The Administration's proposed Early Learning Challenge Fund 
would help States develop a pathway to a high standard of program 
quality across early learning programs, including child care programs. 
Child care programs are a crucial component of our early learning 
systems, and any effort to improve and strengthen these systems will 
include the child care system.
    3. How can we work together to ensure that all forms of early 
childhood care and education are receiving access to the Early Learning 
Challenge funds and the assistance to improve quality for our nation's 
children?
    A: Our ultimate goal is the seamless delivery of services to our 
young children and their families. With this goal in mind, the 
Department of Education and the Department of Health and Human Services 
have begun to work closely together to improve program coordination and 
to ensure that all early learning programs would benefit from State-
wide systematic quality improvements that the Early Learning Challenge 
Fund would support. These two agencies' collaborative work sets not 
only the tone, but the precedent that agencies, offices, States, 
programs, communities, and community-based organizations must work 
together to improve the quality of our early learning programs. States 
will be encouraged to build and strengthen their infrastructure in a 
comprehensive, integrated manner. States will also be encouraged to 
link early learning programs to health, disabilities and family 
support.
    4. Historically, the Department of Health and Human Services has 
had much of the jurisdiction over early childhood programs, 
particularly child care. How do you plan to work with the Department of 
Health and Human Services to improve the coordination and delivery of 
services to children under the age of five? Specifically, In light of 
the Early Learning Challenge Grants proposal, how do you plan to 
coordinate the development and implementation of this proposal with 
HHS?
    A: The Administration is committed to the successful joint 
administration of the Early Learning Challenge Fund, and my Department 
and the Department of Health and Human Services already are working to 
develop a process to fulfill that commitment.
                                 ______
                                 
    [Whereupon, at 12:02 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
